<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                        WEDNESDAY, MAY 14, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:59 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin, Cochran, Shelby, Collins, and 
Murkowski.

                         DEPARTMENT OF DEFENSE

                    Defense Research and Innovation

STATEMENT OF ALAN SHAFFER, ASSISTANT SECRETARY OF 

            DEFENSE FOR RESEARCH AND ENGINEERING


             opening statement of senator richard j. durbin


    Senator Durbin. Good morning. Today the subcommittee meets 
to receive testimony on the fiscal year 2015 budget request for 
science and technology (S&T) funding for the Department of 
Defense (DOD), the military services, and defense medical 
research programs.
    I want to welcome our witnesses: Mr. Alan Shaffer, Acting 
Assistant Secretary of Defense for Development, Research and 
Engineering for the Department of Defense; Dr. Arati Prabhakar, 
Director of DARPA (Defense Advanced Research Projects Agency); 
Dr. Terry Rauch, Director of Defense Medical Research and 
Development Program with the Office of Force Health Protection 
and Readiness Programs; Ms. Mary Miller, Deputy Assistant 
Secretary of the Army for Research and Technology; Dr. David 
Walker, Deputy Assistant Secretary of the Air Force for 
Science, Technology, and Engineering; and Rear Admiral Matthew 
Klunder, Chief of Naval Research.
    This year's budget request for science and technology 
funding among the Department and the services is $11.5 billion 
out of a total research and development (R&D) request of $63.5 
billion. In fiscal year 2015, the overall R&D budget increases 
$569 million. However, this growth is not reflected in science 
and technology research. Basic research is down by $150 million 
across the Department and the services, overall science and 
technology reduced by almost $500 million. I hope our witnesses 
can provide some insight into the choices that need to be made 
with these numbers.
    Science and technology investments have led to stunning 
advancements on behalf of our military men and women and the 
Nation. From DARPA's early investments that led to the Internet 
to the Department's development of one of the most widely used 
drugs to fight breast cancer, these investments are critical in 
keeping the U.S. at the top when it comes to new ideas and new 
innovation.
    I am worried that the budget decisions we have made over 
the past several years may be putting this leadership at risk.
    Two weeks ago, the full Appropriations Committee held a 
hearing examining Federal investments that drive innovation. 
During that hearing, Dr. Collins from NIH (National Institutes 
of Health) presented a slide that was extremely worrisome. I 
have provided a copy to our members and our witnesses. It shows 
the relative decline in U.S. Federal investment in biomedical 
research and compares this with the research of our allies and 
competitors who are significantly increasing their biomedical 
investments.
    To address this research deficit, I have introduced a bill. 
It is called the America Cures Act. The bill will make stable 
investments in biomedical research at a rate of inflation plus 
5 percent. This funding would provide stability to NIH, CDC 
(Centers for Disease Control and Prevention), the Department of 
Defense, and the Department of Veterans Affairs (VA) so they 
can plan and execute their research programs with certainty.
    But it is not just our biomedical edge that is at risk. 
Lagging investments in science and technology risk sacrificing 
America's technological edge to our enemies. It also poses 
significant challenges to sustaining America's talented pool of 
engineers and Ph.D.'s in computing, materials science, and many 
other fields.
    Advances in these fields are not just for our national 
security. They find their way into high-tech components in 
almost every household in America. Right now, we are carrying 
around in our pockets a GPS device. This was designed and 
originally discovered with the launch of Sputnik, a satellite 
in 1957. They tried to track that Russian satellite and the 
beep that it was emitting they were able to determine how they 
could position themselves on earth and identify that location 
based on where the satellite was. Now we carry it around in our 
pockets and do not think twice about it. That is the kind of 
thing where what looks like pure defense research turns out to 
be research of great value to us in many other areas. The 
gyroscopes in our cell phones, lithium batteries--the list goes 
on and on--originating in the Department of Defense.
    Ignorance is no shelter or refuge. I think back to that 
same era when Congress decided to create the National Defense 
Education Act in 1958, the first time in the history of the 
United States that we gave scholarships to anyone who was not a 
veteran. And the reason was we were scared of the Soviet Union 
and their satellites. Our first line of defense was to educate 
America. Let us get ready to fight this battle with people who 
are well educated and trained and can not only defend us but 
make us a stronger Nation and a stronger economy.
    Now look where we are today. We are backing off of our 
commitment to research, science, and technology. What does that 
say about our future? How do we explain that to our kids? 
Extremely shortsighted. That is why we are having this hearing.
    I look forward to your testimony and note your full 
statements will be part of the record.


                           prepared statement


    Before I turn to the vice chairman of the subcommittee, 
Senator Thad Cochran, Senator Collins submitted a statement to 
be included in the record.
    [The statement follows:]
             Prepared Statement of Senator Susan M. Collins
    Thank you, Chairman Durbin, for holding this important hearing on 
Defense Research and Innovation.
    Research and innovation reflect the American spirit of ingenuity. 
Our national labs, colleges and universities (including the University 
of Maine), private sector entrepreneurs, small businesses, investors, 
and countless others play a significant role in spurring innovation, 
and we should support policies that encourage such inventiveness and 
allow the United States to remain a leader in creating cutting edge 
technologies. I would note that one area where we can do more to 
encourage innovation is increasing investment in small businesses that 
are developing technologies that contribute to the national defense and 
reducing the barriers they face in contracting with the Federal 
Government.
    The Rapid Innovation Program, which transitions small business 
technologies into Defense Acquisition Programs, is a great example of 
how the Defense Department can assist small business innovation. 
MARCOR, located in Boothbay, Maine, is just one of the more than 360 
companies since 2011 that have received contracts worth nearly $900 
million in research and development (R&D) investment.
    Another program that makes it easier for small businesses to apply 
their innovation to our national security is through the Procurement 
Technical Assistance Program, which has six locations in Maine. This 
program helps small businesses seeking to do business with the Federal 
Government. The Procurement Technical Assistance Centers plays a 
critical role in facilitating matches by connecting small businesses 
with prime contractors and Federal agencies, and by helping them 
through the contracting process from start to finish.
    A strong partnership between the public and private sectors is 
vital to getting the most out of our R&D dollars, and as such this 
partnership is vital to our national security as well.
    I look forward to your testimony today.

    Senator Durbin. Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, I am pleased to join you in 
welcoming our panel of witnesses at the hearing this morning. 
We appreciate the work that you do in identifying areas of 
emphasis where we want to be sure that we appropriate the 
adequate sum of dollars that are needed to take advantage of 
the emerging technology in our society as it relates to our 
national defense and the security of American citizens. We 
thank you for being here this morning to share your thoughts 
and observations about these issues.
    Thank you.
    Senator Durbin. Thank you very much, Senator Cochran.
    We are going to ask the witnesses to each give a brief 
opening statement before questions, and of course, their 
written statements will be made part of the record.
    Mr. Shaffer, why do you not start?

                   SUMMARY STATEMENT OF ALAN SHAFFER

    Mr. Shaffer. Chairman Durbin, Vice Chairman Cochran, 
members of the committee, I am pleased to come before you today 
to testify about the state of the Department of Defense science 
and technology program. I am proud to be here representing the 
roughly 100,000 scientists and engineers in the Department's 
workforce, a workforce that has provided, as you said, Mr. 
Senator, remarkable achievements in the past but one that is 
now showing the early stages of stress due to downsizing and 
the combined sequester, furlough, and Government shutdown 
challenges of the last year. These affected the health of our 
workforce and their programs they execute in ways we are just 
beginning to understand. We have begun to address these 
challenges, but they remain a concern to us.
    As you said, sir, the 2015 S&T budget request is down about 
5 percent to $11.5 billion compared to the fiscal year 2014 $12 
billion request. While the DOD tries to balance our overall 
program, there are factors that led Secretary Hagel to conclude 
in his February 24 budget rollout that we are entering an era 
where American dominance on the seas, in the skies, and in 
space can no longer be taken for granted.
    The Department is in the third year of a protracted overall 
budget drawdown and, as highlighted by Secretary Hagel, there 
are three major areas that compromise the Department's budget: 
force size, readiness, and modernization.
    The current budget is driving a force reduction, but this 
reduction will take several years to yield savings. In the 
fiscal year 2015 budget, readiness and/or modernization will 
pay a larger percentage of the overall Department bill.
    To address the challenges, we needed to examine the 
strategy we are using to focus the S&T investment on high 
priority areas. From that review emerged a strategy for 
investment. The Department invests in science and technology 
for one of three reasons.
    The first is to mitigate new and emerging threat 
capabilities, and we see a significant need in the areas of 
electronic warfare, cyber, counter-weapons of mass destruction, 
and preserving space capabilities.
    The second reason we invest in science and technology is to 
affordably enable new or extended capabilities in existing 
military systems and our future systems. We see a significant 
need in growing our Department's system engineering, modeling 
and simulation and prototyping.
    The third reason we invest in science and technology is to 
develop technology surprise. We want to keep potential 
adversaries on their heels. We see significant need in areas 
such as autonomy, human systems, quantum sensing, and big data.
    While there are challenges, the Department continues to 
perform. I would like to highlight several areas.
    First, advances in understanding and treating such things 
as traumatic brain injury. In addition, to the DARPA BRAIN 
(Brain Research through Advancing Innovative Neurotechnologies) 
Initiative, the Department has developed some successful 
technologies in this area in both the medical research program 
and in our Army's research program. The combination of DARPA's 
small blast gauge to measure the blast over-pressures and 
acceleration of the head, coupled with the Defense Health 
Programs' advances in therapeutics and photonic medicine, 
provides promise to allow us to treat TBI (traumatic brain 
injury) more quickly and effectively. The photonics 
advancements, I will tell you, show real potential. Growing out 
of that program, researchers have discovered that intense light 
outside the skull prevents brain tissue decay after a TBI-
inducing event. The treatment is in clinical trials.
    The Air Force X-51 WaveRider hypersonic demonstration was 
the second successful demonstration of powered scramjet 
technology demonstrating that we are getting close to 
developing a full hypersonic system. No one else in the world 
has done this.
    The Navy is making dramatic progress on high energy laser 
systems and is deploying a 30-kilowatt electric laser on the 
USS Ponce this summer. If successful, this will be the first 
operational deployment of a directed energy system.

                           PREPARED STATEMENT

    The Army is forging the next generation of military 
helicopters with their joint multirole technology demonstrator, 
a program currently in design phase with four vendors leading 
to the next generation of military-relevant helicopters.
    These successes highlight that in spite of a difficult year 
and in spite of difficult budget pressures, the DOD S&T program 
continues to produce capability for our future force. With your 
continued support, I am confident we will continue to do so in 
the future.
    [The statement follows:]
                 Prepared Statement of Alan R. Shaffer
    Chairman Durbin, Vice Chairman Cochran, members of the committee: I 
am pleased to come before you today to testify about the state of the 
Department of Defense's science and technology (S&T) program. I am 
proud to be here representing the roughly 100,000 scientists and 
engineers in the science and engineering (S&E) workforce, a workforce 
that has had remarkable achievements in the past, but is now a 
workforce showing the early stages of stress due to downsizing and the 
budget challenges of the last year. This past year has been unlike 
previous years in our community; the collective impact of the 
sequester-forced civilian furlough and program curtailment, the October 
2013 Government shutdown, and the indirect impacts of the sequester, 
such as restrictions on our young scientists and engineers attending 
technical conferences, has impacted the health of our workforce and the 
programs they execute in ways that we are just beginning to understand. 
We have begun to address these challenges but they remain a concern for 
us.
                              introduction
    The fiscal year 2015 budget request for science and technology 
(S&T) \1\ is relatively stable, when compared to the overall DOD top 
line \2\ and modernization accounts. The DOD fiscal year 2015 S&T 
request is $11.51 billion, compared to an fiscal year 2014 
appropriation of $12.01 billion. This request represents a 4.1 percent 
decrease (5.8 percent in real buying power) in the Department's S&T 
compared to Research, Development, Test and Evaluation (RDT&E) account 
that was virtually unchanged. While we continue to execute a balanced 
program overall, there are factors that led Secretary Hagel to conclude 
in his February 24, 2014 fiscal year 2015 budget rollout that ``we are 
entering an era where American dominance on the seas, in the skies, and 
in space can no longer be taken for granted''.\3\
---------------------------------------------------------------------------
    \1\ Science and Technology is defined as program 6, budget 
activities 1, 2, and 3; frequently called 6.1, 6.2, and 6.3 (basic 
research, applied research, and advanced technology development); 
Research and Engineering adds Advanced Capability Development and 
Prototyping (6.4).
    \2\ Top line refers to the total funds appropriated by Congress to 
include ``supplemental'' or Oversees Contingency Operations funds.
    \3\ Remarks by Secretary Hagel on the fiscal year 2015 budget 
preview in the Pentagon Briefing Room on 24 February 2014.
---------------------------------------------------------------------------
    Simultaneous with the challenges of balancing a reduced budget and 
continuing to engage the total defense workforce in meaningful research 
and engineering (R&E), the capability challenges to our R&E program are 
also increasing. This is attributable to changes in the global S&T 
landscape and the acceleration globally of development of advanced 
military capabilities that could impact the superiority of U.S. 
systems. The convergence of declining budgets, in real terms, and 
increased risk is not a comfortable place to be. However, as I will 
highlight in the latter sections of my statement, the Department has 
begun to reshape the focus of our technical programs to address some of 
our new challenges. We are also beginning to shift our programs to 
better position the Department to meet our national security 
challenges. Finally, we have some areas where we need your help in 
order to be successful executing our fiscal year 2015 budget. I will 
cover these areas at the end of my statement.
              fiscal year 2015 president's budget request
    The current fiscal environment presents significant challenges to 
the DOD budget. The Department is in the third year of a protracted 
overall topline and RDT&E budget drawdown. As highlighted by Secretary 
Hagel, there are three major areas that comprise the Department's 
budget: force size, readiness, and modernization. The current budget is 
driving a force reduction, but this reduction will take several years 
to yield significant savings. In the fiscal year 2015 budget, readiness 
and/or modernization will pay a larger percentage of the ``bill''. As a 
former airman who entered service in the 1970s, I am very well aware of 
what happens when savings are gleaned from readiness--the hollow force 
is not acceptable. Over the next several years of the budget we expect 
modernization accounts (Procurement and RDT&E) to pay a large portion 
of the Department's fiscal reduction bill. At the same time, Secretary 
Hagel's strategy is to protect advanced technologies and capabilities. 
The fiscal year 2015 budget must balance all of these drivers; we 
believe we have done well, but do acknowledge there is increased risk.
    The last several budgets have been characterized by instability and 
rapid decline of the modernization accounts. The fiscal year 2013 
sequestration reduced all accounts by 8.7 percent; for S&T, this 
amounted to a loss of about $1 billion. The December 2013 Bipartisan 
Budget Act increased the discretionary caps in fiscal year 2014 and 
fiscal year 2015 to provide some relief, but less in fiscal year 2015 
than fiscal year 2014. From fiscal year 2013 to 2015, the S&T program 
operated with reductions of $1.4 billion compared to what had been 
planned in the fiscal year 2013 budget.
    One of the key points for S&T of the fiscal year 2015 budget is a 
shift in focus at the macro scale from basic research to advanced 
technology development and a shift from the Services to DARPA to 
develop advanced capabilities. In fiscal year 2015, we funded DARPA at 
the same level, after inflation, as was planned in fiscal year 2014 
PBR. These numbers are shown in Tables 1 and 2.

----------------------------------------------------------------------------------------------------------------
                                                                                                   % Real change
                                                                   FY 2014      PBR 2015  (FY 14   from FY 2014
                                                                appropriated         CY $M)        appropriated
                                                                    ($M)                           (FY 14 CY $)
----------------------------------------------------------------------------------------------------------------
Basic Research (BA 1)........................................           2,167    2,018   (1,982)          -8.55%
Applied Research (BA 2)......................................           4,641    4,457   (4,378)          -5.66%
Advanced Technology Development (BA 3).......................           5,201    5,040   (4,951)          -4.81%
                                                              --------------------------------------------------
      DOD S&T................................................          12,009   11,515  (11,311)          -5.81%
 
Advanced Component Development and Prototypes (BA 4).........          11,635   12,334  (12,116)           4.14%
                                                              --------------------------------------------------
      DOD R&E (BAs 1-4)......................................          23,644   23,849  (23,427)          -0.92%
 
DOD Topline..................................................         496,000  495,604 (486,841)          -1.85%
----------------------------------------------------------------------------------------------------------------
Table 1--Defense Budget for Science &Technology; Research & Engineering; and DOD Top Line Budget (FY 2014
  Appropriated and PBR 2015).



----------------------------------------------------------------------------------------------------------------
                                                                                                   % Real change
                                                                   FY 2014      PBR 2015  (FY 14   from FY 2014
                                                                appropriated         CY $M)        appropriated
                                                                    ($M)                           (FY 14 CY $)
----------------------------------------------------------------------------------------------------------------
Army.........................................................           2,455    2,205   (2,166)         -11.77%
Navy.........................................................           2,102    1,992   (1,957)          -6.91%
Air Force....................................................           2,308    2,129   (2,091)          -9.39%
DARPA........................................................           2,707    2,843   (2,793)           3.17%
Missile Defense Agency (MDA).................................             255      176     (173)         -32.20%
Defense Threat Reduction Agency (DTRA).......................             476      473     (465)          -2.39%
Chem Bio Defense Program (CBDP)..............................             393      407     (400)           1.73%
Other Defense Agencies.......................................           1,313    1,290   (1,267)          -3.49%
                                                              --------------------------------------------------
      DOD S&T................................................          12,009   11,515  (11,311)          -5.81%
----------------------------------------------------------------------------------------------------------------
Table 2--Service and Agencies S&T Budgets (FY 2014 Appropriated and PBR 2015)

Research and Development is Not a Variable Cost
    Over the past decade, the R&D accounts have been quite variable, 
but this counters one of the key tenets of R&D investment made by the 
Honorable Frank Kendall in discussing the fiscal year 2015 budget. 
There has been a tendency in the past to reduce research and 
development more or less proportionately to other budget reductions. 
This tendency, if acted upon, can be detrimental because research and 
development costs are not directly related to the size of our force or 
the size of the inventory we intend to support. The cost of developing 
a new weapons system is the same no matter how many units are produced. 
In a recent speech, Secretary Kendall explained the invariant nature of 
research and development this way:

      R&D is not a variable cost. R&D drives our rate of modernization. 
        It has nothing to do with the size of the force structure. So, 
        when you cut R&D, you are cutting your ability to modernize on 
        a certain time scale, period--no matter how big your force 
        structure is.\4\
---------------------------------------------------------------------------
    \4\ Honorable Frank Kendall presentation to McAleese/Credit Suisse 
fiscal year 2015 Defense Programs Conference on 25 February 2014.

If we don't do the research and development for a new system than the 
number of systems of that type we will have is zero. It is not 
variable.
    Secretary Kendall said it this way:

      [T]he investments we're making now in technology are going to 
        give us the forces that we're going to have in the future. The 
        forces we have now came out of investments that were made, to 
        some extent, in the 80s and 90s . . . if you give up the time 
        it takes for lead time to get . . .  a capability, you are not 
        going to get that back.\5\
---------------------------------------------------------------------------
    \5\ Kendall, 25 February 2014.

    There is another trend impacting the Department's ability to 
deliver advanced capabilities. Recent data from the Nation Science 
Foundation shows an upward trend in industry R&D spending compared to a 
downward trend in Federal Government R&D spending (Figure 1). Industry 
in the United States performs roughly 70 percent of the Nation's R&D 
with the Federal Government and academia making up the remaining 30 
percent. Figure 1 also shows the dependence of academic researchers on 
Federal Government funding, as noted by the National Science Board:
    Most of U.S. basic research is conducted at universities and 
colleges and funded by the Federal Government. However, the largest 
share of U.S. total R&D is development, which is largely performed by 
the business sector. The business sector also performs the majority of 
applied research.\6\
---------------------------------------------------------------------------
    \6\ National Science Board. 2014. Science and Engineering 
Indicators 2014. Arlington VA: National Science Foundation (NSB 14-01).
---------------------------------------------------------------------------
    This implies that DOD needs to be more cognizant of industry R&D as 
part of our overall capability development and remain sensitive to the 
importance of federally funded academic research. We continue to push 
in these areas through our continued support of the university research 
portfolio and our recent emphasis on Independent Research and 
Development (IR&D).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


          Figure 1--Changes in US GDP and R&D by Performer \7\
---------------------------------------------------------------------------
    \7\ Science magazine. 13 January 2014. Retrieved from http://
news.sciencemag.org.
---------------------------------------------------------------------------
                   science and engineering workforce
    The Department's scientist and engineering (S&E) workforce consists 
of in-house labs, engineering centers, test ranges, acquisition program 
offices and so forth, and is augmented by our partners in the federally 
funded research and development centers (FFRDCs) and University 
Affiliated Research Centers (UARCs). The talented scientists and 
engineers working within these organizations form the foundation of the 
Department's technology base and are responsible for conceiving and 
executing programs from basic research through demilitarization of 
weapon systems. The technical health of this workforce is a priority 
for me and the Department.
    Our in-house labs have been designated by Congress as Science & 
Technology Reinvention Laboratories (STRL) providing the directors of 
these facilities special authorities to manage their workforce via pay-
for-performance personnel systems. Each director is granted flexibility 
to create workforce policies unique to his/her lab with new personnel 
initiatives being transferable to other STRLs if proven to be effective 
in the hiring, retention and training of S&Es. Each year my office 
works with the Services and their labs to ensure they have the 
authorities our lab directors need. Recent accomplishments include 
direct hiring authority for bachelors, masters and doctoral level 
graduates, increase in the number of technical senior executive 
billets, and authority for lab directors to manage their workforce 
based upon available budgets.
    Data from the Strategic Human Capital Workforce Plan published in 
September 2013 indicates that our lab workforce is getting older. From 
2011 to 2013, the average age of our scientists and engineers in our 
labs has grown from 45.6 years to 45.7 years for scientists and from 
43.2 years to 43.9 years for our engineers. Although the change seems 
minimal over the past 2 years, it reverses the trend over the past 
decade when we had been driving the average age down. Data from the 
Science and Technology Functional Community indicate that the 
combination of fewer new hires and retirement-eligible employees 
working longer both contribute to the increase in average age. In 2013, 
there were only 731 new hires in the S&T Functional Community, whereas 
in 2010 there were 1,884. In 2010, retiring workers were retirement-
eligible for an average of only 4.1 years. From 2011-2013, that average 
grew to 4.5 years. The trend indicates that we may not be replacing our 
seasoned employees with enough young scientists and engineers who will 
shape our future. This could be an indicator of older employees working 
longer because of a down economy or it could be an indicator that we 
are not hiring or retaining enough young scientists and engineers.
    Although anecdotal, we are seeing a trend in why younger workers 
may be leaving. We saw a number of young scientists and engineers leave 
in 2013, early in their career. In conducting exit interviews, our 
laboratory directors reported that these young workers consistently 
cited travel and conference restrictions, as well as perceived 
instability of a long term career as motivating factors for their 
departure. This information, although anecdotal, is of concern; 
consequently, we are attempting to gather data to see if we can discern 
a definite signal.
    Another area of significant Department and national interest is 
building a robust science and engineering workforce through various 
Science, Technology, Engineering, and Mathematics (STEM) initiatives. 
My office recently created the STEM Executive Board who has the 
authority and continues to provide strategic leadership for the 
Department's STEM initiatives.
    Significant change to the Federal portfolio of STEM programs has 
occurred over the past year. In response to the requirements of the 
America Competes Reauthorization Act of 2010, Federal STEM-education 
programs were reorganized with the goals of greater coherence, 
efficiency, ease of evaluation, and focus on the highest priorities. 
This resulted in the Federal STEM Education 5-Year Strategic Plan 
designating the Smithsonian, Department of Education and National 
Science Foundation as lead agencies in implementing this plan. The DOD 
STEM Strategic plan is aligned with the Federal plan to achieve Federal 
and Departmental STEM education goals.
    We are also developing Department-wide guidance on STEM program 
evaluation, coordinating within the Department and across the Federal 
Government to improve effectiveness and efficiencies in these 
investments in future workforce needs. A DOD STEM Annual Report, 
expected to be delivered in fiscal year 2015 based on fiscal year 2014 
data, will communicate the activities and results in achieving 
Departmental goals.
    In summary, budget constraints, furloughs, and conference and 
travel restrictions have contributed to a drain on our most valuable 
resource--people. To replace our losses and rebuild our workforce for 
the future, we are working on bringing stability back to our S&E 
programs, give our people challenging while enriching environments in 
which to work.
          challenges to maintaining technological superiority
    The United States has relied on a DOD that has had technological 
superiority for the better part of the post-World War II era. There are 
factors that are converging such that the DOD maintaining technological 
superiority is now being challenged. These challenges come from both 
changes in the way technology matures and in advanced capabilities 
being developed in the rest of the world. The Department is emerging 
from over a decade of focusing on countering terrorism and insurgency. 
While the challenges of counter terrorism remain, new national security 
challenges are emerging. Other nations are developing advanced 
capabilities in areas such as: cyber operations, advanced electronic 
warfare, proliferation of ballistic missiles for strategic and tactical 
intent, contested space, networked integrated air defenses, and a host 
of other capabilities stressing the Department's capability advantages. 
The Department's S&T program is being re-vectored to meet these new 
challenges. In addition, the Department is shifting to a focus on the 
Asia-Pacific region, a region with unique and challenging geographic 
and cultural features. Most notably, the geographic extent of the Asia 
Pacific region adds new challenges in terms of fuel efficiency and 
logistics.
    In short, the Department and Nation are at a strategic crossroads--
the funds available to the Department (and national security 
infrastructure in general) are decreasing, while the complexity and 
depth of the national security challenges are growing. The world we 
live in is an uncertain place. Secretary Hagel said it best in his 
recent roll out of the fiscal year 2015 budget:

      The development and proliferation of more advanced military 
        technologies by other nations that means that we are entering 
        an era where American dominance on the seas, in the skies, and 
        in space can no longer be taken for granted.\8\
---------------------------------------------------------------------------
    \8\ Remarks by Secretary Hagel on the fiscal year 2015 budget 
preview in the Pentagon Briefing Room on 24 February 2014.

---------------------------------------------------------------------------
    Secretary Hagel went on to say:

      To fulfill this strategy DOD will continue to shift its 
        operational focus and forces to the Asia-Pacific, sustain 
        commitments to key allies and partners in the Middle East and 
        Europe, maintain engagement in other regions, and continue to 
        aggressively pursue global terrorist networks.\9\
---------------------------------------------------------------------------
    \9\ Hagel, 24 February 2014.

    Global Changes in S&T Impact Technology Development.--The nature of 
the international technology landscape is much different than it was 
even 20 years ago in two fundamental ways:
  --Many technologies of importance to the Department's capability 
        developments are driven by the commercial sector, and have 
        become a global commodity.
  --The pace of maturation of technology is accelerating; that is, 
        technology maturation occurs on a more rapid scale than in the 
        past.
    Our DOD S&T community needs to identify areas where technology has 
become a global commodity and not expend resources working to develop 
the same capability. We must track global technology developments, 
harness them and apply the technology to our needs. This year, we have 
initiated a project at the Defense Technical Information Center to 
improve our ability understand global technology development, and are 
in pilot phase to use automated tools to assess technology advances.
    We already know that industry drives most microelectronics and 
semiconductors development; older infrared focal planes, routine 
communications, computers. The technology coming from these sectors is 
sufficient to meet most DOD capability needs. The DOD should be an 
adopter, not a leader in these areas while addressing the unique 
security concerns of these technologies used in our military, cyber and 
IT systems. The DOD should focus our research in technology integration 
or in developing technologies into products at performance levels 
beyond those commercially available or planned. Examples would include 
electronic travelling wave tubes (led by Naval Research Lab), which 
provide higher frequency and higher power output than is needed in 
commercial applications; and infra-red (IR) ``super lattice'' 
semiconductors (led by the Army's Night Vision Laboratory), which give 
high enough resolution in IR to make ``movies'' out of simple data and 
images. The DOD should monitor and apply these technologies to meet our 
needs.
    At the same time, we know that the time to mature many technologies 
is decreasing. We have seen the time from invention to market 
penetration decrease by a factor of two over the past half century. 
Consequently, I would like to cite comments made by Mr. Frank Kendall, 
Under Secretary of Defense for Acquisition, Technology, and Logistics, 
who states that one of the key factors to maintaining technological 
superiority is to maintain a steady investment in technology.

      The effects of time (lost) cannot be reversed. It is well 
        understood in the R&D community, and most particularly in the 
        S&T community, that the investments we make today may not 
        result in capability for a generation. It takes upwards of 5, 
        10, even 20 years to develop a new system, test it, and put it 
        into production. By taking higher risks and accepting 
        inefficiencies and higher costs we can reduce the ``time to 
        market'' of new weapon systems; in fact, we have reduced this 
        time . . . with reforms put in place in recent years.

    Even during World War II we fought with the systems that had been 
in development for years before the war began. We can shorten, but not 
eliminate the time required to field new cutting edge weapons systems. 
But one thing is for sure, if we do not make R&D investments today, we 
will not have the capability in the future.
    Capability Changes to DOD Technology Superiority.--More significant 
than the changes in how technology is developed and delivered globally 
are changes in military capabilities being developed by other nations.
    I will cite just one example; there are many more. The convergence 
of advanced digital signals and computer processing has given rise to 
proliferation of a new class of system--the digital radio frequency 
memory (DRFM) jammer. DRFM jammers are fairly inexpensive electronic 
systems that ingest the radar (or communications) signal, analyze the 
digital waveform, and then generate random signals, with the same 
waveform, back to the transmitting radar receiver. The result is the 
radar system sees a large number of ``electronic'' targets. If the U.S. 
employed conventional weapons systems using the traditional methods, we 
could shoot at or chase a lot of false targets. The consequence is that 
the U.S. needs to develop a counter to DRFM jammers.
    The convergence of computer processing, digital signal processing, 
digital electronics, optical fibers, and precise timekeeping are giving 
rise to inexpensive enablers that can improve the ability to counter 
conventional weapons platforms. We are starting to see other nations 
advance technologies to counter U.S. overmatch by combining the 
components listed above to enhance capabilities in electronic warfare, 
longer range air-to-air missiles, radars operating in non-conventional 
bandwidths, counter-space capabilities, longer range and more accurate 
ballistic and cruise missiles, improved undersea warfare capabilities, 
as well as cyber and information operations. We see these types of new 
capabilities emerging from many countries; to include China, Iran, 
Russia and North Korea. This has led to a situation where, in the next 
5 to 10 years, U.S. superiority in many warfare domains will be at 
risk. Accordingly, the following section highlights some of the areas 
where we are watching.
    Proliferation of Weapons of Mass Destruction (WMD).--The 2013 
National Security Interests published by the Chairman of the Joint 
Chiefs of Staff lists as the top priority interest ``Survival of the 
Homeland''. The one existential threat to the United States comes from 
Weapons of Mass Destruction. Traditionally, WMD has included nuclear, 
chemical and biological weapons and their delivery systems. The 
emergence of new countries with nuclear ambitions, such as North Korea 
and Iran, make today's world much more dangerous. Chemical and 
biological weapons, used in both World Wars, have been resurgent in the 
past two decades. Perhaps the gravest danger for the United States and 
the rest of the world is the possibility of WMD falling into the hands 
of terrorist groups and other groups in the midst of instability. We 
must continue our vigilance in this area and continue to develop ways 
to deal with their use.
    The United States is currently rebalancing to the Asia Pacific 
region. As we do so, the Department is faced with a host of new 
challenges. I will discuss some of the challenges over the next several 
paragraphs.
    Vulnerability of the U.S. Surface Fleet and Forward Bases in the 
Western Pacific.--U.S. Navy ships and Western Pacific bases are 
vulnerable to missile strikes from ballistic and cruise missiles 
already in the inventory. China has prioritized land-based ballistic 
and cruise missile programs to extend their strike warfare capabilities 
further from its borders. Chinese military analysts have concluded that 
logistics and power projection are potential vulnerabilities in modern 
warfare, given the requirements for precision in coordinating 
transportation, communications, and logistics networks. China is 
fielding an array of conventionally armed ballistic missiles, ground- 
and air-launched land-attack cruise missiles, special operations 
forces, and cyber-warfare capabilities to hold targets at risk 
throughout the region. The most mature theater missiles are the DF-21 
C/D, which both have 1,500 km radius. They are also developing a longer 
range missile that would be able to strike as far as Guam. These 
ballistic missiles are coupled with advanced cruise missiles that could 
threaten any surface warfare fleet by 2020.
    The People's Liberation Army (PLA) Navy has the largest force of 
major combatants, submarines, and amphibious warfare ships in Asia. 
China's naval forces include some 79 principal surface combatants,\10\ 
more than 55 submarines, 55 medium and large amphibious ships, and 
roughly 85 missile-equipped small combatants. The first Chinese-built 
carrier will likely be operational sometime in the second half of this 
decade. In the next decade, China will likely construct the Type 095 
guided-missile attack submarine (SSGN), which may enable a submarine-
based land-attack capability. In addition to likely incorporating 
better quieting technologies, the Type 095 will likely fulfill 
traditional anti-ship roles with the incorporation of torpedoes and 
anti-ship cruise missiles (ASCMs). Since 2008, the PLA Navy has also 
embarked on a robust surface combatant construction program of various 
classes of ships, including guided missile destroyers (DDG) and guided 
missile frigates in addition to more modern diesel powered attack 
submarines.
---------------------------------------------------------------------------
    \10\ As of 2013.
---------------------------------------------------------------------------
    U.S. Air Dominance.--We see the same trend--development of systems 
to push U.S. freedom of movement further from the Asia mainland. China 
is developing an integrated air defense system that could challenge 
U.S. air dominance and in some regions, air superiority is challenged 
by 2020. The challenge to our air dominance comes primarily through the 
aggregation of capabilities starting with an extensive integrated air 
defense system (IADS), moving to development of advanced combat 
aircraft, to enabling technologies, primarily electronic warfare 
capabilities. China is demonstrating a systems approach through 
advanced aircraft design of 5th generation fighters, advanced combat 
systems, and advanced dense long range, networked air defense systems. 
It should be noted that others (such as Iran, Syria, and North Korea) 
are developing well integrated air defense systems. The PLA Air Force 
is continuing a modernization effort to improve its capability to 
conduct offensive and defensive off-shore operations such as strike, 
air and missile defense, strategic mobility, and early warning and 
reconnaissance missions. China continues its development of stealth 
aircraft technology, with the appearance of a second stealth fighter 
following on the heels of the maiden flight of the J-20 in January 
2011, a 5th generation fighter scheduled to enter the operational 
inventory in 2018.
    Vulnerability of U.S. Satellites in Space.--China has been rapidly 
expanding both the number, and quality of space capabilities; expanding 
its space-based intelligence, surveillance, reconnaissance, navigation, 
meteorological, and communications satellite constellations. In 
parallel, China is developing a multi-dimensional program to rapidly 
improve its capabilities to limit or prevent the use of space-based 
assets by others during times of crisis or conflict.
    China continues to develop the Long March 5 (LM-5) rocket, intended 
to lift heavy payloads into space, doubling the size of the Low Earth 
Orbit (LEO) and Geosynchronous Orbit (GEO) payloads China can place 
into orbit. During 2012, China launched six Beidou navigation 
satellites completing a regional network and the in-orbit validation 
phase for the global network, expected to be completed by 2020. From 
2012-2013 China launched 15 new remote sensing satellites, which can 
perform both civil and military applications. China will likely 
continue to increase its on-orbit constellation with the planned launch 
of 100 satellites through 2015. These launches include imaging, remote 
sensing, navigation, communication, and scientific satellites, as well 
as manned spacecraft.
                   research and engineering strategy
    To address the challenges of an accelerating, globalized research 
and development environment coupled with pressurized DOD budgets and 
the rapid growth of capabilities in other nations, we needed to examine 
the strategy we are using to focus the DOD investment on high priority 
areas.\11\ To develop the research and engineering strategy, we had to 
go back to first principals. Why does the Department conduct research 
and engineering? What does the Department expect the DOD R&E program to 
deliver? After examination, we contend the Department conducts research 
and engineering for three reasons, in priority order:
---------------------------------------------------------------------------
    \11\ While the priorities listed below capture the cross-DOD 
priorities, there are still individual Service priorities they must 
address. These priorities do not address Naval responsibilities for the 
Ocean, Army responsibilities for the ground or Air Force for the Air. 
Rather, they comprise a set of areas that must be addressed across 
component. It is interesting to note the large efforts in the Services 
and DARPA largely align with the strategy.
---------------------------------------------------------------------------
      (1) Mitigate New and Emerging Threat Capabilities.--The 
        Department must defend the homeland and overseas forces and 
        national interests against threats that exist today, and 
        threats that are still in development.
      (2) Affordably Enable New or Extended Capabilities in Existing 
        Military Systems.--Coincident with a tighter budget, and the 
        fact that time is not recoverable, the DOD R&E program should 
        focus on controlling costs, both in existing and future weapons 
        systems.
      (3) Develop Technology Surprise.--Finally, throughout the past 
        century, the Nation and the Department have looked to the 
        Department's R&E program to continually develop and mature new 
        capabilities that surprise potential adversaries.
   priority 1: mitigating or eliminating new and emerging threats to 
                           national security
    The Department must be prepared to meet its current and future 
national security missions, which include defending the homeland, 
securing freedom of navigation, and being able to project power. The 
research and engineering priorities inherent in this principal also 
include protecting the nation against nuclear, chemical, and biological 
weapons, from both State and non-State actors. This principal also 
includes protecting the nation against new threats, such as cyber 
operations and the proliferation of cruise missiles and UAVs. The final 
emerging vector in this area is to find solutions to the new 
capabilities that would prevent the US armed forces from fulfilling our 
global mission, such as electronic warfare and maintaining space 
capabilities.
    Countering Weapons of Mass Destruction (C-WMD).--The Department's 
investment in countering weapons of mass destruction is made primarily 
by the Defense Threat Reduction Agency and the Chemical Biological 
Defense Program, as well as the Army. All totaled, the Department's 
investment in C-WMD is about $800 million per year. Countering weapons 
of mass destruction poses some unique challenges because of the urgency 
and immediacy of the threats, the fact that threats present low 
probability but high consequence events, and that there is a need for 
on-call, comprehensive expertise. The Defense Threat Reduction Agency 
emphasis for fiscal year 2015 include kinetic and non-kinetic means to 
counter and defeat WMD in non-permissive environments, low visibility 
search (and identification) for all threats (nuclear and chemical/
biological), global situational awareness through mining large, diverse 
datasets, application of autonomy to reduce risk to the human, 
persistent intelligence, surveillance and reconnaissance (ISR) for WMD, 
WMD modelling and simulation, and operating in a high electromagnetic 
pulse environment. To date, we have not identified the ``silver 
bullet'' solution, so a sizable portion of the C-WMD program involves 
international and interagency partnership.
    Emerging trends over the last year includes the need to counter 
threats as far ``upstream'' or left of event as possible. Therefore, 
the entire C-WMD community is strengthening their program to interdict/
render safe WMD before they are used.
    Missile Defense.--In fiscal year 2015, the investment in missile 
defense S&T dropped from roughly $350 million in fiscal year 2014 to 
$176 million in fiscal year 2015. Yet, missile defense remains a 
priority. The reduction in missile defense is more than offset the Navy 
and by the Office of the Secretary of Defense efforts in 
electromagnetic rail gun technology; a nearly $200 million investment 
in fiscal year 2015. This push in rail gun is being made to determine 
if the technology is mature enough to field an inexpensive, kinetic 
kill system to intercept theater ballistic missiles in terminal and 
mid-course. The current investment supports demonstration of an 
advanced rail gun against a missile surrogate in 2015.
    Although not a capability that will be fielded soon, the Missile 
Defense Agency continues to look at Directed Energy for missile 
defense. They are the primary investor in both hybrid (diode pumped 
alkaline laser) and fiber lasers. Significant demonstrations for both 
of these directed energy capabilities will occur in 2015 to 2016.
    A strategy based on only kinetic defense which requires a high-end 
US missile intercept against this proliferation of missiles is cost-
imposing on the United States. Our research and engineering program is 
also working on developing non-kinetic capabilities and less expensive 
kinetic capability to reduce the effectiveness of potential 
adversaries' missiles; we are making strides in this area.
    Cyber and Information Operations.--The Department's investment in 
Cyber S&T in fiscal year 2015 is $510 million. With the growing 
reliance of modern military forces on information technology, cyber 
operations will play an increasingly important role in ensuring 
continuity of missions in the physical domains. Having effective 
technologies to support those cyber operations makes cyber security 
research an essential element in our long-term abilities to defend the 
Nation.
    This year, the Department rebuilt the cyber S&T investment around 
warfighting capability requirements. We have then built a strong 
integrated technical foundation across the Cyber research and 
engineering enterprise through our Cyber Community of Interest, a group 
made up of Senior Executive Service representatives from the Services, 
NSA, and my organization. Our cyber S&T investments are guided by an 
S&T Capabilities Framework that captures new and emerging mission 
requirements including improved situation awareness and course of 
action analysis. The framework has been developed with participation of 
all the Services as well as the Intelligence Community, National 
Laboratories, and our federally Funded Research and Development 
Centers. We are placing emphasis on broadening the research beyond 
standard computing systems to include defending against cyber threats 
to tactical and embedded systems. Our cyber research includes 
investments in providing a testing and evaluation environment for the 
experimentation and testing of cyber technology across the full 
spectrum of capabilities to help validate and accelerate research. 
Additionally, and very importantly, it is a priority for the DOD to be 
an early adopter of emerging technologies in cyber defense and to 
ensure the transition of those products to our warfighters and the 
programs supporting them.
    Though challenges remain in all areas, Cyber S&T is making progress 
and having significant impacts. Over the past few years, our cyber 
investments, from fundamental research through advanced technology 
demonstrations have resulted in many successes that directly benefit 
our warfighters and the broader defense enterprise. Some highlights 
are:
  --Securing our telecommunications infrastructure through 
        vulnerability assessment, tool development, and best practice 
        dissemination;
  --Developing technologies to accurately geo-locate illicit commercial 
        wireless devices to protect our networks;
  --Producing a game-changing approach to signature-free malware 
        detection capable of defending against zero-day attacks;
  --Designing a flexible, mission-based interoperability framework 
        enabling rapid, low-cost capability integration for our cyber 
        operation forces; and
  --Developing tools and techniques that assure the secure operation of 
        microprocessors within our weapons platforms and systems.
    This year, in concert with White House Priorities,\12\ we created 
the Cyber Transition to Practice (CTP) Initiative. The goal of this 
initiative is to mature and ultimately transition S&T products to 
operational use. The development of cyber tools frequently happens on a 
time scale much less than the traditional acquisition process. The CTP 
initiative is intended to accelerate fielding of cyber tools.
---------------------------------------------------------------------------
    \12\ This is in direct response to the NSS Cybersecurity FY2014 
Budget Priority of September 11, 2012 (section 4.a of the annex).
---------------------------------------------------------------------------
    Loss of Assured Space.--Other nations have developed both kinetic 
and non-kinetic means to degrade or deny the U.S. space layer. 
Consequently, the DOD S&T program is working on developing the space 
capabilities our forces rely on whether or not the space layer exists. 
The capability may be degraded, but will also not be vulnerable. Other 
nations are seeking to asymmetrically disrupt our military capabilities 
that depend upon assured satellite communications; global systems for 
positioning, navigation, and timing; and on-demand ISR, even in denied 
areas. The U.S. will respond to these actions through increasing the 
resilience of our space assets so they are free from interference as 
well as develop alternative means to deliver the capabilities we 
currently obtain from our space assets.
    Current technologies in development include, but are not limited to 
the following: improving our space situational awareness capabilities 
employing improved ground- and space-based systems (such as the Air 
Force Research Lab's 2006 demonstration of on-orbit, localized Space 
Situational Awareness), enhanced terrestrial and airborne 
communications or jam resistant communications (such as laser 
communications); novel timing devices decoupled from continuous access 
to GPS (like the Tactical Grade Atomic Clock, projected for transition 
to the acquisition community in 2017); high performance Inertial 
Measurement Units (like DARPA's High Dynamic Range Atom Sensor (HiDRA), 
projected for 2016, and small-form-factor anti-jam GPS antennas); and 
alternative ISR capabilities (which may incorporate advanced electro-
optic coatings and thermal protections measures under development at 
the Air Force Research Lab). Finally, we have several Joint Capability 
Technology Demonstrations (JCTDs) to determine the viability of 
capabilities delivered from very small satellites. Kestrel Eye and 
Vector JCTDs will demonstrate the viability of small satellite tactical 
communications and ISR by 2016.
    Electronic Warfare (Both Attack and Protection).--The Department's 
investment in electronic warfare (EW) S&T is about $500 million per 
year. This is an area that is evolving rapidly because of technology 
advances. The two key parameters in EW are the frequency the system 
operates and how complex is the signal. The concept behind electronic 
warfare is simple--the goal is to control your electronic signature or 
confuse an opponent's system if you are defending and to simplify the 
overall situation (reject false targets and clutter) if you are 
attempting to use your own electronic systems (radar, communications 
and radio frequency).
    Electronic warfare is becoming important and more critical because 
the enabling technologies underlying frequency and complexity are 
progressing very rapidly. To address the underlying technologies, the 
components have coalesced around a concept called Advanced Components 
for EW (ACE), which is focusing on Integrated Photonic Circuits, 
Millimeter Wave, Electro-Optical and Infrared (EO/IR), and 
Reconfigurable and Adaptive RF electronics. As a whole, these 
technologies should improve simultaneous transmit and receive; expand 
instantaneous bandwidth, and allow a huge leap ahead in complexity. ACE 
kicked off in fiscal year 2013, with the components continuing to 
develop components.
    In addition to the underlying technology, the Services are involved 
in building advanced electronic systems. We will cover two of them. The 
Navy's Integrated Topside program is just completing attempting to use 
multifunction transmitters on the top of a ship. This will reduce the 
number of individual systems with a unique electronic signature, and 
improve ship survivability.
    The Home on GPS-Jam (HOG-J) is a small munition that will identify 
foreign GPS jammers and vector the munition into the jammer. HOG-J has 
had some preliminary successful tests, and could be ready to enter the 
inventory in 2-3 years. There are other EW systems that could be 
covered at the appropriate security level.
 priority 2: affordably enabling new or extending military capabilities
    The cost of Defense acquisition systems continues to be a challenge 
for the Department. Over the past 3 years, the Department introduced 
``Better Buying Power'' initiatives to improve the cost effectiveness 
of the Defense acquisition system. Cost effectiveness and affordability 
of defense systems starts before the acquisition enterprise kicks in. 
There are two vectors to increasing affordability; technology to lower 
cost and extend life cycle, and research and engineering processes to 
address costs early in system development.
    Systems Engineering.--The Department's systems engineering 
capability and capacity are critical to enabling affordability across 
the system life cycle of an acquisition program. The Department's 
systems engineers drive affordable designs, develop technical plans and 
specifications to support cost-effective procurement, and conduct 
trade-off analyses to meet program cost, schedule and performance 
requirements. Systems engineers are enabling strategies to identify 
opportunities to reduce life-cycle costs. My organization has taken a 
lead role in improving the Department's ability to achieve affordable 
programs through strong SE policy, guidance, dissemination of best 
practices, execution oversight and support for a healthy, qualified 
engineering workforce.
    Through an emphasis on affordability in recently updated policy and 
guidance, the Department has established a clear role for systems 
engineers in defining, establishing, and achieving affordability goals 
and processes throughout the life cycle. Through required systems 
engineering trade space analyses, individual acquisition programs 
establish the cost, schedule and affordability drivers and can 
demonstrate the cost-effective design point for the program. These 
trade space analyses will be conducted across the program's life cycle 
to continuously assess system affordability and technical feasibility 
to support requirements, investments, and acquisition decisions and 
depict the relationships between system life-cycle cost and the 
system's performance requirements, design parameters, and delivery 
schedules. Recent emphasis on better reliability engineering has 
focused the Department's acquisition programs on reducing overall life-
cycle costs. My systems engineering staff maintains regular and 
frequent engagement with acquisition programs to support the planning 
and execution of effective technical risk management, as well as 
affordability considerations. They provide regular oversight and 
guidance to assist the programs as they mature through the life cycle.
    Developmental Test and Evaluation.--Developmental Test and 
Evaluation (DT&E) efforts focus on engaging major acquisition programs 
early in their life cycle to ensure efficient and effective test 
strategies, thereby ensuring a better understanding of program 
technical risks and opportunities before major milestone decisions. In 
2013, the Deputy Assistant Secretary of Defense for Developmental Test 
and Engineering (DASD(DTE)) introduced the ``shift left'' concept--
specifically to drive DT earlier in the acquisition process. Early DT&E 
engagement with programs not only reduces acquisition costs through 
efficient testing, but finding and fixing deficiencies early, well 
before production and operations, drastically reduces overall life-
cycle costs. The DASD(DT&E) is focusing on a few key areas to improve 
the overall effectiveness of developmental test and evaluation; use of 
the Developmental Evaluation Framework, increased emphasis on testing 
in a mission context, earlier cyber security testing, and an increased 
emphasis on system reliability testing.
    The Developmental Evaluation Framework is a disciplined process 
that results in a clear linkage between program decisions, capability 
evaluation, evaluation information needs, and test designs. Using the 
Developmental Evaluation Framework provides an efficient, yet rigorous 
T&E strategy to inform the program's decisions. Developmental Test and 
Evaluation is also moving beyond the traditional technical test focus 
to include testing in a mission context to characterize capabilities 
and limitations before production. Robust DT&E should also include 
early cyber security testing that previously was not tested until late 
in the acquisition life cycle, where deficiencies are costly to fix. 
Finally DT&E is focusing on increased system reliability testing. 
System reliability is a major driver in the affordability of future 
weapon systems. Improved reliability information early in the program 
allows acquisition leadership to understand the program technical and 
cost risks and take steps to improve system reliability and therefore 
the affordability of the system.
    Prototyping.--Another way to drive down costs of weapons systems is 
through the expanded use of prototypes, which we use to prove a concept 
or system prior to going to formal acquisition. Consequently, in fiscal 
year 2015, we look to expand the use of developmental and operational 
prototyping to advance our strategic shift to a greater emphasis on 
future threats. In fiscal year 2015, the Department's investment in 
prototypes or prototype like activities is around $900 million. This 
includes activities that are not classical prototype efforts, but will 
demonstrate capabilities, such as the Navy's Future Naval Capabilities, 
Integrated Naval Prototypes, the Army's Joint Multi-role Helicopter and 
Future Fighting Vehicle, as well as Air Force Flagship programs, and 
the revamping of the Department's Joint Capability Technology 
Demonstrations and Emerging Capabilities Technology Development 
programs.
    The RAND Corporation provides a good definition for prototyping, 
describing it as ``a set of design and development activities to reduce 
technical uncertainty and to generate information to improve the 
quality of subsequent decisionmaking.'' \13\ We distinguish between two 
types of prototyping activities. Developmental prototyping demonstrates 
feasibility of promising emerging technologies and helps those 
technologies overcome technical risk barriers. Operational prototyping 
focuses on assessing military utility and integration of more mature 
technologies.
---------------------------------------------------------------------------
    \13\ ``From Marginal Adjustments to Meaningful Change'', pg 64, 
Jeffrey Drezner and Meilinda Huang, RAND Corporation, 2010.
---------------------------------------------------------------------------
    A recent example of an operational prototype is Instant Eye, a one 
pound quad-copter. We outfitted Instant Eye with an electro-optical 
camera and IR illuminator, bringing a field repairable, overhead 
surveillance capability to the soldier in the field at a unit cost of 
less than $1,000. Instant Eye would go on to provide targeting 
information for the neutralization of seven insurgents waiting to 
ambush a U.S. combat patrol.
    Joint Multi-Effects Warhead System (JMEWS) is a good example of a 
higher-risk, higher reward developmental prototype. The JMEWS project 
took on the challenge of in-flight targeting and re-tasking of the 
Tomahawk Land Attack Missile (TLAM). JMEWS' flexible lethality 
increases the combat power of these expensive weapons by tailoring the 
TLAM flight profile for best effect, taking advantage of information 
often not available until after the weapon has launched. With the 
developmental prototyping effort demonstrating the essential technical 
aspects, all that remains for Navy is to integrate JMEWS into the TLAM 
program of record.
    Throughout the history of the Department, periods of fiscal 
constraint have been marked by the use of prototypes to mature 
technology and keep design teams active in advancing the state of 
practice. We will use prototyping to demonstrate capability early in 
the acquisition process. Prototyping will also be used to improve 
capability development methods and manufacturing techniques, evaluate 
new concepts, and rapidly field initial quantities of new systems. 
Prototyping's ability to evaluate and reduce technical risk, and 
clarify the resource picture that drives costs makes it a critical 
piece of the larger research and engineering strategy. Put simply, by 
prototyping in research and engineering, we can focus on key knowledge 
points and burn down the risk before the risk reduction becomes 
expensive.
    Energy and Power.--Energy and Power Technology has a strong focus 
of reducing DOD operational energy risks and costs. Power requirements 
of new DOD systems continue to grow every year, and energy is a major 
cost driver and logistic burden. The Department spends approximately 
$300 million per year on Energy and Power science and technology. Some 
significant programs are:
      Unmanned Underwater Vehicles--Air Independent Propulsion (UUV-
        AIP).--The Navy program is developing and delivering long 
        endurance, scalable air-independent propulsion solutions for 
        UUVs. Highly efficient fuel cell technologies will provide 
        extended mission duration in excess of 60 days, well beyond the 
        current and projected capability of batteries. Fuel cells are 
        also being assessed by other Services to extend duration of 
        UAVs and UGVs. These systems are already spinning out to 
        industry.
      The Integrated Vehicle Energy Technology (INVENT).--The Air Force 
        INVENT program is developing power and thermal management 
        technologies and architectures that not only address today's 
        aircraft performance limits but also work with adaptive cycle 
        engines to enable next generation game changing high power 
        airborne capabilities. There are related Service initiatives to 
        realize higher performance, more fuel efficient designs for 
        rotorcraft and ground vehicles.
      Advanced Vehicle Power Technology Alliance (AVPTA).--The Army is 
        working collaboratively with DoE (with secondary partners from 
        the National Labs, industry and academia) to accelerate energy-
        related R&D initiatives into new vehicle designs. Current 
        efforts include: (1) advanced combustion, engines and 
        transmission with the help of Sandia National Laboratory; (2) 
        examination of lightweight structures for vehicles (partnering 
        with General Dynamics); (3) energy recovery and thermal 
        management for improved efficiency and reduced emissions 
        (industry partner, Gentherm); (4) advanced fuels and 
        lubricants; (5) integrated starter-generators (ISGs) without 
        rare earth permanent magnet materials (partners, Remy Intl and 
        Oak Ridge National Laboratory); and (6) computer-aided 
        engineering for electric drive batteries (CAEBAT).
    Engineered Resilient Systems.--To address the need for more 
affordable and mission-resilient warfighting systems, we are developing 
an integrated suite of modern computational modeling and simulation 
(M&S) capabilities and engineering tools aligned with acquisition and 
operational business processes to transform engineering environments 
under the Engineered Resilient Systems (ERS) initiative. The ERS tool 
suite allows warfighters, engineers, and acquisition decisionmakers to 
rapidly assess the cost and performance of potential system designs by 
providing many data-driven alternatives resulting in systems which are 
less sensitive to changes in external threats, mission needs, and 
program constraints. ERS has already demonstrated that the insertion of 
advanced S&T models, tools and techniques into early phases of 
engineering processes and decisionmaking will positively impact 
effectiveness, affordability and sustainability of defense systems, 
thus addressing these most critical challenges head on. These new M&S-
based frameworks adopt the most advanced design and modeling approaches 
of government, industry and academia to enable our Nation to meet 
emergent threat, while insuring that we can do that affordably, today 
and in an uncertain future.
     priority 3: creating technology surprise through science and 
                              engineering
    The third and final reason the Department conducts research and 
engineering is to create surprise to potential adversaries. Previous 
Department of Defense investment in basic and applied research has a 
long history of developing technologies that led to superior 
capabilities. The DOD research program led to stealth, the Internet, 
synthetic aperture radar, precision weapons, infra-red focal planes and 
night vision devices, among others. Frequently, when investing in basic 
research, we don't know the specific application that will emerge; in 
fact, by definition, basic research is conducted without a specific 
product or system in mind.
    The Department invests in a structured way to create surprise. 
Creation of surprise requires a robust basic research program coupled 
with a strong applied research. While it is not really possible to know 
where technology surprise will come from, there are several areas that 
highlight the possibility; we will discuss several of them in 
increasing level of maturity. The least mature is quantum science, 
followed by nanotechnology, autonomous systems, human systems, and then 
finally, directed energy systems.
    Quantum Sciences.--The discoveries a century ago of the quantum 
properties of the atom and the photon defined and propelled most of the 
new technology of the 20th century--semiconductors, computers, 
materials, communication, lasers--the technological basis of much of 
our civilization. Now, the next quantum revolution may define new 
technological directions for the 21st century, building upon the 
intersection of quantum science and information theory. Consequently, 
the DOD is increasing its basic research investment in Quantum 
Information Science (QIS). QIS exploits our expanded quantum 
capabilities in the laboratory to engineer new properties and states of 
matter and light literally at the atomic scale. We are already 
developing new capabilities in secure communication, ultra-sensitive 
and high signal to noise physical sensing of the environment, and a 
path to exponentially faster computing algorithms in special purpose 
computers. The DOD research funding has driven quantum sciences in the 
past decade. This funding has led to the demonstration to measure time 
through cold atom research at 1,000 times more accurate than GPS. Using 
quantum sciences, the DOD is likely within 10 years of fielding an 
affordable timekeeping system that will cut our tether to GPS. We are 
building in the laboratory gravity sensors of unprecedented 
sensitivity, opening the possibility of remote detection of tunnels (or 
submarines). Other military applications are just being realized, but 
quantum science is a technology that will provide surprise.
    Nanoengineering/Nanotechnology.--QIS is based on the ability to 
control atoms. Nanoengineering also deals with the ability to develop 
and engineer systems at the molecular level. This will, in turn, lead 
to new system level capabilities. For instance, one of the limitations 
to systems like directed energy is thermal management. By designing 
systems at the molecular level, it is possible to increase thermal 
management by several orders of magnitude. Materials like 
``metamaterials'' (engineered materials for specific properties) 
provide a promise of development of radars and electromagnetic systems 
that operate much more effectively at much broader frequency ranges. 
Metamaterials are especially intriguing because through clever design 
and dissimilar materials integration, properties that are never seen in 
nature's materials may be obtained. An example from the Navy's 
fundamental research realm is the investigation of a metamaterial 
suitable for antennas. This material system could become transparent to 
radio frequency waves when exposed to high power radio frequency 
radiation or pulses, preventing the coupling of this energy to an 
aircraft's electronic systems and, thereby, avoiding damage. Engineered 
nanomaterials and nanotechnology research remain very competitive in 
our research portfolio for their potential to provide capability 
advantage. Both the Navy and Army have explored coatings based on 
materials with nanometer dimensions that have wear and corrosion 
resistance superior to traditional and often hazardous metals. Most 
recently a nanocrystalline coating based on nickel-tungsten alloys has 
demonstrated properties exceeding hard chromium coatings without the 
potential environmental problems of chromium. One of the most exciting 
applications for engineered nanomaterials for defense and the whole 
economy is catalysts. The Air Force is supporting research on 
nanoparticle catalysts that are much more efficient in eliminating 
methane, a greenhouse gas, from exhausts while using the same quantity 
of the precious metal palladium and the rare earth element cerium. 
Energetic nanomaterials comprise one area of nanotechnology that is of 
interest primarily to defense at this time. The Army is examining 
highly reactive, energetic materials based on metals and metal oxides 
that are much less sensitive that traditional explosives. Because the 
DOD is committed to prudent development and application of new 
materials, we are studying the materials for any potentially unusual 
toxic properties based on their chemistry or extremely small particle 
size.
    Autonomy.--A major cost driver to the Department of Defense is the 
force structure but, technology is maturing to augment the human, 
possibly keeping the warfighter out of harm's way and reducing the 
numbers of warfighters needed to conduct operations. Autonomous 
capabilities range from software to aid the intelligence analyst in 
processing exploitation dissemination (PED) through very complex 
networked autonomous air systems working in tandem with unmanned ground 
or undersea vehicles. We could field simple autonomous systems within a 
couple of years, but true autonomy will take years to realize. 
Autonomous systems are truly multidisciplinary, in that they rely on 
technologies ranging from sensors that understand the environment, to 
software algorithms that aid decisionmaking or decide to seek human 
assistance. Through autonomy, we seek to reduce the manpower required 
to conduct missions, while extending and complementing human 
capabilities. The Department has four technical areas of focus for 
investments in Autonomy: Human and Agent System Interaction and 
Collaboration; Scalable Teaming of Autonomous Systems; Machine 
perception, Reasoning and Intelligence; and Test, Evaluation, 
Validation, and Verification. Built around these four technical areas, 
we launched an experiment last year to develop an in-house capacity in 
autonomous systems. This experiment, called the Autonomy Research Pilot 
Initiative (ARPI), funded seven proposals to work on technologies in 
one of the four technical areas above. The awards were for 3 years, and 
had to be completed in DOD laboratories by DOD personnel. ARPI efforts 
include: Autonomous Squad Member--enabling robots to participate in 
squad-level missions alongside soldiers; and Realizing Autonomy via 
Intelligent Adaptive Hybrid Control-increasing robustness and 
transparency of autonomous control to improve teaming of unmanned 
vehicles with each other and with their human operators. Advancement of 
technologies from the successful Department investment in the four 
technical areas will result in autonomous systems that provide more 
capability to warfighters, reduce the cognitive load on operators/
supervisors, and lower overall operational cost.
    Human Systems.--Previous wars were won by massing power through 
weapons systems. It is not clear that will be the case in future 
conflicts. With the proliferation of sensors and data, future conflicts 
may well be won by the person that can react quickest. Studies of human 
cognition suggest that cognitive response times can be reduced by using 
display systems that present information using multiple sensory 
modalities. Such a reduction would give the force that is enabled with 
these technologies the ability to process more information, faster than 
their adversaries. Additionally, we are learning how to tailor training 
to adapt to individual students' unique needs, leading to reductions in 
the time needed to acquire expertise. Reducing the time to train forces 
to an advanced level of competence offers another way to respond faster 
than our adversaries. Additionally, robots, unmanned vehicles and other 
advanced technologies continue to be deeply integrated with our 
warfighters. We are developing new methodologies and technologies to 
enable our warfighters to interact with these systems as naturally as 
they do with their human counterparts leading to faster and more 
accurate responses by these ``hybrid teams''. Lastly, we are optimizing 
warfighter physical and cognitive performance for long durations, in 
dynamic and unpredictable environments, through personalized 
conditioning and nutritional regimens.
    Directed Energy.--One of the most mature ``game changing'' 
technology areas is Directed Energy, and specifically, High Energy 
Lasers. High Energy Lasers have been promised for many years, but these 
lasers were always based on chemical lasers, which are difficult to 
support logistically, and the byproducts are toxic. Over the past 
several years, however, solid state (electric) lasers have matured, 
largely through the Joint High Power Solid State Laser, a cross DOD 
effort to develop a 100 kilowatt (KW) laser. At close range, 10-30 KW 
is lethal. The JHPSSL was demonstrated in 2009. Since then, the 
Services have worked on packaging a solid state laser that could be 
deployed. In summer 2014, a 30 KW laser will be prototyped on the USS 
Ponce in the CENTCOM area of responsibility. In December 2013, the Army 
demonstrated the High Energy Laser Mobile Demonstrator at White Sands 
missile range. This 10 KW laser successfully engaged nearly 90 percent 
of the available targets. This system will be further demonstrated in a 
maritime environment at Eglin Air Force Base.
                              reliance 21
    The Department's Research and Engineering (R&E) Enterprise is wide-
ranging, and is the foundation of the Department's technological 
strength. The enterprise includes DOD laboratories and product centers, 
other government laboratories, federally funded research and 
development centers (FFRDC's) and University affiliated research 
centers (UARCs), U.S. and allied universities, our allied and partner 
government laboratories, as well as industry. Last year I took the 
opportunity to brief the members of this Committee as my impetus to 
develop a strategy for the R&E Enterprise; this strategy was discussed 
earlier. What is important this year is putting in place the structure 
to attempt to optimize the S&T investment. Consequently, the 
Department's S&T Executives and I have worked to put in place Reliance 
21. Under Reliance 21, most of the Department's S&T program will be 
managed in one of 17 cross-cutting portfolios. Each of these portfolios 
will be made up of Senior Executive or Senior Leader from each Service 
and Agency with investment in the area. These teams are building 
integrated roadmaps, and beginning the process of integrating allied 
and industry efforts onto our roadmaps. Each year, about one third of 
the portfolios will be reviewed, in depth to the S&T Executives, who 
will approve or redirect the roadmaps. The roadmap will include the 
technical and operational objective, the critical technical efforts 
needed to meet the objective, the gaps to reaching the objectives, and 
an assessment of where the portfolio leads recommend changes. The 17 
portfolios are all called Communities of Interest (COI). Done 
correctly, management of a large portion of the Department's S&T 
execution will be collaboratively achieved by the COIs.
            what congress can do for the defense s&t program
    We are the most technologically advanced military in the world but, 
as Secretary Hagel so aptly stated in his remarks on the 24th of 
February of this year, ``we must maintain our technological edge over 
potential adversaries''.\14\ I have outlined what we are doing with the 
resources that we have been given and what we plan to do with the 
resources in the fiscal year 2015 President's budget. Success, however, 
will depend on your support. In that regard I have two requests.
---------------------------------------------------------------------------
    \14\ Hagel, 24 February 2014.
---------------------------------------------------------------------------
    I ask that you enact the Research, Development, Test and Evaluation 
portion of the President's Budget as submitted. We spent a lot of time 
to balance the program to best meet DOD priorities.
    The President's budget seeks funding for fiscal year 2016-2021 that 
is above the estimated sequestration levels under current law. As 
pointed out earlier, with no relief from the BCA in the out years, we 
expect modernization and readiness accounts to bear the brunt. This 
would heighten the increased risk we are already seeing. Simply, at 
that sequestration level, we expect continued erosion of the S&T and 
RDT&E accounts.
    Second, I would ask that you support our efforts in prototyping. We 
are expanding the use of developmental and operational prototyping in 
lieu of formal acquisition programs. Throughout the history of the 
Department, during periods of fiscal constraint, the Department has 
used prototypes to mature technology and keep design teams intact and 
moving forward. Prototyping has another advantage--it allows the 
Department to build a capability early in the acquisition process, 
before all the structure affiliated with the acquisition process 
begins. By prototyping in research and engineering, we can acquire 
valuable knowledge and buy down risk and lead time to production at 
relatively low cost.
                                closing
    In summary, the last year has been a challenge to the Department's 
S&T program. The risk to our force is growing, and the need for the S&T 
community is likewise increasing. We have shifted our focus to 
protecting the future by countering anti-access, area-denial threats, 
addressing the increasing complexity of adversary's weapons systems, 
shortening the maturation time of developing our own systems, and 
addressing the erosion of the United States' stature in international 
science markers. We need your help to remove the crippling uncertainty 
associated with sequestration so that we can transition to the balance 
of force structure, readiness and modernization the country needs and 
deserves from us.

    Senator Durbin. Thank you.
    Dr. Prabhakar.
STATEMENT OF DR. ARATI PRABHAKAR, DIRECTOR, DEFENSE 
            ADVANCED RESEARCH PROJECTS AGENCY
    Dr. Prabhakar. Thank you, Mr. Chairman, Senator Cochran, 
and members of the subcommittee. It is very good to be here 
today with my colleagues, and I appreciate the chance to talk 
with you all.
    DARPA is part of this Defense Department's science and 
technology community. We are also part of the larger national 
ecosystem for research and development. Within these 
communities, we have a particular role and that role is to make 
the pivotal early investments that change what is possible so 
that we can take big strides forward in our national security 
capabilities.
    And very much in keeping with your comments, Mr. Chairman, 
DARPA too was started in the wake of Sputnik. So we have been 
around pursuing that mission for 56 years. We were created 
precisely to prevent that kind of technological surprise that 
Sputnik had created for us. We have delivered on our mission 
for 56 years by creating a few surprises of our own, and while 
our output is technology, we really count our successes when 
those technologies change outcomes. So every time a stealth 
aircraft evades an air defense system, every time a soldier on 
the ground can place himself precisely using GPS so that he can 
call for fires, every time that a radar tells a carrier strike 
group about a threat that is out there long before it sees us, 
that is when we have succeeded in our mission at DARPA because 
in each of those cases, we made those early investments. We 
showed what was possible.
    And in every one of those cases, it took a much larger 
community to turn those ideas into real capabilities. Of 
course, it took our partners that we work with very closely 
across the services in science and technology. It also took the 
services' further development work and acquisition efforts. 
Every one of these technologies traces back to research often 
conducted in universities or other labs. Every one of these 
advances relied on industry, defense, and commercial industry, 
large companies and small. And at the end of the day, it took 
warfighters to turn those technologies into real military 
capabilities.
    So that is how that whole ecosystem works for that DARPA 
portion of it. That mission that we have had of breakthrough 
technologies for national security has not changed over 56 
years. The world in which we work continues to change, but that 
core mission is still why our people charge through the front 
doors every single morning.
    And so let me just share with you a few of the things that 
we are doing today to deliver on our mission in the context of 
the world that we are living in.
    One thing that we see happening today is that the classic 
approach to major military systems has gotten so costly and 
inflexible that it is really not going to be effective for the 
challenges that we are going to face in the future. So a number 
of our investments at DARPA are rethinking complex military 
systems, and we are coming up with powerful, new approaches for 
new radars and weapons, new ways to do navigation and 
communications, new ways to architect space systems.
    In a very different arena, we can see the massive scale of 
information changing every aspect of national security. So here 
we are creating first a new breed of cybersecurity technologies 
so that we can actually trust the information that we have 
become so reliant on.
    We are also inventing new tools to keep up with and to 
start using this explosion of data. One example is a new 
program that we have that is tackling the networks involved in 
human trafficking. Today these trafficking networks very easily 
can hide in the vast data that is online. So really finding 
ways to see those bad actors in vast volumes of data is part of 
the objective of our programs.
    And then in a very wide range of research areas today, we 
see the seeds of what could be the next generation of 
technological surprise. One area that I think is quite vibrant 
right now is in the research where biology is intersecting with 
engineering. And here we are investing to create the capability 
to outpace the spread of infectious disease, to understand and 
even harness brain function, and to speed the development of 
new chemistries and materials coming out of synthetic biology.
    So, obviously, I would be happy to talk about any of these 
or other efforts in the DARPA portfolio.
    But let me just end my remarks this morning by saying that 
when I talk with our leaders in the Pentagon and here on 
Capitol Hill, I often feel that I can see the weight of our 
national security challenges weighing on them and on you. I 
think we all feel it. We do live in a volatile world. We all 
see the shifting threats. We are all dealing with constrained 
budgets and the corrosive effects of sequestration. But I also 
know that American innovation has turned the tide time and 
again, and I am really confident that the work that we are all 
doing today can do that again for the years to come.

                           PREPARED STATEMENT

    Your support to make that possible to this point has been 
essential. So I really thank you for that. I would also like to 
ask for your full support of the President's budget request for 
fiscal year 2015 so that we can continue these vital 
investments.
    Thank you, and I look forward to answering your questions 
along with my colleagues.
    [The statement follows:]
               Prepared Statement of Dr. Arati Prabhakar
    Chairman Durbin, Vice Chairman Cochran and Members of the 
Subcommittee, thank you for the opportunity to testify before you 
today. I am Arati Prabhakar, Director of the Defense Advanced Research 
Projects Agency, DARPA. It is a pleasure to be here with my colleagues 
across the Department of Defense (DOD) Science and Technology (S&T) 
community. Our organizations work together every day to advance our 
Nation's defense technologies. DARPA plays a particular role in this 
community, and in the broader U.S. technology ecosystem. That role is 
to anticipate, create, and demonstrate breakthrough technologies that 
are outside and beyond conventional approaches--technologies that hold 
the potential for extraordinary advances in national security 
capability. This mission and our current work and plans are the focus 
of my testimony today.
       darpa's mission and the diverse threats facing our nation
    In the fall of 1957, a polished metal sphere, 23 inches in diameter 
and launched from Soviet soil, began its orbit around the Earth, 
passing over American skies approximately every 96 minutes and 
initiating the space age, a space race, and a new era in the long 
struggle to maintain American military and technological superiority. 
Starting DARPA was one of the pivotal choices our Nation made in the 
wake of Sputnik. America today enjoys a hard-earned, privileged 
position, with tremendous military might, economic strength, and social 
and political freedom. Yet, as this Subcommittee knows well, risk is 
ever evolving in our complex and dynamic world. Regional instability, 
shifting military and economic positions, demographic and natural 
resource trends--these forces drive constant change in our national 
security environment. Today and in the years ahead, our potential 
adversaries will still include nation states, but also smaller, less 
well defined bad actors and an increasingly networked terror threat. 
National security challenges will continue to range from the acute to 
the chronic. This is the threat environment that shapes our technology 
investments today at DARPA.
    Adding to the security challenges we face is the fact that 
technology and its accessibility have changed so significantly. 
Startlingly powerful technologies--semiconductors, information systems, 
and nuclear and biological technologies among them--are now globally 
available to a much wider swath of society, for good and for evil. And 
while the cost of some technologies has dropped precipitously, other 
technology and non-technology related costs have risen steeply, leading 
DOD to make difficult choices about our operational capabilities. That 
means our assumptions about the cost of military systems must change. 
These factors will also continue to shape our investments at DARPA.
    DARPA was designed and built for just this kind of shifting, 
challenging threat environment. Through more than 5 decades of 
tumultuous geopolitical and technological change, we have delivered 
outsized impact by focusing on our mission of breakthrough technologies 
for national security. We imagine groundbreaking new technology 
advances with the potential for defense applications. We bring the best 
of those ideas to fruition by providing the right mix of research 
support, intellectual freedom, and responsible oversight to outstanding 
performers in industry, academia, and other government organizations. 
And we facilitate the transition and operationalization of these new, 
paradigm-shifting capabilities.
 harnessing complexity to create exceptional new capabilities: darpa's 
                                programs
    Like most truly great problems that confront us, today's diverse 
threats can either be viewed as an imposing barrier or as an 
opportunity to overcome a difficult challenge. Either way, I believe 
our national security will depend upon how we deal with complexity. 
DARPA chooses to tackle complexity by harnessing it, and our programs 
reflect that approach of playing offense. We do that with game-changing 
new capabilities and with layered, adaptable, multi-technology systems. 
We do that by catalyzing major new national technology advances and by 
rapidly exploiting commercially available technologies. And at a time 
when systems cost is the difference between building operational 
capability or just building PowerPoint, we do that by striving to 
invert the cost equation for our military.
    DARPA has made important strides forward in delivering key 
breakthrough technologies. In discussing how we are tackling various 
aspects of technological complexity, I will update you on several new 
programs that we have launched, results we have achieved, and 
transitions that have been accomplished or are in process.
Rethinking Complex Military Systems
    Much of DARPA's work rethinks complex military systems, recasting 
today's approach with the intention of achieving far greater 
capabilities at lower cost. Today, our military relies upon the meshing 
of electronic, optical, software, and mechanical components to create 
satellites and the vehicles, aircraft, and ships that carry our 
Warfighters into battle. We also depend upon this integration of 
components in designing and producing the weapons these men and women 
must be prepared to use. That is not new. But today, these technology 
components are becoming ever more complex. Consider: radar systems have 
thousands of antenna elements, platforms run millions of lines of code, 
and integrated circuits are made of billions of transistors. These many 
components are also now interdependent and interacting to an 
unprecedented degree. And, of course, these platforms and mission 
systems must operate in an environment that will be increasingly 
contested by others with access to ever-improving global technologies. 
All these factors contribute to the high cost, long development times, 
and inflexibility of today's most advanced systems. This demands that 
we rethink--sometimes in fundamental ways--how we approach the next 
generation of defense systems.
    Let me give you a few examples of how DARPA is tackling this 
challenge from our portfolio of programs.
            Robust Space
    In times of conflict, our Nation's leaders count on our military to 
wage precise, overpowering war. This type of highly effective 
warfighting is critically dependent on space--for imaging and sensing, 
for communications, for navigation, even for keeping time. As never 
before, we require ready access to space and strategic control over our 
assets in space. But while space is becoming increasingly important, 
it's also becoming increasingly crowded and contested, and DOD's 
ability to access and operate in space has become less nimble and more 
expensive over many years. DARPA has several programs underway to 
change that equation.
                Rapid Launch: Experimental Space Plane (XS-1) and 
                    Airborne Launch Assisted Space Access (ALASA)
    Imagine a world in which getting a satellite into orbit can be as 
quick and reliable as an aircraft takeoff. Our new Experimental 
Spaceplane is designed to take a 3,000- to 5,000-pound payload into 
orbit using an expendable upper stage, all for under $5 million; that 
is one-tenth the cost of a comparable launch today. Our ALASA program 
focuses on 100-pound payloads for less than $1 million. Even more 
striking is our goal of providing satellite launches for these payloads 
with just 24 hours' notice.
                Avoiding Collisions in Space: Space Surveillance 
                    Telescope (SST)
    In space, one major challenge is simply a lack of knowledge of what 
is around you. With satellite traffic and the risk of space collisions 
growing, space domain awareness is a top priority. DARPA's SST enables 
much faster discovery and tracking of previously unseen, hard-to-find 
objects in geosynchronous orbits. We expect it to be ready for 
operations within 2 years in Australia as a result of a memorandum of 
understanding signed last November by Secretary of Defense Hagel with 
his counterpart. Once operational on the Northwest Cape of Australia, 
SST will provide detection and tracking of satellites and space debris 
at and near geosynchronous orbits within the Asia-Pacific region, 
information U.S. space operators can use to better protect critical 
U.S. and Allied space-based capabilities.
                Lowering the Risk and Cost for Satellites
    Communications satellites in geosynchronous orbit, approximately 
36,000 kilometers above the Earth, provide vital communication 
capabilities to Warfighters and others. Today, when a satellite fails, 
we usually face the expensive prospect of having to launch a brand new 
replacement. Our Phoenix program strives to develop and demonstrate 
technology to robotically service, maintain, and construct satellites 
in the harsh environment of geosynchronous orbit. Phoenix is also 
exploring a paradigm change to satellite design that would enable 
ground and on-orbit assemble-able platforms to potentially lower the 
cost of next-generation space systems by a factor of 10 compared to 
what is possible today.
            Winning in Contested Environments
    Space is not the only environment that is growing more crowded and 
dangerous. We must always anticipate an actively contested environment 
as we look ahead to potential challenges from future adversaries. 
Today, we are dependent on centralized command and control, and the 
fragile lines of communications linking tactical assets to decision 
makers. While DARPA has multiple programs addressing these challenges 
for the air, ground and sea, a common thread is the development of 
technologies to shift and distribute capability at the forward edge of 
the battle and to adapt quickly to a changing technology landscape.
                Long-Range Anti-Ship Missile (LRASM)
    Today's anti-ship missiles face challenges penetrating 
sophisticated air defense systems from long range. As a result, 
Warfighters may require multiple missile launches and overhead 
targeting assets to engage specific enemy warships from beyond the 
reach of counter-fire systems. In important progress to overcome these 
challenges, the DARPA-Navy LRASM program has had a series of successful 
flight tests on a precision-guided anti-ship standoff missile. That 
will reduce dependence on intelligence, surveillance and reconnaissance 
platforms, network links, and Global Positioning System (GPS) 
navigation in electronic warfare environments. DARPA is collaborating 
with the Navy via a new joint program office, helping to move this 
leap-ahead capability to deployment very quickly.
                Distributed Battle Management (DBM) and Communications 
                    in Contested Environments (C2E)
    Under our Air Dominance Initiative, DARPA, the Air Force and the 
Navy together have been exploring systems-of-systems concepts in which 
networks of manned and unmanned platforms, weapons, sensors and 
electronic warfare systems interact to succeed in a contested 
battlespace. These approaches could offer flexible and powerful options 
to the Warfighter, but the complexity introduced by the increase in the 
number of employment alternatives--particularly in a dynamic 
situation--creates a battle management challenge. Further complicating 
matters, in future conflicts U.S. forces may face degradation or denial 
of critical communications capabilities essential for coordination and 
shared situational understanding.
    We recently launched two programs that address these challenges. 
The Distributed Battle Management (DBM) program seeks to develop 
control algorithms and demonstrate robust decision-aid software for air 
battle management at the tactical edge. Our new Communications in 
Contested Environments (C2E) program is, at the same time, exploring 
the use of reference architectures to enable robust, scalable and 
rapidly evolvable airborne communications networks.
            Dominating the Electromagnetic Spectrum
    The challenge of the threat environment extends to the airwaves as 
well, a reality that also is beginning to affect commercial and civil 
activity as demand continues to grow for access to the electromagnetic 
spectrum. The United States and our Allies learned an important lesson 
in World War II, when we became the first to control and take advantage 
of one small part of the spectrum--the range occupied by radar. By many 
assessments, Allied dominance in radar technology was pivotal to our 
winning that crucial war. Today we can say that the next war may be won 
by the nation that controls the electromagnetic spectrum over the full 
range of wavelengths--a degree of control that can ensure dominance in 
communications and in the important linked domains of timing, location 
and navigation. It also can ensure dominance in seeing what our 
adversaries are doing, and in controlling what they see of us--both our 
capacity to hide things from their sensors and our capacity to make 
``visible'' an array of things that are not really there.
                Spectrum Challenge
    One approach to dominating the spectrum is simply to be more 
nimble, both in sensing and using whatever portions of the spectrum are 
available. Radios, for example, lack agility, despite the fact that 
they are used for the most mundane to the most critical of 
communications, from garage door openers to first responders to 
military operations. Wireless devices often inadvertently interfere 
with and disrupt radio communications, and, in battlefield 
environments, adversaries may intentionally jam friendly 
communications. To stimulate the development of radio techniques that 
can overcome these impediments, DARPA launched its Spectrum Challenge, 
a national competition to develop advanced radio technology capable of 
communicating in congested and contested electromagnetic environments 
without direct coordination or spectrum preplanning. We expect to see a 
massive increase in innovation when the teams return for the final part 
of the Challenge with promising results for future applications.
                Moving to New Frequency Domains: Terahertz Electronics 
                    (THz)
    Another way to control the spectrum is to move to new frequency 
domains, where hardware limitations currently prevent us from operating 
effectively. The submillimeter wave, or terahertz, part of the 
electromagnetic spectrum falls between the frequencies of 0.3 and 3 
terahertz, between microwaves and infrared light. Unlocking this band's 
potential may benefit military applications such as high-data-rate 
communications, improved radar, and new methods of sensing. But access 
to these applications has been limited due to physics and our limited 
understanding.
    Researchers under DARPA's Terahertz Electronics (THz) program have 
designed and demonstrated a 0.85 terahertz power amplifier using a 
micromachined vacuum tube; we believe it to be a world first. The 
vacuum tube power amplifier is one achievement of the broader THz 
program, which seeks to develop a variety of breakthrough component and 
integration technologies necessary to 1 day build complex terahertz 
circuits for communications and sensing.
    Many more DARPA programs also rethink complex military systems. 
These include efforts to use the undersea environment to observe and 
access regions around the world; to rapidly bring advances in 
commercial technology to the battlefield; to develop hypersonic 
technologies for advanced speed, reach and range; and to create new 
distributed architectures for the contested environments of the future.
Information at Scale
    Let's consider a different aspect of complexity. As the information 
revolution continues, the sheer scale and variety of data seems 
immensely, and perhaps overwhelmingly, complex--but this challenge also 
presents major opportunities.
              Insight to Enhance Analysts' Capabilities and Performance
    Military intelligence analysts face the monumental and escalating 
task of analyzing massive volumes of complex data from multiple, 
diverse sources such as physical sensors, human contacts, and 
contextual databases. DARPA's Insight program addresses the need for 
new tools and automation to enhance analyst capabilities and 
performance. The program seeks to enable analysts to make sense of the 
huge volumes of intelligence-rich information available to them from 
existing sensors and data sources. Automated behavioral learning and 
prediction algorithms help analysts discover and identify potential 
threats, as well as make and confirm hypotheses about those threats' 
potential behavior. The goal is a comprehensive operating picture in 
which expedient delivery of fused actionable intelligence improves 
support of time-sensitive operations on the battlefield. We are working 
closely with the Army and the Air Force to transition operational 
capabilities to programs of record.
                MEMEX: A Different Approach to Search
    Despite the vast amounts of data available, today's Web searches 
use a centralized, one-size-fits-all approach that searches the 
Internet with the same set of tools for all queries. While that model 
has been wildly successful commercially, it does not work well for many 
government use cases. Current search practices miss information in the 
deep Web--the parts of the Web not indexed by standard commercial 
search engines--and ignore shared content across pages.
    To help overcome these challenges, DARPA launched the Memory and 
Exploration of the Internet for Defense (MEMEX) program. This ambitious 
effort seeks to develop domain-specific search technologies and 
revolutionize the discovery, organization and presentation of the types 
of search results needed for national security concerns. MEMEX's 
initial focus will be human trafficking, which is a factor in many 
types of military, law enforcement and intelligence investigations and 
has a significant Web presence to attract customers.
                Mining and Understanding Software Enclaves (MUSE)
    Information at scale includes not just data, but software code as 
well. Within the last few years, there has been a tremendous explosion 
in the number of open source projects and the size of codebases these 
projects contain. Software repositories today are estimated to contain 
more than 100 billion lines of code, and the number continues to grow. 
Open source software is widely used in mission-critical DOD systems as 
well as in the commercial world. DARPA's new Mining and Understanding 
Software Enclaves (MUSE) program aims to harness the scale and 
complexity of this array of software to instigate a fundamental shift 
in the way we conceive, design, implement, and maintain software. If 
successful, MUSE could lead to a new programming methodology, leading 
to automated mechanisms for improving resilience, reducing 
vulnerabilities, and simplifying the construction of software systems.
                High-Assurance Cyber Military Systems (HACMS)
    Embedded systems form a pervasive network that underlies much of 
modern technological society. Such systems range from large supervisory 
control and data acquisition (SCADA) systems that manage physical 
infrastructure to medical devices such as pacemakers and insulin pumps, 
to computer peripherals such as printers and routers, to communication 
devices such as cell phones and radios, to vehicles such as automobiles 
and airplanes. These devices have been networked for a variety of 
reasons, including the ability to conveniently access diagnostic 
information, perform software updates, provide innovative features, 
lower costs, and improve ease of use. But researchers and hackers have 
shown that these kinds of networked embedded systems are vulnerable to 
remote attack, and such attacks can cause physical damage while hiding 
the effects from monitors. DARPA launched the High-Assurance Cyber 
Military Systems (HACMS) program to create technology to construct 
high-assurance cyberphysical systems. Achieving this goal requires a 
fundamentally different approach from what the software community has 
taken to date. If successful, HACMS will produce a set of publicly 
available tools integrated into a high-assurance software workbench, 
which will be widely distributed for use in both the commercial and 
defense software sectors. For the defense sector, HACMS will enable 
high-assurance military systems ranging from unmanned vehicles to 
weapons systems, satellites and command and control devices. In an 
early demonstration of the program, we are running first-of-its-kind 
provably correct software on a commercially available automobile.
    These programs are examples from DARPA's broader portfolio in cyber 
and information at scale. Other efforts are developing new technologies 
to enable distributed computer systems to work through attacks; permit 
trustworthy Internet communications in untrusted environments; automate 
the discovery, identification and characterization of new malware; 
provide DOD with military cyber capabilities; and automatically process 
text information to discover meanings and connections that might 
otherwise not be readily apparent to analysts.
Biology as Technology
    A third area of complexity of growing interest and importance to 
DARPA--and among the most promising for future major capabilities--is 
the idea of biology as technology. Biology is nature's ultimate 
innovator, and any agency that hangs its hat on innovation would be 
foolish not to look to this master of networked complexity for 
inspiration and solutions.
                Living Foundries
    Synthetic biology--a hybrid discipline of biology and engineering--
has already proven itself capable of using customized bacteria to 
produce medicines, and now it is heading toward even more interesting 
applications as we harness it to create entirely new chemistries. Our 
Living Foundries program seeks to develop the next-generation tools and 
technologies for engineering biological systems, compressing the 
biological design-build-test cycle in both time and cost. For example, 
the program has demonstrated the ability to generate a suite of novel 
bioproducts in weeks rather than years. The program is also producing 
new classes of materials with novel properties that can enable a new 
generation of mechanical, optical and electrical products.
                Rapid Threat Assessment (RTA)
    Even as we develop new materials and tools for engineering 
biological systems, we understand that we must also be prepared to 
react quickly to how our adversaries may seek to use similar 
capabilities. This concern is not new: novel chemical and biological 
weapons have historically been mass-produced within a year of 
discovery. Using current methods and technologies, researchers would 
require decades of study to gain a cellular-level understanding of how 
new threat agents affect humans. This gap between threat emergence, 
mechanistic understanding and potential treatment leaves U.S. forces 
and populations here and around the world vulnerable.
    DARPA launched the Rapid Threat Assessment (RTA) program with an 
aggressive goal: develop methods and technologies that can, within 30 
days of exposure to a human cell, map the complete molecular mechanism 
through which a threat agent alters cellular processes. This would give 
researchers the framework with which to develop medical countermeasures 
and mitigate threats. If successful, RTA could shift the cost-benefit 
trade space of using chemical or biological weapons against U.S. forces 
and could also apply to drug development to combat emerging diseases.
                Brain Function Research
    In an era when harnessing complexity will be the sine qua non of 
success, it should not be surprising that DARPA has a particular 
interest in tackling the brain. DARPA's interest starts with our desire 
to protect and assist our Warfighters, whether it means preventing or 
treating traumatic brain injury, easing the effects of post-traumatic 
stress disorder, or learning to operate sophisticated prosthetic limbs 
with thoughts alone, as is now increasingly possible with our new and 
exciting technologies. These advances also open the door to a much 
deeper understanding of how humans interact with the world around 
them--new insights that may fuel the next revolution in how we work 
with complex technologies and systems. Over the past year, we launched 
several new brain function-related programs that are now getting 
underway. These efforts are part of the President's initiative in brain 
research. Recently, we have made unprecedented advances in developing 
advanced prosthetic arm systems and methods to restore near-natural 
movement and control, as demonstrated by the DEKA Arm System approved 
by the Food and Drug Administration last week.
    DARPA's biology-related investments also include diagnostics and 
novel prophylaxes to outpace the spread of infectious disease and new 
methods to accelerate the testing of critical therapeutics.
New Frontiers
    Consistent with our mission to prevent technological surprise by 
creating it, DARPA continues to invest across a wide range of fields 
where we see promising research that could lead to powerful technology 
capability. These investments are the seeds of what my successors, 
perhaps 5, 10, or 15 years from now, will be describing to you as 
technology revolutions.
    I described earlier our work in developing new algorithms, software 
and architectures that allow us to better mesh our electronic, optical 
and mechanical components together. What about those components 
themselves? We are pushing the frontiers of physics to make them 
dramatically smaller, or more capable, or both.
                iPhod, COUGAR, and ORCHID
    Consider the many ways we are developing to harness light, which 
will directly affect the size, weight, cost and performance of military 
components ranging from small navigation sensors to phased array radars 
and communication antennas. One recently concluded program (iPhod) 
successfully miniaturized tools for creating delays in light 
transmission, while another (COUGAR) demonstrated unique designs in 
hollow-core fibers, which guide light within a device much more 
efficiently than conventional optical fibers. Yet another (ORCHID) 
successfully demonstrated the ``squeezing'' of light, a concept in 
quantum optics that can ultimately lead to dramatic performance gains 
in microsystems. These programs challenge the assumption that highly 
specialized, high-precision systems must be large and expensive.
                Miniaturization with National Security Implications
    Other advances in miniaturization include a recent demonstration by 
DARPA-funded researchers of the world's smallest vacuum pumps. This 
breakthrough technology may create new national security applications 
for electronics and sensors that require a vacuum: highly sensitive gas 
analyzers that can detect chemical or biological attack, for instance, 
or extremely accurate laser-cooled chip-scale atomic clocks and 
microscale vacuum tubes. As part of another program (QuASAR), one which 
seeks to exploit the extreme precision and control of atomic physics 
for new sensor technology, researchers have developed methods for 
measuring magnetic fields at scales smaller than the size of a single 
cell. Applications include critical advances in position, timing and 
navigation--all critical to military situational awareness and 
operations.
                Ground Robotics
    Some advances seem much closer to our doorstep than they really 
are--thanks to science fiction and the amazing special effects of 
creative individuals and teams who lead our entertainment industry. 
Ground robotics is one such domain. At the DARPA Robotics Challenge 
trials a few months ago, we drove robotics technology forward by 
engaging teams of creative specialists at companies, universities and 
other government agencies. These world-leading experts were charged 
with advancing the capabilities of robots to perform basic skills that 
would be required in carrying out humanitarian and disaster relief 
missions. The Robotics Challenge--which is still underway--is showing 
how robotics capabilities can advance. It is also demonstrating just 
how far these kinds of robots are from serious battlefield application. 
That, too, is part of DARPA's mission: push the research frontiers of 
what is possible and inform our military decision makers where those 
limits are and the prospects for the future.
                Algorithms Opening New Horizons
    Research in mathematical algorithms is also creating important new 
technological opportunities. Clustering algorithms can detect common 
activity patterns across a vast data set. A combination of vector 
mathematics, time integration, and power law distributions enables the 
analysis of ensemble behaviors--patterns that only become visible when 
correlated across large numbers of points. Time series analysis can 
find previously unknown outliers in a data set for anomaly detection. 
Our programs apply these mathematical techniques to immense data sets 
with hundreds of millions or even many billions of elements. 
Individually or in combination, these new algorithmic approaches enable 
rapid analysis of data volumes that finally begins to scale with the 
complexity of the national security challenges that we face today.
    I have cited several examples of DARPA technologies that made 
significant progress in the last year. There are many more in that same 
category. Additional examples of successes in the making are attached 
to my testimony.
            the president's fiscal year 2015 budget request
    The President's fiscal year 2015 budget request for DARPA is $2.915 
billion. This compares with $2.779 billion appropriated for fiscal year 
2014, an increase of $136 million. Before describing our fiscal year 
2015 plan, let me put this number in context.
    From fiscal year 2009 to fiscal year 2013, DARPA's budget declined 
through a series of small reductions followed by the 8 percent across-
the-board sequestration cut in fiscal year 2013. The total reduction to 
DARPA's budget from fiscal year 2009 to fiscal year 2013 was 20 percent 
in real terms.
    This pernicious trend turned around last year. I thank this 
Subcommittee, and Congress more broadly, for your support in helping us 
to begin to address this issue in fiscal year 2014 by restoring an 
initial $199 million. The President's fiscal year 2015 request 
continues restoration, almost returning the Agency's budget to its pre-
sequestration level in real terms.
    Let me outline what these budget changes mean in terms of our 
ability to execute DARPA's vital mission. As budgets eroded over the 
last few years, one effect was a reduction in our major demonstration 
programs. In some cases, we have been unable to advance our work to the 
point of actually demonstrating that a totally new approach is 
workable. In other cases, we had to rely on a single approach to 
solving a particularly challenging problem because we could fund only 
one performing organization. That is especially problematic since we 
are trying to do things that have never been achieved before. Reduced 
funds also meant fewer early-stage investments to explore new research 
frontiers. Sequestration further affected our programs, with many being 
delayed or reduced.
    In the current fiscal year, the partial restoration of funds is 
making a real difference in DARPA's ability to attack the thorny 
problems the Nation faces in today's military and national security 
environment. As a projects agency, DARPA is always beginning new 
programs as old ones end. But the new efforts in fiscal year 2014 are 
stronger because of the healthier budget level. In some areas, we are 
now able to plan for the real-world prototyping and field testing 
needed for new concepts to be fully evaluated. And our new programs 
include the important exploratory projects that will expand future 
national security opportunities. The fiscal year 2015 request before 
you today will allow us to continue to restore and strengthen our 
portfolio of investments. With this funding level, we will be on the 
right track.
    Let me close by saying that I am mindful of the challenges that our 
Nation faces and the increasingly difficult environment in which we 
work, including severe constraints on resources. But I also am excited 
about what lies ahead and confident that--with your support for the 
President's fiscal year 2015 budget request--DARPA will continue to 
make a real and outsized difference in redefining the national security 
landscape and our Nation's security.
    Again, thank you for your support--past, present, and future. I 
look forward to working with you, and will be pleased to respond to 
your questions.
                                addendum
DARPA Transitions
    Many technologies from earlier DARPA investments are now moving 
forward with a wide variety of our partners and customers. These 
summaries provide snapshots of progress for some programs from recent 
years.
Leap Ahead in Surface Warfare Capabilities by Reducing Dependence on 
        ISR Platforms, Network Links, and GPS: Long Range Anti-Ship 
        Missile (LRASM)
            Technology Description and Program Goal
  --Our current anti-ship missiles must penetrate sophisticated enemy 
        air defense systems from long range. As a result, Warfighters 
        may require multiple missile launches and overhead targeting 
        assets to engage specific enemy warships from beyond the reach 
        of counter-fire systems. To overcome these challenges, the 
        DARPA-Navy Long Range Anti-Ship Missile (LRASM) program is 
        investing in advanced technologies to provide a leap ahead in 
        U.S. surface warfare capability.
  --LRASM aims to reduce dependence on intelligence, surveillance and 
        reconnaissance (ISR) platforms, network links, and GPS 
        navigation in electronic warfare environments. Autonomous 
        guidance algorithms should allow LRASM to use less-precise 
        target cueing data to pinpoint specific targets in the 
        contested domain. The program also focuses on innovative 
        terminal survivability approaches and precision lethality in 
        the face of advanced countermeasures.
  --LRASM began in 2009. Now in its final DARPA phase, this program 
        leverages the state-of-the-art Joint Air to Surface Standoff 
        Missile Extended Range (JASSM-ER) airframe and incorporates 
        additional sensors and systems to achieve a stealthy and 
        survivable subsonic cruise missile.
  --In 2013, DARPA conducted two flight demonstrations, each with 
        resounding success. The LRASM was dropped from an Air Force B-
        1, successfully separated from the aircraft, navigated through 
        a series of preplanned waypoints, and then transitioned to an 
        autonomous mode while seeking the target it had been instructed 
        to attack. The missile detected, identified, and tracked the 
        mobile ship target at extended range; transitioned to guidance 
        on the terminal sensor; and impacted the target with a miss 
        distance well within acceptable error probabilities. Other 
        flight achievements include weapon data link updates, 
        transmission of weapon in-flight tracks, and increased flight 
        range.
            Transition Plan and Status
  --The program is on track to deliver an advanced prototype weapon to 
        the Navy and Air Force with capability for challenging future 
        operational environments, while being sufficiently mature to 
        transition rapidly to an acquisition program to address near-
        term operational challenges.
  --DARPA is engaged with the U.S. Navy NAVAIR's Program Executive 
        Office for Unmanned Aviation and Strike Weapons (PEO U&W) to 
        provide an innovative management approach for rapid acquisition 
        of LRASM for Air Force and Navy air launch platforms to meet 
        offensive anti-surface warfare missions. This approach 
        leverages DARPA investment, program security, contracts, and 
        infrastructure. Ultimately, it will leverage DARPA's technology 
        development and risk reduction efforts to expeditiously field 
        LRASM. In fiscal year 2014, DARPA and Navy efforts include 
        continued technology development, integration risk reduction, 
        and pre-Milestone B activities.
  --DARPA has transitioned the technology to a new DARPA/Navy/Air Force 
        co-staffed office chartered by USD(AT&L) to rapidly deploy this 
        dramatically enhanced new capability.
Reducing Drag and Fuel Usage: Formation Flight for Aerodynamic Benefit
            Technology Description and Program Goal
  --With the Air Force consuming more than 2.5 billion gallons of 
        aviation fuel in 2010, DARPA launched the Formation Flight for 
        Aerodynamic Benefit program to seek creative ways to reduce 
        drag and fuel usage in the C-17 fleet.
  --C-17s are the largest single user of aviation fuel, consuming 650 
        million gallons (26 percent) in 2010. DARPA's goal was to 
        achieve a 10 percent reduction in fuel flow.
  --The approach taken was motivated by large flocks of migratory birds 
        that fly in a ``V'' formation.
  --All aircraft produce wingtip vortices when flying, which are a drag 
        byproduct of producing aerodynamic lift. After analyzing C-17 
        wingtip vortices, DARPA predicted optimum formation positions.
  --The DARPA program created new software that innovatively enabled 
        precise autopilot and auto-throttle formation flight operations 
        with existing C-17 hardware.
  --DARPA simulation, modeling, and lab testing projected success in 
        reaching the target reduction in fuel flow using this software 
        modification.
            Transition Plan and Status
  --DARPA transitioned the software to the Air Force Research 
        Laboratory (AFRL) in July 2012 as the Surfing Aircraft Vortices 
        for Energy ($AVE) program.
  --AFRL conducted 30 hours of flight testing in C-17 formation flight, 
        including 12 hours on operational flight routes over the 
        Pacific in 2013.
  --That testing validated a 10 percent fuel flow reduction with the 
        DARPA software modification. Moreover, the changes were safe, 
        aircrew friendly, and aircraft friendly--and made business 
        sense.
  --The Applied Technology Council approved funding for an Advanced 
        Technology Demonstration (ATD) of the DARPA C-17 software-only 
        modification. The ATD will enable the Air Mobility Command to 
        develop CONOPS for rapid fielding this DARPA energy efficiency 
        advancement.
  --AFRL is examining use of this technology to obtain fuel savings on 
        C-130s and other DOD platforms.
  --Commercial carriers, the Federal Aviation Administration, and the 
        National Aeronautics and Space Administration (NASA) expressed 
        interest in civilian applications of this DARPA technology.
  --This DARPA program success reflects significant contributions from 
        the Air Mobility Command, AFRL, 412th Test Wing, Air Force Life 
        Cycle Management Center, Boeing Company, and NASA Neil A. 
        Armstrong Flight Research Center.
New Approaches to Tackling DOD's Language Challenges: BOLT, RATS, and 
        MADCAT
            Technology Description & Program Goal
  --DARPA has invested in solutions for DOD to recognize, classify, and 
        help digest written and spoken foreign languages.
  --Technology from the Broad Operational Language Translation (BOLT) 
        program provides automated translation and linguistic analysis 
        that can be applied to informal genres of text and speech as 
        well as multilingual search capability and unrestricted multi-
        turn bilingual conversation.
  --The Robust Automatic Transcription of Speech (RATS) program creates 
        algorithms and software to perform the following tasks on 
        potentially speech-containing signals received over channels 
        that are extremely noisy and/or highly distorted: speech 
        activity detection, language identification, speaker 
        identification, and keyword spotting in foreign languages.
  --The Multilingual Automatic Document Classification Analysis and 
        Translation (MADCAT) program automatically converts foreign 
        language text images into English transcripts, eliminating the 
        need for linguists and analysts while automatically providing 
        relevant, distilled actionable information to military command 
        and personnel in a timely fashion.
            BOLT Transition Plan and Status
  --The Combating Terrorism Technical Support Office (CTTSO), under the 
        Assistant Secretary of Defense for Special Operations/Low-
        Intensity Conflict, successfully transitioned to military users 
        a tool for translation of and topic spotting and data 
        exploitation in social media. Initial implementation is with a 
        military user with plans to extend use to multiple government, 
        military, and academic media monitoring system users.
            RATS Transition Plan and Status
  --The Air Force has provided lab facilities to test RATS capability 
        using operational data. Initial evaluations show RATS 
        technology superior to any other system, and plans are underway 
        for integrating the speech activity detection portion of the 
        RATS technology into systems that provide noisy speech signal 
        processing capabilities. Other interested DOD elements are 
        awaiting the results of operational field trials before 
        pursuing acquisition.
            MADCAT Transition Plan and Status
  --MADCAT optical character recognition has been coupled with machine 
        translation and deployed in 11 languages to enable English-
        speaking government and military personnel to read hardcopy 
        foreign language documents. A project also is underway to 
        further develop Korean optical character recognition and 
        machine translation to support user requirements.
  --MADCAT offline handwriting recognition system was delivered to a 
        government user in 2011 and is in operational use. The CTTSO is 
        supporting the MADCAT transition to various other DOD and 
        intelligence community users.
Achieving Dramatically Faster Mapping: High-Altitude LIDAR Operations 
        Experiment (HALOE)
            Technology Description and Program Goal
  --Leveraging past DARPA developments in Light Detection and Ranging 
        (LIDAR) systems, a sensor pod for rapid collect, wide area, 
        long range, high-resolution 3D datasets was developed for the 
        HALOE system. In 2010 and 2011, DARPA invested funds to harden 
        the sensor system in preparation for a prolonged operational 
        trial in Afghanistan.
  --HALOE provided forces in Afghanistan with unprecedented access to 
        high-resolution 3D data, and it collected orders of magnitude 
        faster and from much longer ranges than conventional methods. 
        At full operational capacity, HALOE could enable mapping of 50 
        percent of Afghanistan in 90 days. State-of-the-art deployed 
        systems would have required 3 years to accomplish that task, 
        and more conventional systems would have required 30 years.
  --This increased performance is enabled by advances in shortwave 
        infrared sensitive material properties that permitted photon-
        counting detector arrays so sensitive that it is now possible 
        to make range measurements with fewer than 10 photons received, 
        versus tens of thousands of photons. As is true with any 
        camera, increased sensitivity means an image can be captured 
        more quickly since the shutter has to be open for less time--
        and less light is required to capture an image. Less time and 
        less power translate to higher collection rates at greater 
        standoff. HALOE can collect data at a rate more than 10 times 
        faster than state-of-the-art systems or 100 times faster than 
        conventional systems.
  --HALOE was one of several DARPA advances directly supporting the 
        Warfighter that earned the agency the Joint Meritorious Unit 
        Award from the Secretary of Defense late in 2012.
            Transition Plan and Status
  --The HALOE sensor pod was initially integrated onto a WB-57 aircraft 
        and deployed to Afghanistan from November 2010 through August 
        2011 in a joint effort with the Army Geospatial Center (AGC). 
        During this time, over 70,000 square kilometers of terrain data 
        (about 10 percent of Afghanistan) were collected, reflecting 
        the priorities of operational units.
  --In March 2012, with AGC funding, the HALOE sensor pod was 
        integrated onto a BD700 aircraft, a highly customized, longer-
        range flight platform.
  --In July 2013 the HALOE system was deployed to the AFRICOM Area Of 
        Responsibility (AOR). The system collected data in Africa 
        during eight flight sorties through August.
  --In September 2013, HALOE was transferred to Afghanistan in 
        September 2013.
  --HALOE performed exceedingly well in its several deployments in 
        Afghanistan, collecting more than 83 percent of all tasked 
        regions with a cumulative mission area of greater than 74,000 
        square kilometers. The collected data have been in response to 
        multiple RFIs in support of operational units. The HALOE system 
        has transitioned out of theater, with the last sortie flown in 
        December 2013.
  --Plans call for a 6-month period in CONUS for maintenance and 
        training followed by redeployment in June 2014 for the 
        remainder of fiscal year 2014. Potential locations include AOR 
        of USCENTCOM (not Afghanistan), USAFRICOM, and USPACOM.
Blast Monitoring Tool Also Will Improve Future Understanding of 
        Injuries: Blast Gauge
            Technology Description and Program Goal
  --Blast Gauge is a low-cost, disposable, individually wearable sensor 
        system that records the environment during an explosive event--
        for example, an attack from an improvised explosive
    device (IED) or a rocket-propelled grenade (RPG), or the firing of 
a missile or rocket during training.
  --The goal was to rapidly develop and field a system to quantify 
        blast exposure, assist commanders in finding injured Service 
        Members who would otherwise not report, and record data to 
        understand blast injuries, including traumatic brain injury 
        (TBI).
  --DARPA recognized that blast overpressure and linear acceleration 
        must be recorded--and at multiple points on the body--to 
        understand blast-related injuries and that the needed 
        technology could be built completely out of common commercial 
        components.
  --The device was developed in just 11 months; Special Operations 
        Forces (SOF) fielded Blast Gauge in Afghanistan in July 2011 
        and Rochester Institute of Technology researchers who developed 
        the dosimeter quickly formed a small business to commercialize 
        and manufacture the gauges.
  --Costing less than $50 per device, the gauge includes a simple 
        three-light system (red, yellow, green) to indicate condition 
        and magnitude immediately following a blast. Service Members 
        wear three gauges: on the back of the helmet, shoulder, and 
        chest. This allows a blast to be captured regardless of its 
        relative location.
  --Information is transmitted to medical staff and researchers; 
        doctors and medics report that the lights are a valuable 
        feature for augmenting triage following a blast.
  --DARPA also developed a system to capture the data, contributing to 
        better understanding of the effects of blasts on the brain.
            Transition Plan and Status
  --DARPA completed development with release of the latest generation 
        gauge in June 2013. It can be purchased directly from the 
        manufacturer or from Defense Logistics Agency stock.
  --DARPA initially provided field support to train Soldiers on the 
        gauges and to distribute gauges and collect exposure data. More 
        than 150,000 gauges (50,000 sets) have been distributed to all 
        Services.
  --As a result of the DARPA-funded field trials, Blast Gauge 
        technology has been adopted by SOF and the Army:
    --The Combined Joint Special Operations Task Force Afghanistan 
            (CJSOTF-A) mandated that all special operators in its task 
            forces use blast gauges. They are purchasing 60,000 gauges 
            for deployed forces and stateside training.
    --Other SOF units are purchasing and using gauges throughout 
            training and operations. In these cases, Blast Gauge has 
            become a key component of their strategy for managing TBI.
    --The Army has selected Blast Gauge as one of three components of 
            its Integrated Soldier Sensor System (ISSS) requirement. 
            DARPA is supporting the Army in designing and evaluating 
            the ISSS.
    --While the Army is developing its objective solution (ISSS), it 
            selected the Blast Gauge to be fielded to 18,000 Soldiers 
            in OEF.
  --Other services (including the Marine Corps Warfighting Laboratory), 
        NATO partners, and Australia have independently evaluated the 
        gauges and are deciding on next steps.
  --Blast Gauge was cited as a DARPA advance directly supporting the 
        Warfighter that contributed to the agency being awarded the 
        Joint Meritorious Unit Award from the Secretary of Defense in 
        2012.
  --Military officials have shown interest in examining the data and 
        post-event analyses to gain insights into potential issues with 
        brain injuries resulting from improper techniques and 
        procedures for using equipment, including during training when 
        most exposures occur.
Revolutionizing Prosthetics (RP): Restoring Near-Natural Movement and 
        Control of Upper Limbs
            Technology Description and Program Goal
  --When DARPA launched the Revolutionizing Prosthetics (RP) program in 
        2006, the state of upper-limb prosthetic technology was far 
        behind lower-limb technology and was judged to be a more 
        difficult medical and engineering challenge.
  --The concept of a new system design may open the option for Service 
        Members and others with upper-limb loss the chance to return to 
        more fully active lives.
  --The two research teams selected for the program, DEKA Integrated 
        Solutions Corporation and the Johns Hopkins University Applied 
        Physics Lab (APL), were tasked to:
    --Design and build anthropomorphic electromechanical upper 
            extremity prostheses that mimic the capabilities of a 
            natural arm for people with loss of an upper-limb.
    --Develop near-natural control modalities including exploration of 
            direct neural control from peripheral nerves or the brain.
    --Investigate the ability to provide sensory feedback from sensors 
            on the prosthesis through peripheral nerves or directly to 
            the brain.
  --Collaboration with Veterans Affairs, National Institutes of Health, 
        Army Medical Research and Materiel Command, and Walter Reed 
        National Military Medical Center has given more than75 users 
        (amputees and tetraplegics) an opportunity to provide input to 
        the design of both arm systems and supported regulatory 
        submissions. In addition, Revolutionizing Prosthetics became 
        the pilot program of the Food and Drug Administration's 
        Innovation Initiative in 2011, providing a new pathway for 
        novel medical technologies.
            Transition Plan and Status
  --Since February 2012, the University of Pittsburgh Medical Center, a 
        subcontractor to the Applied Physics Lab (APL), has conducted a 
        successful clinical study in which research participants living 
        with tetraplegia were able to use neural signals from their 
        brain to directly control the Modular Prosthetic Limb (MPL). 
        This work has demonstrated that advanced prosthetics and direct 
        neural interfaces can enable restoration of near-natural arm 
        control to improve the quality of life for military personnel 
        and civilians living with amputation or paralysis.
  --Veterans Affairs is conducting an independent 3-year home study of 
        the DEKA Arm System. The Food and Drug Administration's May 
        2014 approval allows DEKA to pursue manufacturing and 
        commercial opportunities to bring the arm to market. Their 
        transition plan includes development of advanced manufacturing 
        and distribution to medical practitioners.
  --The APL's MPL serves as a research platform and some MPL technology 
        has transitioned to small robotic systems used in manipulating 
        unexploded ordnance and suspicious objects.
Smartphone Apps for the Dismounted Warfighter: Transformative Apps 
        (TransApps)
            Technology Description and Program Goal
  --Today's Warfighters perform increasingly complex tasks but are 
        still using outdated tools to access and share information on 
        the battlefield. From a ground Soldier's perspective, little 
        has changed in the last 20 years. They rely on inferior paper 
        maps, written notes and reference materials, and voice radio 
        transmissions to carry out their missions. Many technology 
        advances that consumers take for granted have not made their 
        way to the battlefield for a variety of reasons, especially 
        security concerns and lack of robust high-bandwidth networks.
  --With the TransApps program, DARPA aims to put today's commercial 
        smartphone-grade capabilities in the hands of the Soldiers who 
        most need them--those on daily patrols in theater--making their 
        work much more effective and their lives easier and safer. In 
        the field, the devices are providing Soldiers with an 
        integrated ecosystem for situational awareness.
  --Soldiers on patrol can keep up with fast-paced missions and 
        changing environments by sharing and managing information in 
        real time. That allows Warfighters and decision makers up and 
        down the ranks and in various functions to share a common 
        operating picture.
  --They do this by using features and apps designed for their unique 
        requirements: for example taking note of changes in the field--
        such as new bridges, structures, or civilians in an area--and 
        sharing that information immediately with others who will 
        direct and carry out future operations in that area.
  --TransApps created a new agile development process, integration 
        framework, and customized test cycles to allow rapid 
        development of new applications, with new features and 
        enhancements deployed quickly based on Soldiers' evolving 
        requirements. When Soldiers need new apps, they can get them 
        quickly--sometimes the very next day. This is a radical 
        departure from how they have been operating. The TransApps 
        ecosystem bridges old and new, allowing future technologies to 
        work seamlessly with legacy radios and information systems. By 
        endowing commercial off-the-shelf (COTS) smartphones with 
        custom multilayered security and agile development processes 
        modified for the tactical community, TransApps is creating a 
        scalable and sustainable infrastructure template.
            Transition Plan and Status
  --A 4-year program that concludes in fiscal year 2014, TransApps was 
        first fielded to Afghanistan in 2011; within 18 months, more 
        than 3,000 systems were deployed to the battlefield, supporting 
        all Army maneuver operations theater-wide.
  --In fiscal year 2014, DARPA is working with the Army Nett Warrior 
        Program to fully transition TransApps capabilities into the 
        enduring Program of Record, as part of the Army's efforts to 
        get new technologies into the hands of the Soldier.
  --Other organizations and agencies are preparing to transition 
        program components. These include the Application Testing 
        Portal for streamlined security and performance analysis of 
        mobile applications, as well as TransApps' custom imagery 
        processing and configuration tools, which empower Soldiers to 
        manage their own maps based on mission requirements.
Persistent Close Air Support: Faster and There When Troops Need It
            Technology Description and Program Goal
  --To maintain a decisive tactical advantage in 21st-century combat, 
        Warfighters need to safely, rapidly, and collaboratively deploy 
        ordnance against elusive mobile targets. Unfortunately, air-
        ground fire coordination, referred to as Close Air Support, or 
        CAS, has changed little since World War I.
  --Pilots and dismounted ground agents can focus on only one target at 
        a time and often must ensure they hit it using just voice 
        directions and a paper map. In complex environments, it can 
        take up to an hour to confer, get in position and strike--time 
        in which targets can attack first or move out of reach.
  --DARPA created the Persistent Close Air Support (PCAS) program to 
        enable dismounted ground agents and combat aircrews to share 
        real-time situational awareness and weapons systems data.
  --The system DARPA developed and tested enables ground agents to 
        quickly and positively identify multiple targets 
        simultaneously. Ground and air forces would jointly select 
        precision-guided ordnance that best fits each target and 
        minimizes collateral damage and friendly fire.
    Finally, both parties would authorize weapons deployment.
  --Benefits would include reduction in time from calling in a strike 
        to target hits reduced from as much as 60 minutes to just 6 
        minutes; direct coordination of airstrikes by a ground agent 
        from manned or unmanned air vehicles; improved speed and 
        survivability of ground forces engaged with enemy forces; and 
        use of smaller, more precise munitions against smaller and 
        moving targets in degraded visual environments. Another benefit 
        is graceful degradation; if one piece of the system fails, 
        Warfighters still retain capability of more basic 
        functionality.
            Transition Plan and Status
  --In early 2013, DARPA deployed 500 Android tablets equipped with 
        PCAS-Ground situational awareness software to units stationed 
        in Afghanistan. An operator on the ground--with a tablet and 
        voice radio--communicated with a pilot who had a tablet in the 
        cockpit about imagery they both share on their tablets. (The 
        program also developed a networked solution that allows even 
        more rapid information sharing.)
  --Field reports show that PCAS-Ground replaced those units' legacy 
        paper maps, dramatically improving ground forces' ability to 
        quickly and safely coordinate air engagements.
  --The program, which began in fiscal year 2010 and concludes in early 
        2015, is in the flight-testing phase, which concludes with live 
        fire demonstrations.
  --Elements of PCAS, particularly the JTAC ground software, are seeing 
        traction among various JTAC-related programs of record across 
        the Services.

    Senator Durbin. Thank you.
    Dr. Rauch.
STATEMENT OF DR. TERRY RAUCH, DIRECTOR, MEDICAL 
            RESEARCH FOR THE ASSISTANT SECRETARY OF 
            DEFENSE
    Dr. Rauch. Chairman Durbin, Vice Chairman Cochran, members 
of the committee, I would like to thank you for the opportunity 
to appear before you to discuss our research within the 
military health system and our collaborations across 
Government, academia, and industry.

                  IMPROVEMENTS IN COMBAT CASUALTY CARE

    The military health system is a complex enterprise that we 
use to gather health care delivery, medical education, public 
health, private sector partnerships and cutting edge research. 
Our research is the engine to integrate and embed emerging 
evidence-based practices into a learning healthcare system 
where healthcare providers, scientists, patients participate in 
the generation of knowledge on health outcomes, identifying and 
evaluating best medical practices, and assessing the impact of 
changes in medical practice.
    Research in the military health system has played a 
significant role in changing health outcomes over the last 13 
years of war. As the war progressed, the case fatality rate of 
our servicemembers was nearly cut in half, and remarkably, this 
occurred when the severity of injuries were increasing. Today 
we deliver the highest survivability rates in the history of 
warfare and that survivability is coupled with greater post-
injury quality of life. This is a tribute to our learning 
healthcare system.

 PREVENTION, CARE, AND TREATMENT OF POST-TRAUMATIC STRESS DISORDER AND 
                   OTHER PSYCHOLOGICAL HEALTH ISSUES

    Many of the results stemming from our research have not 
only contributed to the survival and recovery of U.S. 
servicemembers, but also translates well into the civilian 
setting. Similar to the military experience, the results of 
military medical research translate into improved hemorrhage 
control, resuscitation en-route care, and damage control 
surgery in the civil setting. Although significant and 
continuing improvements in combat casualty care and personal 
equipment have reduced fatal injuries, many servicemembers 
return home with traumatic brain injury, post-traumatic stress 
disorder (PTSD), suicidal thoughts or behaviors, and other co-
occurring conditions such as depression, substance abuse 
related to alcohol, tobacco, and other drugs, including misuse 
and abuse of prescription drugs, and of course, chronic pain. 
All of these complicate the prevention and treatment of PTSD, 
traumatic brain injury, and suicidal behaviors.
    To improve the prevention, diagnosis, and treatment of 
mental health conditions affecting veterans and servicemembers 
and military families, the President issued an Executive order 
in 2012 and directed the Federal agencies to develop a 
coordinated national research action plan. The Department of 
Defense with the VA and HHS (Department of Health and Human 
Services) and the Department of Education responded with a 
wide-reaching plan to improve scientific understanding, provide 
effective treatment, and reduce the occurrences of PTSD, 
traumatic brain injury, various co-occurring conditions, and 
suicide. The plan builds on substantial work already underway 
in the Federal agencies and provides a framework for improved 
coordination across Government and in partnership with academia 
and industry to share information, brainstorm innovations, and 
accelerate science.

                           PREPARED STATEMENT

    Scientific progress is incremental. It takes time, but our 
servicemembers and their family members need more effective 
prevention strategies and treatments. So our research mission 
is urgent, most urgent.
    I am both pleased and proud to be here today to represent 
the women and men who perform the research mission of the 
military health system, and I look forward to answering your 
questions.
    [The statement follows:]
                Prepared Statement of Dr. Terry M. Rauch
    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to appear before you today to discuss medical research in 
the Military Health System (MHS) and, in particular, our research 
collaborations across government, academia, and industry.
    The MHS is a complex system that weaves together healthcare 
delivery, medical education, public health, private sector partnerships 
and cutting edge medical research. Research in the MHS is the engine to 
integrate and embed emerging evidenced-based practices into a learning 
healthcare system in which the healthcare providers, scientists, 
systems, and patients participate in the generation of knowledge on 
trends in health and illness, the testing and identification of best 
practices, and the assessment of the impact of practice changes.
    Research by the MHS has played a significant role in the 
performance of military trauma care over the last 13 years of war. As 
the war progressed, we improved survivability rates--although the 
severity of injuries increased. Today, we deliver the highest 
survivability rates in the history of warfare and that survivability is 
coupled with greater post-injury quality of life. These notable 
achievements reflect the return on investment by MHS research in combat 
casualty care, traumatic brain injury (TBI), psychological health and 
suicide, rehabilitation and regenerative medicine, military operational 
medicine, military infectious diseases, and medical training and 
simulation. I will highlight achievements in some of these areas as 
well as our collaborations across government, academia and industry.
                     combat casualty care research
    Accomplishments in combat casualty care have led to the fielding of 
safe and effective tourniquets, improved hemostatic dressings, as well 
as numerous clinical practice guidelines to improve trauma care on the 
battlefield. A significant enabler in these accomplishments is the 
Joint Trauma System or JTS which has developed into the Department of 
Defense's (DOD) ``go-to'' entity for real-time process improvement to 
optimize survival and recovery of the warfighter. The swift translation 
of evidence from military research through the JTS to the battlefield 
represents a first in military medical history. The JTS maintains the 
Department of Defense Trauma Registry (DODTR) which is the largest 
repository of combat injury and trauma management information in 
history. In this capacity, the JTS and the process it supports serve as 
a fitting ``bedside'' to generate many of the clinical questions that 
need answers from military medical and trauma research.
    Recently, MHS researchers collaborating with industry received Food 
and Drug Administration approval for a hemostatic device for the 
control of bleeding from junctional wounds in the groin or axilla not 
amenable to tourniquet application. In addition, the MHS is conducting 
advanced development efforts on a dried plasma product to help control 
hemorrhage on the battlefield. Other research efforts investigate 
genetic, genomic, and immunological responses to trauma and hemorrhage 
and finding improved means to reduce hypothermia.
                documenting and sharing lessons learned
    Advances in trauma care stemming from the military's learning 
health system have been accelerated by the unprecedented burden of 
injury resulting from the wars in Afghanistan and Iraq. While the more 
than 30 Clinical Practice Guidelines maintained by the JTS are evidence 
based, they are also responsive and practical. Reports on the 
translation of advances in military trauma care to the civilian 
community have become increasingly common. We are taking intentional 
steps to codify and garner the lessons within the military's learning 
healthcare system and promote their translation to the civilian sector 
in partnership with the Institute of Medicine.
                            vaccine research
    As a final step towards FDA licensure in the United States, a 
clinical trial of a third generation smallpox vaccine, already approved 
in Europe and Canada, is about to start in U.S. forces stationed in 
South Korea. The DOD is participating in the clinical trial with the 
vaccine manufacturer and has designated a staff member from the U.S. 
Army Research Institute of Infectious Diseases to serve as the DOD 
principal investigator. The new product is a modern smallpox vaccine 
that does not replicate in human cells and is expected to be a safe 
alternative for individuals who have certain contraindications to the 
current smallpox vaccine.
                 national interagency biodefense campus
    The National Interagency Biodefense Campus (NIBC) is a prime 
example of interagency collaboration and includes not only DOD, but the 
HHS' National Institute of Allergy and Infectious Diseases, the Centers 
for Disease Control and Prevention, and the Departments of Agriculture 
(USDA) and Homeland Security (DHS). Key DOD components of the NIBC are 
the U.S. Army Medical Research Institute of Infectious Diseases and the 
U.S. Navy Medical Research Center. The NIBC is leading in the 
development of medical counter measures as well as enhancing the U.S. 
response to emerging threats and national emergencies and is one of the 
Nation's few laboratory centers with Biosafety level 3 and 4 
laboratories conducting world class research against the world's most 
dangerous pathogens such as viral hemorrhagic fevers and plague. The 
NIBC is a part of the larger interagency confederation known at the 
National Interagency for Biological Research (NICBR).
        u.s. army medical research institute of chemical defense
    With your support the DOD has invested significantly in the U.S. 
Army Medical Research Institute of Chemical Defense (MRICD) with a 
recapitalization project. The MRICD is currently at the 95 percent 
stage of construction completion for a new Command and state of the art 
laboratory building. They are scheduled to occupy the new building in 
early January 2015. The MRICD is the Nation's Center of Excellence for 
medical chemical defense research. Their world renowned scientists 
conduct basic and applied research on the mechanisms of action of 
chemical warfare threat agents, toxic industrial chemicals, and toxins 
of biological origin. These hazardous chemicals and toxins endanger not 
only our deployed our military forces but also pose an extremely 
serious homeland security threat to our entire civilian population as 
recent events in the Middle East have shown. The MRICD operates on a 
whole of government approach by being the premier laboratory to 
research candidate pretreatment, prophylactic, and treatment compounds. 
These compounds establish a scientific and technical base from which to 
plan and formulate enhanced medical countermeasures for our entire 
population. Their efforts have produced many candidates for transition 
into the advance development arena. Their scientists are on point to 
investigate medical countermeasures for all non-traditional agents as 
well as any emerging chemical threat agent regardless of the source. 
The MRICD also provides consultative subject matter expertise on 
medical chemical defense issues. They educate and train the full 
spectrum of military/civilian first responders and medical 
professionals in the identification and management of chemical 
casualties. Many of our allied partners have recently sent personnel to 
be trained in their courses so they can treat chemical casualties no 
matter the circumstances.
           rehabilitation and regenerative medicine research
    Due to advances in combat casualty care, increasing numbers of 
Service members are surviving with extreme trauma to the extremities 
and head. Research by the MHS in rehabilitation and regenerative 
medicine focuses on definitive and rehabilitative care innovations 
required to reset Service members, both in terms of duty performance 
and quality of life. The program has multiple initiatives to achieve 
its goals, including improving prosthetic function, enhancing self-
regenerative capacity, improving limb and organ transplant success, 
creating full functioning limbs and organs, repairing damaged eyes, 
treating visual dysfunction following injury, improving pain 
management, and enhancing rehabilitative care. Innovative 
reconstructive research supported by the MHS in partnership with 
Brigham and Women's Hospital has performed successful face transplants 
on patients with severe facial deformity to provide functional and 
aesthetic benefits. In addition, research supported by the MHS in 
partnership with Johns Hopkins Hospital performed a bi-lateral hand 
transplant on a Service member who lost all four limbs from a road side 
bomb in Iraq. Today that Service member has achieved significant 
function in both hands. Regenerative medicine technologies present many 
opportunities for the treatment of combat-related traumatic injury and 
the MHS is supporting the Armed Forces Institute of Regenerative 
Medicine-Warrior Restoration Consortium to position promising 
technologies and therapeutic/restorative practices for entrance into 
human clinical trials. The Warrior Restoration Consortium is a 
partnership with more than 30 academic institutions and industry 
partners to address five focus areas in: extremity regeneration; 
craniomaxillofacial regeneration; skin regeneration; genitourinary/
lower abdomen reconstruction; and composite tissue allotransplantation 
(i.e., organ transplant from a donor) and immunomodulation or 
modification of the immune response.
  research to improve mental health for service members and military 
              families: the national research action plan
    Although significant and continuing improvements in combat casualty 
care and personal protective equipment have limited fatal injuries, 
many Service members return with TBI, Post Traumatic Stress Disorder 
(PTSD), suicidal thoughts or behaviors, and comorbidities. These 
comorbidities include depression; substance abuse related to alcohol, 
tobacco, and other drugs, including the misuse and abuse of 
prescription drugs; and chronic pain, all of which can complicate the 
prevention and treatment of PTSD, TBI, and suicidal behaviors. Family 
members also are affected by the multiple stressors associated with 
deployment and reintegration. Overall, the need for mental health 
services for Service members and their family members is anticipated to 
increase in coming years.
    To improve prevention, diagnosis, and treatment of mental health 
conditions affecting veterans, Service members, and military families, 
the President issued an Executive Order in 2012 directing Federal 
agencies to develop a coordinated National Research Action Plan (NRAP). 
The Departments of Defense, Veterans Affairs, Health and Human 
Services, and Education responded with a wide-reaching plan to improve 
scientific understanding; provide effective treatment; and reduce 
occurrences of PTSD, TBI, various co-occurring conditions, and suicide.
    The NRAP, released in August 2013, is a strategic blueprint for 
interagency research to identify and develop more effective diagnostic 
and treatment methodologies to improve outcomes for TBI, PTSD, and 
related conditions as well as develop and test suicide risk assessments 
and suicide prevention and treatment interventions. These efforts 
include collaborative research on biomarkers to detect disorders early 
and accurately; safe and effective treatments to improve function and 
quality of life; and developing a more precise definition of mTBI. The 
NRAP includes clear timelines and goals to achieve the same level of 
urgency, specificity of deliverables, as well as accountability, as 
expressed in the Executive Order. It is important to note that 
improving mental health outcomes for Service members and Veterans and 
the NRAP are included in the newly-established Cross-Agency Priority 
Goal framework overseen by the Office of Management and Budget and the 
Performance Improvement Council. The Cross-Agency Priority Goal, 
Improving Mental Health Outcomes for Service members and Veterans, was 
announced on March 10, 2014, and will continue over a 3 year period. 
Leadership will report quarterly to the Office of Management and Budget 
on their progress under the Goal.
    Critical to the implementation of the NRAP is a continuing 
understanding of the agency-specific activities and assuring a 
collaborative and integrated research strategy to meet the requirements 
in the NRAP. This collaboration and integration is provided in an 
annual Joint Review and Analysis meeting on research related to PTSD, 
TBI, suicide prevention, and substance abuse. Agency representation at 
the meeting included DOD, the Department of Veterans Affairs (VA), the 
Department of Education (represented by the National Institute on 
Disability and Rehabilitation Research [NIDRR]), and Health and Human 
Services (represented by the National Institute of Neurological 
Disorders and Stroke, the National Institute of Mental Health, and the 
National Institute on Drug Abuse).
    MHS researchers are attempting to answer questions across the 
research continuum. However, fundamental gaps in scientific knowledge 
remain, such as: the lack of a clinically-useful definition for mild 
TBI (mTBI)/concussion makes it difficult to adequately diagnose this 
condition. Note mTBI and concussion are used interchangeably herein. 
For mTBI, improved techniques are needed to determine if symptoms are 
attributable to the traumatic event. Prevention and treatment 
interventions are needed that address the comorbidities that often 
occur with PTSD. Evidence-based approaches are limited for reducing 
suicide risk, and the relationships between PTSD, TBI, suicide, and co-
occurring conditions are not well understood.
    Activities are underway in support of inter-agency collaboration, 
including the DOD's Systems Biology Program and the Millennium Cohort 
and Family Cohort Studies, the VA's Million Veteran Program, the 
National Institutes of Health (NIH) biomarker research program, and 
research dedicated to advancing prevention and treatment interventions. 
The DOD and the Centers for Disease Control are partnering with the 
Brain Trauma Foundation to develop a clinically useful definition of 
mTBI/concussion. Suicide prevention research includes the DOD's 
Military Suicide Research Consortium and the National Institute of 
Mental Health and DOD Army Study to Assess Risk and Resilience in 
Service members (Army STARRS) program.
    Data-sharing efforts include the DOD/NIH Federal TBI Research 
Informatics System for TBI clinical research (a central repository for 
new TBI-related data that links to existing databases to facilitate 
sharing of information), the VA computing infrastructure, and NIDRR's 
TBI Model Systems National Database, which contains retrospective data 
on the clinical progress and outcomes of individuals with moderate to 
severe TBI.
    Recently initiated activities include two new joint funded DOD and 
VA research consortium efforts with academia to support PTSD and TBI 
biomarker studies. The Consortium to Alleviate PTSD is a new research 
effort focused on biomarker discovery and development with the aim of 
identifying biomarkers for subacute and chronic PTSD that can be used 
for therapeutic and outcome assessment. This represents a major 
investment to advance knowledge related to biomarkers and clinical 
utility. The Chronic Effects of Neurotrauma Consortium will establish 
the association of the chronic effects of mTBI and common 
comorbidities; determine whether there is a causative effect of chronic 
mTBI/concussion on neurodegenerative disease and other comorbidities; 
identify diagnostic and prognostic indicators of neurodegenerative 
disease and other comorbidities associated with mTBI/concussion; and 
develop and advance methods to treat and rehabilitate chronic 
neurodegenerative disease and comorbid effects of mTBI/concussion.
    The MHS is funding a wide variety of studies relevant to military 
family members, including research focused on: understanding risk and 
resilience factors of military families and communities; suicide 
bereavement in Service members and their families; interventions to 
enhance resilience, address and prevent relationship problems, and 
support families during deployment; the effectiveness of web-enhanced 
support tools for military families; and the effects of military 
deployment of parents on adolescent mental health.
                               conclusion
    Scientific progress is incremental and takes time, but Service 
members and their family members need more effective prevention 
strategies and treatments, so our research mission is urgent. I am both 
pleased and proud to be here with you today to represent the men and 
women who perform the research mission of the MHS, and I look forward 
to answering your questions.

    Senator Durbin. Thank you very much.
    Ms. Miller.
STATEMENT OF MARY MILLER, DEPUTY ASSISTANT SECRETARY OF 
            THE ARMY FOR RESEARCH AND TECHNOLOGY
    Ms. Miller. Thank you, Chairman Durbin, Ranking Member 
Cochran, members of the committee. Thank you for this 
opportunity to discuss the Army's science and technology 
program for fiscal year 2015.
    After 13 years of persistent conflict, the Army finds 
itself in a familiar situation, facing a declining defense 
budget and a strategic landscape that continues to evolve. As a 
result, the Army must balance between force structure, 
operational readiness, and modernization to maintain a capable 
force able to prevent, shape, and win in any engagement. 
Modernization will be slowed over the next 5 years. New 
programs will not be initiated as originally envisioned, and 
the Army's science and technology enterprise will be challenged 
to better prepare for the programs and capabilities of the 
future.
    To ensure that we make the best choices for the future 
Army, we have established a comprehensive modernization 
strategy that facilitates, informs strategic decisions based on 
long-term objectives within a resource-constrained environment. 
This long-term look over 30 years was exceptionally powerful in 
facilitating the strategic decisions made within the Army as we 
built fiscal year 2015's President's budget. It allowed the 
Army leadership to make tough program decisions based on 
providing the most capability to the soldier, knowing that in 
some cases that meant delaying desired capabilities. This is 
essential as the Army looks at its S&T community to conduct 
more technology demonstration and prototyping initiatives that 
will focus on maturing technology, reducing program risk, 
defining realistic requirements, and conducting experimentation 
with soldiers to refine new capabilities and operational 
concepts. The S&T community will be challenged to bring forward 
not only new capabilities but capabilities that are affordable. 
They are up to this challenge.

                           PREPARED STATEMENT

    We remain an Army that is looking towards the future while 
taking care of our soldiers of today. I hope that we can 
continue to count on your support as we move forward. Thank you 
again for all that you do for our soldiers.
    [The statement follows:]
                  Prepared Statement of Mary J. Miller
    Chairman Durbin, Ranking Member Cochran, and distinguished members 
of the Subcommittee, thank you for the opportunity to discuss the 
Army's Science and Technology (S&T) Program for fiscal year 2015.

    ``Over the past 12 years of conflict, our Army has proven itself in 
        arguably the most difficult environment we have ever faced. Our 
        leaders at every level have displayed unparalleled ingenuity, 
        flexibility and adaptability. Our Soldiers have displayed 
        mental and physical toughness and courage under fire. They have 
        transformed the Army into the most versatile, agile, rapidly 
        deployable and sustainable strategic land force in the world.'' 
        \1\ --Secretary John W. McHugh, General Raymond T. Odierno
---------------------------------------------------------------------------
    \1\ The Posture of the United States Army, Committee on Armed 
Services, United States House of Representatives, April 23, 2013.

    After 13 years of persistent conflict, the United States finds 
itself in a familiar situation--facing a declining defense budget and a 
strategic landscape that continues to evolve. As our current large-
scale military campaign draws down, the United States still faces a 
complex and growing array of security challenges across the globe as 
``wars over ideology have given way to wars over religious, ethnic, and 
tribal identity; nuclear dangers have proliferated; inequality and 
economic instability have intensified; damage to our environment, food 
insecurity, and dangers to public health are increasingly shared; and 
the same tools that empower individuals to build enable them to 
destroy.'' \2\ Unlike past draw downs, where the threats we faced were 
going away, there remain a number of challenges that we still have to 
confront--challenges that call for a change in America's defense 
priorities. Despite these challenges, the United States Army is 
committed to remaining capable across the spectrum of operations. While 
the future force will become smaller and leaner, its great strength 
will lie in its increased agility, flexibility, and ability to deploy 
quickly, while remaining technologically advanced. We will continue to 
conduct a complex set of missions ranging from counterterrorism, to 
countering weapons of mass destruction, to maintaining a safe, secure 
and effective nuclear deterrent. We will remain fully prepared to 
protect our interests and defend our homeland.\3\
---------------------------------------------------------------------------
    \2\ National Security Strategy, May 2010.
    \3\ ``The Posture of the United States Army,'' The Honorable John 
M. McHugh, Secretary of the Army and General Raymond T. Odierno, Chief 
of Staff, United States Army before the Senate Committee on 
Appropriations, Subcommittee on Defense, May 22, 2013.
---------------------------------------------------------------------------
    The Army depends on its Science and Technology (S&T) program to 
help prepare for the future, mitigate the possibility of technical 
surprise and ensure that we remain dominant in any environment. The 
Army's S&T mission is to foster discovery, innovation, demonstration 
and transition of knowledge and materiel solutions that enable future 
force capabilities and/or enhance current force systems. The Army 
counts on the S&T Enterprise to be seers of the future--to make 
informed investments now, ensuring our success for the future.
    The Army is ending combat operations in Afghanistan and refocusing 
on the Asia-Pacific region with greater emphasis on responses to 
sophisticated, technologically proficient threats. We are at a pivotal 
juncture--one that requires us to relook the past 13 years of conflict 
and capitalize on all the lessons that we have learned, while we 
implement a strategic shift to prepare for a more capable enemy. As the 
Department of Defense prepares for the strategic shift, the Army will 
adapt--remaining an ever present land force--unparalleled throughout 
the World.
    We are grateful to the members of this Committee for your sustained 
support of our Soldiers, your support of our laboratories and centers 
and your continued commitment to ensure that funding is available to 
provide our current and future Soldiers with the technology that 
enables them to defend America's interests and those of our allies 
around the world.
Strategic Landscape
    As we built the fiscal year 2015 President's Budget Request, the 
Army faced a number of significant challenges. While the Army has many 
priorities, the first and foremost priority is and always will be to 
support our Soldiers in the fight. We are pulling our troops and 
equipment out of Afghanistan by the end of this December, we are 
drawing down our force structure, we are resetting our equipment after 
13 plus years of war and we are trying to modernize. Given the budget 
downturn within the Department of Defense, the Army has been forced to 
face some difficult choices. The Army is in the midst of a significant 
force structure reduction--taking the Army to pre-World War II manning 
levels. The Chief of Staff of the Army has undertaken difficult 
decisions balancing force structure, operational readiness, and 
modernization to maintain a capable force able to prevent, shape and 
win in any engagement. As a result, over the next 5 years, we face a 
situation where modernization will be slowed, new programs will not be 
initiated as originally envisioned and the Army's S&T Enterprise will 
be challenged to better prepare for the programs and capabilities of 
the future. We will focus on maturing technology, reducing program 
risk, developing prototypes that can be used to better define 
requirements and conducting mission relevant experimentation with 
Soldiers to refine new operational concepts. The S&T community will be 
challenged to bring forward not only new capabilities, but capabilities 
that are affordable for the Army of the future.

    ``Going forward, we will be an Army in transition. An Army that 
        will apply the lessons learned in recent combat as we 
        transition to evolving threats and strategies. An Army that 
        will remain the best manned, best equipped, best trained, and 
        best led force as we transition to a leaner, more agile force 
        that remains adaptive, innovative, versatile and ready as part 
        of Joint Force 2020.'' \4\ --General Raymond T. Odierno, 38th 
        Chief of Staff, Army
---------------------------------------------------------------------------
    \4\ ``Marching Orders,'' General Raymond T. Odierno, 38th Chief of 
Staff, U.S. Army, January 2012.

Goals and Commitments
    The emerging operational environment presents a diverse range of 
threats that vary from near-peer to minor actors, resulting in new 
challenges and opportunities. In this environment, it is likely that 
U.S. forces will be called upon to operate under a broad variety of 
conditions. This environment requires a force that can operate across 
the range of military operations with a myriad of partners, 
simultaneously helping friends and allies while being capable of 
undertaking independent action to defeat enemies, deter aggression, and 
shape the environment. At the same time, innovation and technology are 
reshaping this environment, multiplying and intensifying the effects 
that even minor actors are able to achieve.
    The Army's S&T investment is postured to address these emerging 
threats and capitalize on opportunities. The S&T investment continues 
to not only focus on developing more capable and affordable systems, 
but also on understanding the complexity of the future environment. We 
have focused on assessing technology and system vulnerabilities (from 
both a technical and operational perspective) to better effect future 
resilient designs and to prepare countermeasures that restore our 
capabilities when necessary.
    There are persistent (and challenging) areas where the Army invests 
its S&T resources to ensure that we remain the most lethal and 
effective Army in the world. As the Army defines its role in future 
conflicts, we are confident that these challenges will remain relevant 
to the Army and its ability to win the fight. The S&T community is 
committed to help enable the Army achieve its vision of an 
expeditionary, tailorable, scalable, self-sufficient, and leaner force, 
by addressing these challenges:
  --Enabling greater force protection for Soldiers, air and ground 
        platforms, and bases (e.g., lighter and stronger body armor, 
        helmets, pelvic protection, enhanced vehicle survivability, 
        integrated base protection).
  --Easing overburdened Soldiers in small units (both cognitive and 
        physical burden, e.g., lighter weight multi-functional 
        materials).
  --Enabling timely mission command and tactical intelligence to 
        provide situation awareness and communications in ALL 
        environments (mountainous, forested, desert, urban, jamming, 
        etc.).
  --Reducing logistic burden of storing, transporting, distributing and 
        retrograding materials.
  --Creating operational overmatch (enhancing lethality and accuracy).
  --Achieving operational maneuverability in all environments and at 
        high operational tempo (e.g., greater mobility, greater range, 
        ability to operate in high/hot environments).
  --Enabling early detection and treatment for Traumatic Brain Injury 
        (TBI) and Post Traumatic Stress Disorder (PTSD).
  --Improving operational energy (e.g., power management, micro-grids, 
        increased fuel efficiency engines, higher efficiency 
        generators, etc.).
  --Improving individual and team training (e.g., live-virtual-
        constructive training).
  --Reducing lifecycle costs of future Army capabilities.
    In addition to these enduring challenges, the S&T community 
conducts research and technology development that impacts our ability 
to maintain an agile and ever ready force. This includes efforts such 
as establishing environmentally compatible installations and materiel 
without compromising readiness or training, creating leader selection 
methodologies, and new test tools that can save resources and reduce 
test time, and establishing methods and measures to improve Soldier and 
unit readiness and resilience.
    The Army S&T strategy acknowledges that we must respond to the new 
fiscal environment and changing technology playing field. Many critical 
technology breakthroughs are being driven principally by commercial and 
international concerns. We can no longer do business as if we dominate 
the technology landscape. We must find new ways of operating and 
partnering. We realize that we should invest where the Army must retain 
critical capabilities but reap the benefits of commercially driven 
technology development. No matter the source, we will ensure the Army 
is aware of the best and most capable technologies to enable a global, 
networked and full-spectrum joint force in the future. As the U.S. 
rebalances its focus by region and mission, it must continue to make 
important investments in emerging and proven capabilities. In a world 
where all have nearly equal access to open technology, innovation is 
the most important discriminator in assuring technology superiority.
    The Chief of Staff of the Army has made his vision clear.

    ``The All-Volunteer Army will remain the most highly trained and 
        professional land force in the world. It is uniquely organized 
        with the capability and capacity to provide expeditionary, 
        decisive landpower to the Joint Force and ready to perform 
        across the range of military operations to Prevent, Shape, and 
        Win in support of Combatant Commanders to defend the Nation and 
        its interests at home and abroad, both today and against 
        emerging threats.'' \5\ --General Raymond T. Odierno, 38th 
        Chief of Staff, Army
---------------------------------------------------------------------------
    \5\ Gen Raymond Odierno, 38th Chief of Staff Army, ``CSA Strategic 
Priorities, Waypoint 2'', 2014.

    The Army is relying on its S&T community to carry out this vision 
for the Army of the future.
Implementing New Processes
    Turning science into capability takes a continuum of effort 
including fundamental research, the development and demonstration of 
technology, the validation of that technology and its ultimate 
conversion into capability. From an S&T materiel perspective, this 
includes the laboratory confirmation of theory, the demonstration of 
technical performance, and the experimentation with new technologies to 
identify potential future capabilities and to help refine/improve 
system designs. But the S&T Enterprise is also charged with helping to 
conceptualize the future--to use our understanding of the laws of 
physics and an ability to envision a future environment to broaden the 
perspective of the requirements developers as well as the technology 
providers.
    As part of this continuum, the Army has adopted a 30 year planning 
perspective to help facilitate more informed program planning and 
budget decisions. A major part of the S&T strategy is to align S&T 
investments to support the acquisition Programs of Record (PoRs) 
throughout all phases of their lifecycle and across the full DOTMLPF 
(Doctrine, Organization, Training, Materiel, Leadership, Personnel, and 
Facilities) process. By expanding the perspective, we are able to 
identify areas where there are unaffordable alignments of activities 
(such as multiple major Engineering Change Proposals in the same 
portfolio within the same 2-3 year timeframe) or unrealistic alignments 
(such as planned technology upgrades to a system that has already 
transitioned into sustainment). With that information in mind, the Army 
has established ``tradespace'' to generate options that inform 
strategic decisions that allow the Army to stay within its fiscal top 
line while maximizing its capabilities for the Warfighter.
    This new and ongoing process, known as the Long Range Investment 
Requirements Analysis (LIRA), has put additional rigor into the 
development of the Army's budget submission and creates an environment 
where the communities who invest in all phases of the materiel 
lifecycle work together to maximize the Army's capabilities over time. 
From an S&T perspective, it clearly starts to inform the materiel 
community as to WHEN technology is needed for insertion as part of a 
planned upgrade. It also cues us as to when to start investing for 
replacement platforms. In addition, this long-range planning can 
introduce opportunities for convergence of capabilities such as the 
development of a single radar that can perform multiple functions for 
multiple platforms or the convergence of cyber and Electronic Warfare 
(EW) capabilities into one system. Aside from the obvious benefits 
achieved by laying out the Army's programs and seeing where we may have 
generated unrealizable fiscal challenges, it has reinvigorated the 
relationships and strengthened the ties between the S&T community and 
their Program Executive Office (PEO) partners. We are working together 
to identify technical opportunities and the potential insertion of new 
capabilities across this 30 year timeframe.
    The LIRA process was used to inform the development of the fiscal 
year 2015 President's Budget. As the Army faced a dramatic decline in 
its modernization accounts (a 40 percent decrement over the next 2 
years), we used the results of the LIRA to ensure that we had a 
fiscally sound strategy.
The S&T Portfolio
    The nature of S&T is such that continuity and stability have great 
importance. Starting and stopping programs prevents momentum in 
research and lengthens the timelines for discovery and innovation. 
While the Army S&T portfolio gains valuable insight from the threat 
community, this only represents one input to the portfolio and likely 
describes the most probable future. To have a balanced outlook across 
all the possible futures requires that the portfolio also address the 
``possible'' and ``unthinkable.'' The Army's S&T portfolio is postured 
to address these possible futures across the eight technology 
portfolios identified Figure 1.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The efforts of the S&T Enterprise are managed by portfolio to 
ensure maximum synergy of efforts and reduction of unnecessary 
duplication. The S&T program is organized into eight investment 
portfolios that address challenges across six Army-wide capability 
areas (Soldier/Squad; Air; Ground Maneuver; Command, Control, 
Communications, and Intelligence (C3I); Lethality; and Medical) and two 
S&T enabling areas (Basic Research and Innovation Enablers).
    The 2014 Quadrennial Defense Review (QDR) protects and prioritizes 
key investments in technology to maintain or increase capability while 
forces grow leaner. This is an opportunity to look at innovative 
applications of technology. As a result, in the fiscal year 2015 
President's budget request, the Army is maintaining, and shifting 
investments where necessary within portfolios as well at various stages 
of technology maturity, emphasizing on technology areas that enable the 
Army to be leaner, expeditionary, and more lethal. In fiscal year 2015, 
our Advanced Technology Development investments increase to 42 percent 
of our $2.2 billion budget. This is a deliberate increase from previous 
years as the Army looks to its S&T community to conduct more technology 
demonstration/prototyping initiatives that will inform future Programs 
of Record (PoRs).
    We are now in an era of declining acquisition budgets and are 
mindful of the challenges this brings to our S&T programs. We will have 
fewer opportunities for transition to Programs of Record in the next 
few years. This ``pause'' in acquisition does however afford us the 
opportunity to further develop and mature technologies, ensuring that 
when acquisition budgets do recover, S&T will be properly positioned to 
support the Army's next generation of capabilities. This year finds the 
Army beginning to rebalance its S&T funding between Basic Research, 
applied research and advanced technology development. We appreciate the 
flexibility that was provided to the DOD S&T executives to better align 
our funding to our Service/Agency needs after years of proscriptive 
direction.
    The Army is maintaining its level of investment in the S&T 
portfolio from fiscal year 2014 to fiscal year 2015, dedicating more 
than $2.2 billion to meeting the Army's needs and priorities for future 
capability: $424 million in Basic Research, $863 million in Applied 
Research, and $918 million in Advanced Technology Demonstrations. 
Specifically you will see the Army shifting or increasing emphasis on 
research areas that support the next generation of combat vehicles 
(including power and energy efficiency, mobility and survivability 
systems), Anti-Access/Area Denial (A2/AD) technologies such as assured 
Position Navigation and Timing (PNT) and austere entry capabilities, 
Soldier selection tools and training technologies, as well as long 
range fires. Two of these efforts, the Future Infantry Fighting Vehicle 
(FIFV) and the assured Position Navigation and Timing (PNT) efforts are 
being done in collaboration with the respective PEOs to ensure that the 
capability developed and demonstrated not only helps to refine the 
requirements for the future PoRs but establishes an effective link for 
transition. We are also increasing our investments in vulnerability 
assessments of both technology and systems as well as expanding our Red 
Teaming efforts to identify potential vulnerabilities in emerging 
technologies, systems and systems-of-systems, including performance 
degradation in contested environments, interoperability, adaptability, 
and training/ease of use. This year begins the re-alignment necessary 
to implement our strategy of investing in areas critical to the Army--
areas where we have critical skills sets, and leveraging others (sister 
services, other government agencies, academia, industry, allies) for 
everything else.
    We anticipate a future where rapidly advancing technologies such as 
autonomous systems, high yield energetics, immersive training 
environments, alternative power and energy solutions, and the use of 
smart phones and social media will become critical to military 
effectiveness. The Army will continue to develop countermeasures to 
future threat capabilities and pursue technological opportunities. 
Enemies and adversaries however, will counter U.S. technological 
advantages through cover, concealment, camouflage, denial, deception, 
emulation, adaptation, or evasion. Finally, understanding how humans 
apply technology to gain capabilities and train will continue to be at 
least as important as the technologies themselves.
    We are mindful however that the Army will continue to be called on 
for missions around the globe. The Army is currently deployed in 160 
countries conducting missions that range from humanitarian support to 
stability operations to major theater warfare. As we have seen in the 
last few months, the world is an unpredictable place, and our Soldiers 
must have the capabilities to deal with an ever changing set of 
threats.
S&T Portfolio Highlights
    I'd like to highlight a few of our new initiatives and remind you 
of some of our ongoing activities that will help frame the options for 
the Army of the future.
Soldier/Squad Portfolio (Fiscal Year 2015 = $252 Million)
    One of the important initiatives currently underway that we 
anticipate will make major inroads into our efforts to lighten the 
Soldier's load is the development of a Soldier Systems Engineering 
Architecture, which has a $45 million investment in fiscal year 2015. 
This architecture, developed in concert with our acquisition and 
requirements community, is an analytical decision-based model through 
which changes in Soldier system inputs (loads, technology/equipment, 
physiological & cognitive state, stress levels, training, etc.) may be 
assessed to predict changes in performance outputs of the Soldier 
system in operationally relevant environments. By using a systems 
engineering approach, the model will result in a full system level 
analysis capable of predicting impacts of both materiel and non-
materiel solutions on fully equipped Soldiers performing operational 
missions/tasks
    In keeping with the CSA's vision, our S&T efforts also support the 
Army's training modernization strategy by developing technologies for 
future training environments that sufficiently replicate the 
operational environment. We are also developing new training 
effectiveness measures and methods, ensuring that these new training 
technologies can rapidly and effectively transfer emerging warfighting 
experience and knowledge into robust capabilities. In addition, the 
need to reduce force structure has increased the importance of our 
research in the area of personnel selection and classification. This 
research will provide the Army with methods to acquire and retain 
candidates best suited for the Army--increasing our flexibility to 
adapt to changes in force size, structure and mission demands. Other 
important research includes developing scientifically valid measures 
and metrics to assess command climate and reduce conduct related 
incidences, including sexual harassment and assault in units to ensure 
the Army can maintain a climate of dignity, respect and inclusion.
Air Portfolio (Fiscal Year 2015 = $176 Million)
    As the lead service for rotorcraft, owning and operating over 80 
percent of the Department of Defense's vertical lift aircraft, the 
preponderance of rotorcraft technology research and development takes 
place within the Army. Our key initiative, the Joint Multi-Role 
Technology Demonstrator (JMR TD) program which has a $54 million 
investment in fiscal year 2015, is focused on addressing the Anti-
Access/Area Denial (A2/AD) need for longer range and more efficient 
combat profiles. As we shift to the Pacific Rim focus, future Areas of 
Operation (AO) may be sixteen times larger than those of our current 
AOs. The Army needs a faster, more efficient rotorcraft, capable of 
operating in high/hot environments (6,000 feet and 95 degrees) with 
significantly decreased operating costs and maintenance required. The 
new rotorcraft will also require improved survivability against current 
and future threats. The goal of the JMR TD effort is to reduce risk for 
the Future Vertical Lift planned PoR, the Department of Defense's next 
potential ``clean sheet'' design rotorcraft. The overall JMR TD effort 
will use integrated government/industry platform design teams and 
exercise agile prototyping approaches. At the same time, the Army is 
collaborating with DARPA on their x-plane effort. While the DARPA 
program is addressing far riskier technologies that are not constrained 
by requirements, we will look to leverage technology advancements 
developed under the DARPA effort where possible.
    Another initiative that we are beginning in fiscal year 2015, with 
an investment of $32 million, is addressing one of the biggest causes 
of aircraft loss--accidents that occur while operating in a Degraded 
Visual Environments (DVE). DVE is much more than operating while in 
brown out--this effort looks at mitigating all sources of visual 
impairment, either those caused by the aircraft itself (brownout, 
whiteout) or other ``natural'' sources (rain, fog, smoke, etc.). We are 
currently conducting a synchronized, collaborative effort with PEO 
Aviation to define control system, cueing, and pilotage sensor 
combinations which enable maximum operational mitigation of DVE. This 
S&T effort will result in a prioritized list of compatible, affordable 
DVE mitigation technologies, and operational specification development 
that will help inform future Army decisions. This program is tightly 
coupled with the PEO Aviation strategy and potential technology off-
ramps will be transitioned to the acquisition community along the way, 
when feasible.
Ground Maneuver Portfolio (Fiscal Year 2015 = $383 Million)
    The Ground Maneuver Portfolio is focused on maturing and 
demonstrating technologies to enable future combat vehicles, including 
the FIFV. The fiscal year 2015 S&T investment in FIFV is $131 million. 
In fiscal year 2015, you will see the beginning of a focused initiative 
done in collaboration with PEO Ground Combat Systems, to develop 
critical sub-system prototypes to inform the development and 
requirements for the Army's FIFV. These sub-system demonstrators focus 
on mobility (e.g., engine, transmission, suspension); survivability 
(e.g., ballistic protection, under-body blast mitigation, advanced 
materials); Active Protection Systems (APS); a medium caliber gun and 
turret; and an open vehicle power and data architecture that will 
provide industry with a standard interface for integrating 
communications and sensor components into ground vehicles.
    Armor remains an Army-unique challenge and we have persistent 
investments for combat and tactical vehicle armor, focusing not only on 
protection but also affordability and weight reduction. We continue to 
invest in advanced materials and armor technologies to inform the next 
generation of combat and tactical vehicles.
    In fiscal year 2015, this portfolio continues to shift its focus to 
address A2/AD challenges. We've increased efforts on technologies to 
enable stand-off evaluation of austere ports of entry and 
infrastructure to better enable our ability to enter areas of conflict. 
We are also maintaining technology investments in detection and 
neutralization of mines and improvised explosive devices to ensure 
freedom of maneuver.
C3I Portfolio (Fiscal Year 2015 = $321 Million)
    The C3I portfolio provides enabling capability across many of the 
Army enduring challenges, but specifically seeks to provide responsive 
capabilities for the future in congested Electro-Magnetic environments. 
These capabilities are supported by sustained efforts in sensors, 
communications, electronic warfare and information adaptable in 
dynamic, congested and austere (disconnected, intermittent and limited) 
environments to support battlefield operations and non-kinetic warfare. 
Renewed efforts in the C3I portfolio include reinvigorating efforts in 
sensor protection. We continue to invest in EW vulnerability analysis 
to perform characterization and analysis of radio frequency devices to 
develop detection and characterization techniques, tactics, and 
technologies to mitigate the effects of contested environments (such as 
jamming) on Army C4ISR systems.
    Given the potential challenges that we face while operating in a 
more contested environment, we are placing additional emphasis on 
assured PNT, developing technologies that allow navigation in Global 
Positioning System (GPS) denied/degraded environments for mounted and 
dismounted Soldiers and unmanned vehicles such as exploiting signals of 
opportunity. The fiscal year 2015 investment in PNT is $24 million. We 
will study improvements for high sensitivity GPS receivers that could 
allow acquisition and tracking in challenging locations such as under 
triple canopy jungles, in urban areas, and inside buildings. We are 
developing Anti-Jam capabilities as well as supporting mission command 
with interference source detection and location and signal strength 
measurement, thereby enabling the Army to conduct its mission in 
challenging electromagnetic environments.
    The C3I Portfolio also includes efforts in cyber, both defensive 
and offensive at an investment level of $44.5 million. Defensive 
efforts in cyber security will investigate and develop software, 
algorithms and devices to protect wireless tactical networks against 
computer network attacks. We are developing sophisticated software 
assurance algorithms to differentiate between stealthy life cycle 
attacks and software coding errors, as well as investigating and 
assessing secure coding methodologies that can detect and self-correct 
against malicious code insertion. We will research and design 
sophisticated, optimized cyber maneuver capabilities that incorporate 
the use of reasoning, intuition, and perception while determining the 
optimal scenario on when to maneuver, as well as the ability to map and 
manage the network to determine probable attack paths and the 
likelihood of exploitation.
    On the offensive side of cyber operations, we will develop 
integrated electronic attack (EA) and computer network operations 
hardware and software to execute force protection, EA, electronic 
surveillance and signals intelligence missions in a dynamic, 
distributed and coordinated fashion.
    We will demonstrate protocol exploitation software and techniques 
that allow users to remotely coordinate, plan, control and manage 
tactical EW and cyber assets; develop techniques to exploit protocols 
of threat devices not conventionally viewed as cyber to expand total 
situational awareness by providing access to and control of adversary 
electronic devices in an area of operations.
Lethality Portfolio (Fiscal Year 2015 = $230 Million)
    In fiscal year 2015, you will see continued emphasis on the 
development of A2/AD capabilities through Long Range Fires and Counter 
Unmanned Aircraft technologies. S&T is focusing on advanced seeker 
technologies to enable acquisition of low signature threats at extended 
ranges, along with dual pulse solid rocket motor propulsion to provide 
longer range rockets and extend the protected areas of air defense 
systems. To support these capabilities, we are conducting research in 
new energetic materials focused on both propulsive and explosive 
applications. These materials have significantly higher energetic yield 
than current materials and will increase the both effectiveness of our 
systems and reduce their size.
    We also continue to develop Solid State High Energy Lasers, at an 
investment level of $44.9 million in fiscal year 2015, to provide low 
cost defeat of rockets, artillery, mortars and unmanned aircraft. We 
have had multiple successes in High Energy Lasers, as we demonstrated 
successful tracking and defeat of mortars and unmanned aircraft in 
flight this year (fiscal year 2014) from our mobile demonstrator.
    Additionally, we are supporting the Ground Maneuver Portfolio in 
the demonstration of a medium caliber weapon system, at an investment 
level of $13.5 million in fiscal year 2015, to enable FIFV requirements 
for range and lethality including an airburst munition.
Medical (Fiscal Year 2015 = $143 Million)
    The Medical portfolio addresses the wellness and fitness of our 
Soldiers from accession through training, deployment, treatment of 
injuries and return to duty or to civilian life. Ongoing efforts 
address multiple threats to our Soldiers' health and readiness. Medical 
research focuses on areas of physiological and psychological health 
that directly support the Chief of Staff of the Army Ready and 
Resilience Campaign and the Army Surgeon General's Performance Triad 
(Activity, Nutrition and Sleep). Research in these portfolios includes 
important areas such as Traumatic Brain Injury (TBI) and Post Traumatic 
Stress Disorder (PTSD), totaling $41.5 million in fiscal year 2015. In 
fiscal year 2015, $47 million has gone into continued research to 
mitigate infectious diseases prevalent in the Far East as well as 
combat casualty care solutions at the point of injury that will extend 
Soldier's lives during the extended distances associated with 
conducting operations in the Pacific.
    TBI research efforts include furthering our understanding of cell 
death signals and neuroprotection mechanisms, as well as identifying 
critical thresholds for secondary injury comprising TBI. The Army is 
also evaluating other nontraditional therapies for TBI, and identifying 
``combination'' therapeutics that substantially mitigate or reduce TBI-
induced brain damage. Current Army funded research efforts in the area 
of PTSD are primarily focused upon development of pharmacologic 
solutions for the prevention and treatment of PTSD. A large-scale 
clinical trial is currently underway evaluating the effectiveness of 
Sertraline, one of two Selected Serotonin Reuptake Inhibitors (SSRIs) 
approved for the treatment of civilian PTSD, but not combat-related 
PTSD. This study will evaluate Sertraline's effectiveness in the 
treatment of combat-related PTSD both alone and in combination with 
psychotherapy.
Innovation Enablers (Fiscal Year 2015 = $275 Million)
    As the largest land-owner/user within the DOD, it is incumbent upon 
the Army to be good stewards in their protection of the environment. As 
such, the Army develops and validates lifecycle models for sustainable 
facilities, creates dynamic resource planning/management tools for 
contingency basing, develops decision tools for infrastructure 
protection and resiliency and assesses the impact of sustainable 
materials/systems on the environment.
    In addition, we conduct blast noise assessment and develop 
mitigation technologies to ensure that we remain ``good neighbors'' 
within Army communities and work to protect endangered species while we 
ensure that the Army mission can continue.
    The High Performance Computing (HPC) Modernization Program, at an 
investment level of $181.6 million in fiscal year 2015, supports the 
requirements of the DOD's scientists and engineers by providing them 
with access to supercomputing resource centers, the Defense Research 
and Engineering Network (DREN) (a research network which matures and 
demonstrates state of the art computer network technologies), and 
support for software applications, including the experts that help to 
improve and optimize the performance of critical common DOD 
applications programs to run efficiently on advanced HPC systems 
maturing and demonstrating leading-edge computational technology.
    The Army's Technology Maturation Initiatives effort, established in 
fiscal year 2012 enables a strategic partnership between the S&T and 
acquisition communities. This effort, funded at $75 million in fiscal 
year 2015, has become especially important as the Army heads into a 
funding downturn. We plan to use these funds to prepare the Army to 
capitalize on S&T investments as we come out of the funding ``bathtub'' 
near the end of the decade. We are using these Budget Activity 4 
resources to target areas where acquisition programs intended to 
provide necessary capabilities have been delayed, such as assured PNT, 
the FIFV, and APS. We are investing resources that will either provide 
capability or inform/refine requirements for the Army's future systems 
(all of which will be done via collaborative programs executed with our 
acquisition/PEO partners).
    This portfolio includes our ManTech efforts as well, funded at $76 
million in fiscal year 2015. Last month, President Obama announced the 
launch of the Digital Manufacturing and Design Innovation Institute 
(DMDI). Headquartered in Chicago, Illinois, and managed by the U.S. 
Army's Aviation and Missile Research Development and Engineering 
Center, the DMDI Institute spearheads a consortium of 73 companies, 
universities, nonprofits, and research labs. The president announced a 
government investment of $70 million and matching private investments 
totaling $250 million for the institute. DMDI is part of the 
president's National Network of Manufacturing Innovation (NNMI) and 
will focus on the development of novel model-based design 
methodologies, virtual manufacturing tools, and sensor and robotics 
based manufacturing networks that will accelerate the innovation in 
digital manufacturing and increase U.S. competitiveness.
Basic Research (Fiscal Year 2015 = $424 Million)
    Underpinning all of our efforts and impacting all of the enduring 
Army challenges is a strong basic research program. Army Basic Research 
includes all scientific study and experimentation directed toward 
increasing fundamental knowledge and understanding in those fields of 
the physical, engineering, environmental, and life sciences related to 
long-term national security needs. The vision for Army Basic Research 
is to advance the frontiers of fundamental science and technology and 
drive long-term, game-changing capabilities for the Army through a 
multi-disciplinary portfolio teaming our in-house researchers with the 
global academic community to ensure overwhelming land-warfighting 
capabilities against any future adversary.
    While we have made some significant adjustments within the Basic 
Research investments within the Army, we will continue to emphasize 
several areas that we feel have a high payoff potential for the 
Warfighter. These areas include: Materials in Extreme Environments; 
Quantum Information and Sensing; Intelligent Autonomous Systems; and 
Human Sciences/Cybernetics.
    For centuries, the fabrication of solid materials has hinged 
largely on manipulating a narrow range of temperatures and pressures. 
Our Materials in Extreme Environments initiative invests in new 
revolutionary and targeted scientific opportunities to discover and 
exploit the fundamental interaction of matter under extreme static 
pressures and magnetic fields, controlled electromagnetic wave 
interactions (microwave, electrical) and acoustic waves (ultrasound) to 
dramatically enhance fabrication and create engineered materials with 
tailored microstructures and revolutionary functionalities. 
Additionally, we are in the midst of a second quantum revolution--
moving from merely computing quantum properties of systems to 
exploiting them.
    To enable the Warfighter, animal-like intelligence is desired for 
simple autonomous platforms, such as robotic followers, and for aerial 
and ground sensor platforms. We are investing in research that will 
enable highly intelligent systems that allow platforms to set waypoints 
autonomously, increasing mission effectiveness; followers that 
recognize the actions of their unit, that can perceive when the unit is 
deviating from a previously prescribed plan and know enough to query 
why; and that recognize when the unit is resting and be capable of 
doing so without explicit instructions from the Soldier.
    Regardless of specific definition, human sciences are critical and 
can safely be predicted to become pervasive across all Army research 
activities. Cognitive predictions of social person-to-person 
communication based on observed gestures, eye movement, and body 
language are becoming possible. In addition, brain-to-brain interaction 
is emerging as a potential paradigm based on external sensors and brain 
stimulation. The Army will continue to study these and other possible 
techniques, to understand shared knowledge, social coordination, 
discourse comprehension, and detection and mitigation of conflict. 
Cognitive models combined with sensors also have the potential for 
dramatic breakthroughs in human-autonomy interaction, including aspects 
such as active learning algorithms, real-time crowd-sourcing with 
humans and machines in the cloud, and maximizing artificial 
intelligence (AI) prediction accuracy. Devices and sensors that are 
wearable or implantable (including biomarkers and drug therapy) have 
the potential to enhance performance dramatically and to augment 
sensory information through new human-sensor-machine interface designs.
    The role of Basic Research is to provide the knowledge, technology, 
and advanced concepts to enable the best equipped, trained and 
protected Army to successfully execute the national security strategy, 
cannot be understated. The key to success in Basic Research is picking 
the right research challenges, the right people to do the work, and 
providing the right level of resources to maximize the likelihood of 
success.
Impact of Sequestration
    I am often asked what impact sequestration had on the Army's S&T 
portfolio, so I would like to address some of the impacts we have seen. 
The fiscal year 2013 application of sequestration targets (hitting 
every Program Element in the S&T portfolio by a set percentage) forced 
the Army into a scenario where we decremented programs that we would 
have protected, if given the opportunity. This lack of flexibility made 
for some very bad business and technical ramifications. Within the S&T 
community, we were able to balance our sequestration targets at the 
Program Element, vice Project level--giving us the ability to avoid 
civilian
    Reduction in Force (RIF) actions where possible. That said, 
sequestration did result in unfunded efforts and delays in applied 
research and technology development areas across the S&T portfolio. 
More generally, the sequestration cuts added unnecessary risk to 
acquisition programs and delayed the transition of critical 
capabilities to the Warfighter.
    However, by far the most serious consequence of sequestration (and 
the related pay freezes, shutdowns, conference restrictions, etc.) has 
been the impact on our personnel. Without a world-class cadre of 
scientists and engineers, the Army S&T enterprise would be unable to 
support the needs of the Army. The Army Labs and Research, Development 
and Engineering Centers have reported multiple personnel leaving for 
other job opportunities or early retirement. For example, the Night 
Vision and Electronic Sensors Directorate lost eight personnel in the 2 
months prior to the well-publicized DOD-wide furloughs, compared to an 
average annual loss of around 19 personnel. These losses include 
personnel across experience levels with specialized expertise critical 
to the Army. While the average attrition rate over the past 2 years is 
running at about 8 percent (similar to a typical attrition rate found 
in prior years), the concerning impact is that 60 percent of the 
personnel leaving the Army are NOT eligible for retirement. This is a 
big change. During our exit interviews, reasons cited included 
conference restrictions (impeding the ability to progress 
professionally) coupled with increasing job insecurity due to budget 
decrements and planned manpower reductions. Complicating this loss of 
technical expertise is the restriction on hiring replacements for the 
lost government civilians. We are on a replacement cycle that varies 
between 1 hire per every 3 losses at one lab, to 1 hire for every 20 
losses at another. This pattern of loss is unsustainable if we hope to 
maintain a premier technical workforce. Finally, as we address the 2013 
National Defense Authorization Act (NDAA), Section 955 language which 
mandates a reduction in the civilian workforce commensurate with a 
reduction in the military, we must confront the impacts of any civilian 
reductions, which are implemented through a personnel process that 
tends to primarily impact those employees who have less tenure in the 
government. For the S&T community that typically impacts those areas of 
new technical emphasis within the DOD--key areas such as cyber research 
and systems biology.
    While the Bipartisan Budget Act has provided some relief and 
stability for fiscal year 2014 and fiscal year 2015, the uncertainty 
again looming on the horizon makes it even more difficult to recruit 
and retain the scientists and engineers the Army depends on. As you 
know, the key to any success within the Army lies with our people.
The S&T Enterprise Infrastructure and Workforce
    Our laboratory infrastructure is aging, with an average approximate 
facility age of 50 years. Despite this, the S&T Enterprise manages to 
maximize the scarce sustainment, restoration, and modernization funding 
and the authorities for minor military construction using NDAA, Sec. 
219 funding to minimize the impact on the R&D functions with the 
Enterprise. However, we are only making improvements to our 
infrastructure at the margins, and where possible we have used MILCON, 
through your generous support and unspecified minor construction to 
modernize facilities and infrastructure. However, we do acknowledge 
that much of the Army is in a similar position. This is not a long-term 
solution. While the authorities that you have given us have been 
helpful, they alone are not enough, and we are still faced with the 
difficulty of competing within the Army for ever-scarcer military 
construction dollars at the levels needed to properly maintain world-
class research facilities. This will be one of our major challenges in 
the years to come and I look forward to working with OSD and Congress 
to find a solution to this issue.
    The S&T community affords us the flexibility and agility to respond 
to the many challenges that the Army will face. Without the world-class 
cadre of over 12,000 Federal civilian scientists and engineers and the 
infrastructure that supports their work, the Army S&T Enterprise would 
be unable to support the needs of the Warfighter. To maintain 
technological superiority now and in the future, the Army must maintain 
an agile workforce. Despite this current environment of unease within 
the government civilian workforce, exacerbated by conference 
restrictions, budget uncertainty, furloughs, and near zero pay 
increases, we continue to have an exceptional workforce. But, as I 
mentioned earlier, attracting and retaining the best science and 
engineering talent into the Army Laboratories and Centers is becoming 
more and more challenging. Our laboratory personnel demonstrations give 
us the flexibility to enhance recruiting and afford the opportunity to 
reshape our workforce, and I appreciate Congress' continued support for 
these authorities to include the flexibilities given to the 
Laboratories and Centers in the 2014 NDAA, Section 1107 language. The 
flexibilities given to the laboratories and centers allow the 
laboratory directors the maximum management flexibility to shape their 
workforce and remain competitive with the private sector.
    The Army S&T Enterprise cannot survive without developing the next 
generation of scientists and engineers. We continue to have an amazing 
group of young scientists and engineers that serve as role models for 
the next generation. For example, last year Dr. Ronald Polcawich, a 
researcher at the U.S. Army Research Laboratory (ARL), was named by 
President Obama to receive a 2012 Presidential Early Career Award for 
Scientists and Engineers as one of the Nation's outstanding young 
scientists for his work in Piezoelectric-Micro Electro-Mechanical 
Systems (PiezoMEMS) Technology. Dr. Polcawich, is leading a team of 
researchers at the ARL in studying PiezoMEMS with a focus on developing 
solutions for RF systems and actuators for millimeter-scale robotics. 
These actuators combined/integrated with low power sensors are being 
developed to enable millimeter-scale mechanical insect-inspired robotic 
platforms.
    The need for science, technology, engineering, and mathematics 
(STEM) literacy, the ability to understand and apply concepts from 
science, technology, engineering and mathematics in order to solve 
complex problems, goes well beyond the traditional STEM occupations of 
scientist, engineer or mathematician. The Army also has a growing need 
for highly qualified, STEM-literate technicians and skilled workers in 
advanced manufacturing, logistics, management and other technology-
driven fields. Success and sustainment for the Army S&T Enterprise 
depends on a STEM-literate population to support innovation and the 
Army must contribute to building future generations of STEM-literate 
and agile talent.
    Through the Army Educational Outreach Program (AEOP), funded at $9 
million in fiscal year 2015, the Army makes a unique and valuable 
contribution to meet the national STEM challenge--a challenge which 
includes the growing demand for STEM competencies; the global 
competitiveness for STEM talent; an unbalanced representation of our 
Nation's demographics in STEM fields; and the critical need for an 
agile and resilient STEM workforce. AEOP offers a cohesive, 
collaborative portfolio of STEM programs that provides students, as 
well as teachers, access to our world-class Army technical 
professionals and research centers. Exposure to STEM fields and STEM 
professionals is critical to growing the next generation of STEM-
literate young men and women who will form the Army's workforce of 
tomorrow.
    In the 2012-2013 academic year, AEOP directly engaged more than 
66,000 students and nearly 1,500 teachers in authentic research 
experiences. Almost 2,351 Army Scientists and Engineers (S&E's) 
provided mentorship, either from our in-house research laboratories or 
through our university partnerships. Additionally in fiscal year 2013, 
we initiated a comprehensive evaluation strategy (the first of its 
kind) that uses the government and a consortium of STEM organizations 
known for their nationwide education and outreach efforts to annually 
assess our program. Aligned with Federal guidance, AEOP requires the 
evaluation of all elements of the program based on specific, cohesive, 
metrics and evidence-based approaches to achieve key objectives of Army 
outreach; increased program efficiency and coherence; the ability to 
share and leverage best practices; as well as focus on Army priorities. 
The AEOP priorities are:
  --STEM Literate Citizenry: Broaden, deepen and diversify the pool of 
        STEM talent in support of the Army and our defense industry 
        base.
  --STEM Savvy Educators: Support and empower educators with unique 
        Army research and technology resources.
  --Sustainable Infrastructure: Develop and implement a cohesive, 
        coordinated and sustainable STEM education outreach 
        infrastructure across the Army.
    For fiscal year 2015, we are concentrating on implementing 
evidence-based program improvements, strengthening additional joint 
service sponsored efforts, and identifying ways to expand the reach and 
influence of successful existing programs by leveraging partnerships 
and resources with other agencies, industry and academia.
New Approaches to Enhance Innovation
    It is widely acknowledged that innovation depends on bringing 
multiple scientific disciplines together to engage in collaborative 
projects--often yielding unpredictable, yet highly productive results. 
Formal and informal interactions among scientists lead to knowledge-
building and research breakthroughs. These types of collaborations are 
happening on a day-to-day basis across our labs and engineering centers 
to produce the superior technology that our Army needs today, tomorrow 
and beyond. With shrinking budgets and huge leaps in the pace of 
technological change, our Army S&T organizations must do more with less 
and faster than ever before to develop technology that will ensure 
mission success for the Army's first battle after next. To this end, we 
must more succinctly leverage scientific discovery from our academic 
and industry base by increasing the scientific engagement and flow of 
ideas that leads to ground breaking innovation.
    In 1945, Vannevar Bush`s concepts documented in ``Science--the 
Endless Frontier'' stressed the necessity of a robust/synergistic 
university, industry and government laboratory research system. Over 
the years, the rigid and insular nature of the defense laboratories 
have caused an erosion of that university/industry/government lab 
synergy that is critical to the discovery, innovation and transition of 
science and technology important to national security.
    In an effort to reenergize that synergy, the U.S. Army Research 
Laboratory (ARL) is working to extend their alliances through an Open 
Campus Concept that brings together under one roof the triad of 
industry, academia, and government. Leveraging the cutting-edge 
innovation of academia, the system development and transition expertise 
of industry and their own Army-focused fundamental research; ARL can 
harness the power of the triad to produce revolutionary science and 
technology more efficiently and effectively. The Open Campus Concept 
creates an ecosystem for academia, defense labs, and industry to share 
people, facilities and resources to develop and deliver transformative 
science oriented on solving complex Army problems. It will provide the 
means for our world-class scientific talent to work together in state-
of-the-art facilities to provide innovation that allows rapid 
transition of technology to our Soldiers. ARL's Open Campus Concept 
could lead to a new business model that would transform the defense 
laboratory enterprise into an agile, efficient and effective laboratory 
system that supports the continuous flow of people and ideas to ensure 
transformative scientific discovery, innovation and transition critical 
to national security.
    Finally, we are increasingly mindful of the globalization of S&T 
capabilities and expertise. Our International S&T strategy provides a 
framework to leverage cutting edge foreign science and technology 
enabled capabilities and engages with allies through Global S&T Watch. 
Global S&T Watch is a systematic process for identifying, assessing, 
and documenting relevant foreign research and technology developments. 
The Research, Development and Engineering Command's (RDECOM) 
International Technology Centers (ITCs), Engineer Research and 
Development Center (ERDC) international research office and the Medical 
Research Materiel Command's OCONUS laboratories identify and document 
relevant foreign S&T developments. We have initiated a new process to 
strategically identify and selectively engage our allies when their 
technologies and materiel developments can contribute to Army needs and 
facilitate coalition interoperability. The resultant engagements will 
augment the existing bilateral leadership forums we currently maintain 
with the United Kingdom, Canada, Germany, and Israel which provide both 
visibility of and management decisions on allied developments that 
merit follow-up for possible collaboration.
Summary
    As the Army S&T program continues to identify and harvest 
technologies suitable for transition to our force, we aim to remain 
ever vigilant of potential and emerging threats. We are implementing a 
strategic approach to modernization that includes an awareness of 
existing and potential gaps; an understanding of emerging threats; 
knowledge of state-of-the-art commercial, academic, and government 
research; as well as a clear understanding of competing needs for 
limited resources. Army S&T will sharpen its research efforts to focus 
upon those core capabilities it needs to sustain while identifying 
promising or disruptive technologies able to change the existing 
paradigms of understanding. Ultimately, the focus remains upon 
Soldiers; Army S&T consistently seeks new avenues to increase the 
Soldier's capability and ensure their technological superiority today, 
tomorrow, and decades from now. The Army S&T mission is not complete 
until the right technologies provide superior, yet affordable, 
overmatch capability for our Soldiers. I will leave you with a last 
thought from the Secretary of the Army, the Honorable John McHugh.

    ``Our Strategic Vision is based on a decisive technological 
        superiority to any potential adversary.'' \6\ --Honorable John 
        W. McHugh, 21st Secretary of the Army
---------------------------------------------------------------------------
    \6\ Terms of Reference, fiscal year 2012 Army Science Board Summer 
Study, Secretary of the Army, John M. McHugh, October 28, 2011.

    This is an interesting, yet challenging, time to be in the Army. 
Despite this, we remain an Army that is looking towards the future 
while taking care of the Soldiers today. I hope that we can continue to 
count on your support as we move forward, and I would like to again 
---------------------------------------------------------------------------
thank the members of the Committee for all you do for our Soldiers.

    Senator Durbin. Thank you, Ms. Miller.
    Dr. Walker.
STATEMENT OF DR. DAVID WALKER, DEPUTY ASSISTANT 
            SECRETARY OF THE AIR FORCE FOR SCIENCE, 
            TECHNOLOGY, AND ENGINEERING
    Dr. Walker. Thank you, Mr. Chairman. Chairman Durbin, 
Senator Cochran, members of the subcommittee, I am pleased to 
have an opportunity today to provide testimony on the Air Force 
science and technology program.
    The globalization and the proliferation of technology means 
that we have a wide spectrum of threats that we have to face, 
which has led to competition across all domains that we operate 
in. As our Chief of Staff stated in his recent vision, 
``Despite the best analysis and projection by national security 
experts, the time and place of the next crisis are never 
certain and rarely what we expect.''
    To guarantee our security in this dynamic environment 
requires that we learn lessons from the past couple of decades 
of war that we have been involved in but also be able to 
creatively visualize what our future will be and to develop a 
science and technology program to address that.
    In this space, we are really finding great opportunity. The 
Air Force scientists and engineers continue to evolve and 
advance innovative, game-changing technologies and enabling 
technologies that will transform the landscape of how the Air 
Force flies, flights, and wins in the airspace and cyberspace.
    In close coordination with the requirements, intelligence, 
and acquisition communities, we have structured our S&T program 
to address our highest priority needs of the Air Force, to 
execute a balanced and integrated program that is responsive to 
the Air Force core mission, and to advance critical technical 
competencies needed to address future research.
    The Air Force as a whole had to make difficult trades 
between force structure, readiness, and modernization in this 
year's President's budget submission. The Air Force S&T request 
is approximately $2.3 billion, which is about a 6.2-percent 
decrease over the fiscal year 2014 request. However, when you 
look at this compared to the overall Air Force RDT&E (research, 
development, testing, and evaluation) input in the fiscal year 
2015, that was a decrease of 9 percent. So S&T actually fared 
well versus the RDT&E as a whole.
    Our budget request has rebalanced our basic research 
spending as part of our overall portfolio to increase our 
emphasis on technology demonstrations. It also emphasized our 
game-changing technologies of hypersonics, autonomy, directed 
energy, and fuel-efficient propulsion technologies. All of 
these provide us a greater range, speed, and lethality for 
operations in highly contested environments described in our 
2014 QDR (Quadrennial Defense Review) report.
    As I stated earlier, our scientific opportunities lie 
between learning from the past and visualizing the future. The 
increased laboratory hiring and personnel management 
authorities and the flexibilities provided by Congress over the 
last several years have done much to improve our ability to 
attract the Nation's best talents and to explore these 
opportunities. However, we still have work to do to ensure that 
we sustain the quality of our laboratories and if we have long-
term budget decreases, this will impact our ability to fund 
this. So funding uncertainties and the decreases in budget 
really lead to an uncertain future for our S&T, which leads to 
loss of opportunities for new discovery and for innovative 
technologies.
    As a result of sequestration in fiscal year 2013, we 
canceled or delayed or rescoped over 100 contracts, resulting 
in a cost and an extended technology development schedule, 
ultimately delaying improved capabilities for the warfighter. 
For example, the rescoping of work on a very sophisticated 
ground-based imaging of objects in extremely high altitude 
orbits is going to delay technology availability for at least a 
year for a transition into our Air Force Space Command.

                           PREPARED STATEMENT

    In closing, I firmly believe maintaining and even expanding 
our technological advantage is vital to ensuring assured access 
and freedom of action in the airspace and cyberspace. The 
focused and balanced investments of the Air Force fiscal year 
2015 S&T program are hedges against an unpredictable future and 
provide a pathway to a flexible, precise, and lethal force at a 
relatively low cost in relation to the return on investment.
    On behalf of the dedicated scientists and engineers of the 
Air Force S&T enterprise, I thank you again for the opportunity 
to testify today and look forward to your questions and thank 
you all for your support of the Air Force S&T community.
    [The statement follows:]
               Prepared Statement of Dr. David E. Walker
                              introduction
    Chairman Durbin, Vice Chairman Cochran, and Members of the 
Subcommittee, I am pleased to have the opportunity to provide testimony 
on the fiscal year 2015 Air Force Science and Technology (S&T) Program, 
especially during this unprecedented time in our history.
    Our Nation is one of a vast array of actors in a complex, volatile, 
and unpredictable security environment. Globalization and the 
proliferation of technology mean we face threats across a wide spectrum 
and competition across all domains. We're confronted by ever-evolving 
adversaries ranging from one person with a single interconnected 
computer to sophisticated capable militaries and everything in between. 
We're also challenged by the shear pace of change among our adversaries 
fueled by profound information and technology diffusion worldwide. As 
stated by the Chief of Staff of the Air Force in the Global Vigilance, 
Global Reach and Global Power For Our Nation vision, ``despite the best 
analyses and projections by national security experts, the time and 
place of the next crisis are never certain and are rarely what we 
expect.'' Success and the guaranty of security in this dynamic 
environment require that we both take lessons learned from the last 
decade of conflict and creatively visualize the future strategic 
landscape. It's in this space, between learning from the past and 
keeping an open eye to the future, where we find opportunity.
    The focused and balanced investments of the Air Force fiscal year 
2015 S&T Program are hedges against the unpredictable future and 
provide pathways to a flexible, precise and lethal force at a 
relatively low cost in in relation to the return on investment. The 
Undersecretary of Defense for Acquisition, Technology and Logistics 
recently reminded us that complacency now and in the future is simply 
not an option. Maintaining, and even expanding, our technological 
advantage is vital to ensuring sustained freedom of access and action 
in air, space and cyberspace.
                 air force fiscal year 2015 s&t program
    The Air Force as a whole had to make difficult trades between force 
structure (capacity), readiness, and modernization (capability) in the 
Service's fiscal year 2015 President's Budget submission to recover 
from budget uncertainty over the two previous fiscal years. The Air 
Force fiscal year 2015 President's Budget request for S&T is 
approximately $2.1 billion, which includes nearly $178 million in 
support of devolved programs consisting of High Energy Laser efforts 
and the University Research Initiative. This year's Air Force S&T 
budget request represents a decrease of $141 million or a 6.2 percent 
decrease from the fiscal year 2014 President's Budget request, a 
slightly larger reduction as compared to the overall Air Force topline 
reduction. This budget request rebalances basic research spending as 
part of the overall portfolio to increase emphasis on conducting 
technology demonstrations. The Air Force was able to reduce funding in 
the aerospace systems and materials areas while still advancing 
capabilities for the Air Force and the Department of Defense (DOD) by 
smartly leveraging research being conducted by the Defense Advanced 
Research Projects Agency (DARPA) in the hypersonics area.
    We've learned a great deal over the last decade. The dedicated 
scientists and engineers of the Air Force Research Laboratory (AFRL) 
have successfully supported warfighters during conflicts in Iraq, 
Afghanistan, and North Africa through the rapid development of systems 
and capabilities including persistent intelligence, surveillance, and 
reconnaissance (ISR); data fusion and integration from multiple 
sensors; and near real-time monitoring of some orbiting U.S. and 
commercial spacecraft assets. With the pivot to the Pacific as outlined 
in the Defense Strategic Guidance, we must continue to evolve and 
advance ``game-changing'' and enabling technologies which can transform 
the landscape of how the Air Force flies, fights and wins against the 
high-end threats in contested environments envisioned in the future.
    In close coordination with the requirements, intelligence and 
acquisition communities, we have structured our Air Force fiscal year 
2015 S&T Program to address the highest priority needs of the Air Force 
across the near-, mid- and far-term; execute a balanced and integrated 
program that is responsive to Air Force core missions; and advance 
critical technical competencies needed to address the full range of 
product and support capabilities. The Air Force continues to focus 
efforts to deliberately align S&T planning, technology transition 
planning, development planning and early systems engineering. The 
linkages between these planning activities are critical to initiating 
acquisition programs with more mature technologies and credible cost 
estimates, and we are institutionalizing these linkages in Air Force 
policy. Air Force S&T provides critical inputs at several phases of the 
Chief of Staff of the Air Force's Air Force 2023 strategic planning 
effort including helping to shape the ``realm of the possible'' when 
envisioning long term strategy, offering technologies to expand the 
strategic viewpoint and identifying potential solutions to requirements 
and capability gaps. Our forthcoming updated Air Force S&T strategy 
focuses on investing in S&T for the future, as well as leverages our 
organic capacity, and the capacity of our partners (domestic and 
international), to integrate existing capabilities and mature 
technologies into innovative, affordable, and sustainable solutions. 
This flexible strategy provides us the technological agility to adapt 
our S&T Program to dynamic strategic, budgetary, and technology 
environments and will shape prioritized actionable S&T plans.
                    near term technology transition
    The Air Force continues to move our Flagship Capability Concept 
(FCC) projects toward transition to the warfighter. A well-defined 
scope and specific objectives desired by a Major Command (MAJCOM) are 
key factors in commissioning this type of an Air Force-level technology 
demonstration effort. The technologies are matured by the Air Force 
Research Laboratory with the intent to transition to the acquisition 
community for eventual deployment to an end user. These FCCs are 
sponsored by the using MAJCOM and are vetted through the S&T Governance 
Structure and Air Force Requirements Oversight Council to ensure they 
align with Air Force strategic priorities. In fiscal year 2014, the Air 
Force successfully completed and transitioned the Selective Cyber 
Operations Technology Integration (SCOTI) FCC and will continue work on 
the High Velocity Penetrating Weapon (HVPW) and Precision Airdrop (PAD) 
FCCs.
    AFRL delivered the SCOTI FCC to the Air Force Life Cycle Management 
Center (AFLCMC) in September 2013, on time, on budget and within 
specification. SCOTI consists of cyber technologies capable of 
affecting multiple nodes for the purposes of achieving a military 
objective and gaining cyberspace superiority. SCOTI's robust, modular 
architecture provides vital extensibility to allow cyber warriors to 
keep pace with rapidly evolving threats. AFLCMC is evaluating the 
delivered SCOTI architecture for integration with operational cyber 
mission software to directly meet the needs of a major capability area 
in the Air Force Cyberspace Superiority Core Function Master Plan. By 
successfully meeting the requirements of the stakeholder-approved 
Technology Transition Plan, SCOTI is the first FCC to transition and 
will serve as a baseline for current and future integrated cyber tools 
to provide needed effects for the warfighter.
    The HVPW FCC was established to demonstrate critical technologies 
to reduce the technical risk for a new generation of penetrating 
weapons to defeat difficult, hard targets. This FCC matures 
technologies that can be applied to the hard target munitions 
acquisition including guidance and control, terminal seeker, fuze, 
energetic materials and warhead case design. This effort develops 
improved penetration capability of hard, deep targets containing high 
strength concrete with up to 2,500 feet per second (boosted velocity) 
impact in a GPS-degraded environment. This technology will demonstrate 
penetration capability of a 5,000 pound-class gravity weapon with a 
2,000 pound weapon thus enabling increased loadout for bombers and 
fighters. Tests will demonstrate complete warhead functionality, and 
are scheduled to be completed the end of September 2014.
    The PAD FCC was commissioned in response to a request from the 
Commander of Air Mobility Command for technologies to improve airdrop 
accuracy and effectiveness while minimizing risk to our aircrews. To 
date, PAD FCC efforts have focused on: early systems engineering 
analysis to determine major error sources, data collection, flying with 
crews, wind profiling, bundle tracking, and designing modeling and 
simulation activities. The Air Force Research Laboratory completed the 
bundle tracker development in fiscal year 2013 and in fiscal year 2014 
began wind profile sensor development.
                       game-changing technologies
    The Air Force S&T Program provides technology options to enable 
operations in anti-access, area-denial environments and transform the 
way we fly, fight and win in air, space and cyberspace. To illustrate 
how, I will highlight some of our efforts in game-changing and enabling 
technology areas:
Hypersonics
    Speed provides options for engagement of time sensitive targets in 
anti-access/area-denial environments, and improves the survivability of 
Air Force systems. Hypersonic speed weapons are also a force multiplier 
as fewer are required to defeat difficult targets and fewer platforms 
are required from greater standoff distances. The Air Force S&T 
community continues to execute the high speed technology roadmaps 
developed with industry over the last 3 years. We are also building on 
the success of the X-51A Waverider scramjet engine hypersonic 
demonstrator, which on 1 May 2013 reached an approximate Mach Number of 
5.1 during its fourth and final flight. The Air Force has focused 
multi-faceted, phased investments in game-changing technology for 
survivable, time-critical strike in the near term and a penetrating 
regional intelligence, surveillance, and reconnaissance (ISR) and 
strike aircraft in the far term.
    The near term strike effort is the High Speed Strike Weapon (HSSW) 
program. This effort will mature cruise missile technology to address 
many of those items necessary to realize a missile in the hypersonic 
speed regime including: modeling and simulation; ramjet/scramjet 
propulsion; high temperature materials; guidance, navigation, and 
control; seekers and their required apertures; warhead and subsystems; 
thermal protection and management; manufacturing technology; and 
compact energetic booster technologies.
    The Air Force conducts research and development in all aspects of 
hypersonic technologies in partnership with NASA, DARPA, and industry/
academic sectors. The HSSW program will include two parallel integrated 
technology demonstration efforts to leverage DARPA's recent experience 
in hypersonic technologies that are relevant to reduce risk in key 
areas. One of the demonstrations will be a tactically-relevant 
demonstration of an air breathing missile technology that is compatible 
with Air Force 5th generation platforms including geometric and weight 
limits for internal B-2 Spirit bomber carriage and external F-35 
Lightening II fighter carriage. This demonstration will build on the X-
51 success and will include a tactically compliant engine start 
capability and launch from a relevant altitude.
    For the other demonstration, the Air Force and DARPA will seek to 
develop technologies and demonstrate capabilities that will enable 
transformational changes in prompt, survivable, long-range strike 
against using the Tactical Boost Glide (TBG) concept. The objective of 
the TBG effort is to develop and demonstrate the critical technologies 
that will enable an air launched tactical range, hypersonic boost-glide 
missile. Both efforts will build upon experience gained through recent 
hypersonic vehicle development and demonstration efforts supported by 
DARPA and the Air Force. These demonstrations are traceable to an 
operationally relevant weapon that could be launched from existing 
aircraft. Technology and concepts from these efforts will provide 
options for an operational weapon system for rapidly and effectively 
prosecuting targets in highly contested environments.
Autonomy
    Analysis of these future operating environments has also led the 
Air Force to invest in game-changing advances in autonomous systems. 
Autonomous systems can extend human reach by providing potentially 
unlimited persistent capabilities without degradation due to fatigue or 
lack of attention. The Air Force S&T Program is developing technologies 
that realize true autonomous capabilities including those that advance 
the state-of-the-art in machine intelligence, decisionmaking, and 
integration with the warfighter to form effective human-machine teams.
    The greater use of autonomous systems increases the capability of 
U.S. forces to execute well within the adversaries' decision loops. 
Human decision-makers intelligently integrated into autonomous systems 
enable the right balance of human and machine capability to meet Air 
Force challenges in the future. The Air Force S&T Program invests in 
the development of technologies to enable warfighters and machines to 
work together, with each understanding mission context, sharing 
understanding and situation awareness, and adapting to the needs and 
capabilities of the other. The keys to maximizing this human-machine 
interaction are: instilling confidence and trust among the team 
members; understanding of each member's tasks, intentions, capabilities 
and progress; and ensuring effective and timely communication. All of 
which must be provided within a flexible architecture for autonomy, 
facilitating different levels of authority, control and collaboration. 
Current research is focused on understanding human cognition and 
applying these concepts to machine learning. Efforts develop efficient 
interfaces for an operator to supervise multiple unmanned air systems 
(UAS) platforms and providing the ISR analyst with tools to assist 
identifying, tracking, targets of interest.
    Autonomy also allows machines to synchronize activity and 
information. Systems that coordinate location, status, mission intent, 
and intelligence and surveillance data can provide redundancy, 
increased coverage, decreased costs and/or increased capability. 
Research efforts are developing control software to enable multiple, 
small UASs to coordinate mission tasking with other air systems or with 
ground sensors. Other research efforts are developing munition sensors 
and guidance systems that will increase operator trust, validation, and 
flexibility while capitalizing on the growing ability of munitions to 
autonomously search a region of interest, provide additional 
situational awareness, plan optimum flight paths, de-conflict 
trajectories, optimize weapon-to-target orientation, and cooperate to 
achieve optimum effects.
    Finally, before any system is fielded, adequate testing must be 
conducted to demonstrate that it meets requirements and will operate as 
intended. As technologies with greater levels of autonomy mature, the 
number of test parameters will increase exponentially. Due to this 
increase, it will be impractical to verify and validate autonomous 
system performance, cost-effectively, using current methods. The Air 
Force is developing test techniques that verify the decisionmaking and 
logic of the system and validate the system's ability to appropriately 
handle unexpected situations. Efforts are focused at the software-level 
and build to overall system to verify codes are valid and trustworthy. 
The Air Force will demonstrate the tools needed to ensure autonomous 
systems operate safely and effectively in unanticipated and dynamic 
environments.
Directed Energy
    With a uniquely focused directorate within AFRL, the Air Force is 
in a leading position in the game-changing area of directed energy. 
These technologies, including high powered microwave (HPM) and high 
energy lasers (HELs), can provide distinctive and revolutionary 
capabilities to several Air Force and joint mission areas. Laser 
technologies are rapidly evolving for infrared seeker jamming, secure 
communications in congested and jammed spectrum environments, space 
situational awareness, and vastly improved ISR and target 
identification capabilities at ever increasing ranges. To get HELs to a 
weapon system useful to the Air Force, our S&T program invests in 
research in laser sources from developing narrow line width fiber 
lasers to scaling large numbers of fiber lasers with DARPA and MDA. 
Since HEL devices are not sufficient for a weapon, the Air Force 
directed energy research also includes beam control, atmospheric 
compensation, acquisition, pointing, tracking, laser effects, and 
physics based end-to-end modeling and simulation. The Air Force also 
funds the High Energy Laser Joint Technology Office (HEL JTO) which 
supports all of the services by being the key motivator of high power 
laser devices such as the successful 100 kilowatt, lab-scale Joint High 
Power Solid State Laser (JHPSSL) and other funding many smaller 
successes. The current primer program, which is jointly funded with 
core Army and Air Force funds, is the Robust Electric Laser Initiative 
(RELI). The initiative funds efforts to develop designs for efficient 
and weaponizable solid state lasers with options leading to a 100 
kilowatt laser device.
    Our HPM S&T will complement kinetic weapons to engage multiple 
targets, neutralizing communication systems, computers, command and 
control nodes, and other electronics, with low collateral damage for 
counter-anti-access/area denial in future combat situations. The Air 
Force is using the results of from the highly successful Counter-
Electronics High Power Microwave Advanced Missile Project (CHAMP) Joint 
Capabilities Technology Demonstration (JCTD) to inform an effort known 
as Non-Kinetic Counter Electronics (NKCE). NKCE is currently in pre-
Alternative of Alternatives (AoA) phase, with an AoA potentially 
starting in fiscal year 2015. The AoA will examine the cost and 
performances for kinetic, non-kinetic, and cyber options for air 
superiority and seeks to have a procured and operational weapon system 
to support the targets and requirements of the Combatant Commanders in 
the mid-2020 timeframe. In parallel, the Air Force S&T Program is 
continuing HPM research and development to provide a more capable and 
smaller counter-electronics system that can fit onto a variety of 
platforms.
    The DOD directed energy research community is highly integrated and 
the Air Force leverages the work of other agencies. For example, the 
Air Force is working with the Missile Defense Agency on integrated 
electro-optical/infrared pulsed-laser targeting to enhance situational 
awareness and increase survivability by enabling the use of legacy 
weapons in the 2016 timeframe. In addition, the Air Force is partnering 
with DARPA on the Demonstrator Laser Weapon System, a ground-based 
fully integrated laser weapon system demonstration over the next 2 
fiscal years and an Air-to-Air Defensive Weapon Concept.
Fuel Efficiency Technologies
    For the longer term reduction in energy demand, the Air Force is 
investing in the development of adaptive turbine engine technologies 
which have the potential to reduce fuel consumption while also 
increasing capability in anti-access/area denial environments through 
increased range and time-on-station. The Air Force has several priority 
efforts as part of the DOD's Versatile Advanced Affordable Turbine 
Engine (VAATE) technology program. VAATE is a coordinated Army, Navy, 
and Air Force plan initiated in 2003 to develop revolutionary advances 
in propulsion system performance, fuel efficiency and affordability for 
the DOD's turbine engine powered air platforms.
    The initial effort, Adaptive Versatile Engine Technology (ADVENT), 
began in fiscal year 2007 and is set to complete this year. General 
Electric is currently in final testing of the ADVENT engine 
technologies which include a next generation high pressure ratio core 
and an adaptive fan in a third stream engine architecture.
    The Adaptive Engine Technology Development (AETD) program, our 
accelerated follow-on adaptive engine effort for the combat Air Force, 
is progressing very well. The objective of AETD is to fully mature 
adaptive engine technologies for low risk transition to multiple combat 
aircraft alternatives ready for fielding as soon as the early 2020's. 
The effort will deliver a preliminary prototype engine design, 
substantiated by major hardware demonstrations that can be tailored to 
specific applications when the DOD is ready to launch new development 
programs. The overarching goal of AETD is to mature adaptive engine 
technologies so that these programs can launch with significantly lower 
risk than previous propulsion development programs.
    The High Energy Efficient Turbine Engine (HEETE) S&T effort is our 
flagship large engine effort under the VAATE technology program. The 
HEETE effort's primary objective is to demonstrate engine technologies 
that enable a 35 percent fuel efficiency improvement versus the VAATE 
year 2000 baseline, or at least 10 percent beyond current VAATE 
technology capabilities being demonstrated in the ADVENT program.
    The Air Force Research Laboratory and industry have conducted a 
number of HEETE payoff studies that show significant potential benefits 
to future transport and ISR aircraft (e.g., 18 percent to 30 percent 
increase in strategic transport range, 45 percent to 60 percent 
increase in tactical transport radius, and 37 percent to 75 percent 
increase in ISR UAV loiter time). A study of Air Force's fleet fuel 
usage showed that introduction of HEETE-derived engines into the 
mobility and the tanker fleet would enable fuel savings of 
approximately 203 million gallons per year by the mid-2030's.
    Investments in these efforts help us reduce energy demand, bridge 
the ``valley of death'' between S&T and potential acquisition programs, 
and help maintain the U.S. industrial technological edge and lead in 
turbine engines.
                         enabling technologies
    In addition to these game-changing technologies, the Air Force S&T 
Program also invests in many enabling technologies to facilitate major 
advances and ensure maximum effectiveness in the near-, mid-, and far 
term:
Cyber
    Operations in cyberspace magnify military effects by increasing the 
efficiency and effectiveness of air and space operations and by helping 
to integrate capabilities across all domains. However, the cyberspace 
domain is increasingly contested and/or denied and the Air Force faces 
risks from malicious insiders, insecure supply chains, and increasingly 
sophisticated adversaries. Fortunately, cyberspace S&T can provide 
assurance, resilience, affordability, and empowerment to enable the Air 
Force's assured cyber advantage.
    In 2012, the Air Force developed Cyber Vision 2025 which described 
the Air Force vision and blueprint for cyber S&T spanning cyberspace, 
air, space, command and control, intelligence, and mission support. 
Cyber Vision 2025 provides a long-range vision for cyberspace to 
identify and analyze current and forecasted capabilities, threats, 
vulnerabilities and consequences across core Air Force missions in 
order to identify key S&T gaps and opportunities. The Air Force's cyber 
S&T investments for fiscal year 2015 are aligned to the four themes 
identified in Cyber Vision 2025: Mission Assurance, Agility and 
Resilience, Optimized Human-Machine Systems, and Foundations of Trust.
    Air Force S&T efforts in Mission Assurance seek to ensure 
survivability and freedom of action in contested and denied 
environments through enhanced cyber situational awareness for air, 
space, and cyber commanders. Current research efforts seek to provide 
dynamic, real-time mapping and analysis of critical mission functions 
onto cyberspace. This analysis includes the cyber situation awareness 
functions of monitoring the health and status of cyber assets, and 
extends to capture how missions flow through cyberspace. This work 
seeks to provide commanders with the ability to recognize attacks and 
prioritize defensive actions to protect assets supporting critical 
missions. Other research efforts develop techniques to measure and 
assess the effects of cyber operations and integrate them with cross-
domain effects to achieve military objectives.
    Research in Agility and Survivability develops rapid and 
unpredictable maneuver capabilities to disrupt the adversaries' cyber 
``kill chain'' along with their planning and decisionmaking processes 
and hardening cyber elements to improve the ability to fight through, 
survive, and rapidly recover from attacks. Air Force S&T efforts are 
creating dynamic, randomizable, reconfigurable architectures capable of 
autonomously detecting compromises, repairing and recovering from 
damage, and evading threats in real-time. Cyber resiliency is enhanced 
through an effective mix of redundancy, diversity, and distributed 
functionality that leverages advances in virtualization and cloud 
technologies.
    The Air Force works to maximize the human and machine potential 
through the measurement of physiological, perceptual, and cognitive 
states to enable personnel selection, customized training, and (user, 
mission, and environment) tailored augmented cognition. S&T efforts 
develop visualization technologies to enable a global common 
operational picture (COP) of complex cyber capabilities that can be 
readily manipulated to support Air Force mission-essential functions 
(MEFs). Other efforts seek to identify the critical human skills and 
abilities that are the foundation for superior cyber warriors and 
develop a realistic distributed network training environment integrated 
with new individualized and continuous learning technologies.
    The Air Force is developing secure foundations of computing to 
provide operator trust in Air Force weapon systems that include a mix 
of embedded systems, customized and militarized commercial systems, 
commercial off-the-shelf (COTS) equipment, and unverified hardware and 
software that is developed outside the United States. Research into 
formal verification and validation of complex, large scale, 
interdependent systems as well as vulnerability analysis, automated 
reverse engineering, and real-time forensics tools will enable 
designers to quantify the level of trust in various components of the 
infrastructure and to understand the risk these components pose to the 
execution of critical mission functions. Efforts to design and build 
secure hardware will provide a secure root-of-trust and enable a more 
intelligent mixing of government off-the-shelf (GOTS) and COTS 
components based on the systems' security requirements.
Cognitive Electronic Warfare
    With the highly contested future EW environment, we have focused 
S&T efforts on creating the ability to rapidly respond to threats. This 
is accomplished by developing the analytic ability to understand a 
complex threat environment and determine the best combination of 
techniques across all available platforms. In addition, leveraging 
cognitive and autonomy concepts improve the cycle time between 
emergence of a threat and development of an effective response. This 
system-of-systems solution approach is implemented in a physics based 
interactive simulation capability to evaluate novel concepts. The Air 
Force is also developing technologies to enhance survivability and 
improve situational awareness in the electro-optical (EO)/infrared (IR) 
and radio frequency (RF) warning and countermeasures area. New 
electronic components (antennas, amplifiers, processors) will improve 
the ability to detect threats with emphasis on advanced processing and 
software to assess threats in a crowded RF environment. This includes 
solutions to detect and defeat infrared and optical threats. These will 
enable protection against autonomous seekers using multi-spectral 
tracking.
Space Situational Awareness/Space Control
    The ability to counter threats, intentional or unintentional, in 
the increasingly congested and contested space domain begins with Space 
Situational Awareness (SSA). The SSA S&T investments needed to maintain 
our core Space Superiority and Command and Control missions in such an 
environment are substantial and include research in Assured Recognition 
and Persistent Tracking of Space Objects, Characterization of Space 
Objects and Events, Timely and Actionable Threat Warning and 
Assessment, and Effective Decision Support through Data Integration and 
Exploitation. The Air Force works across these areas in cooperation 
with the DOD, intelligence community, and industry.
    To help build a holistic national SSA capability, the Air Force's 
S&T investment is designed to exploit our in-house expertise to 
innovate in areas with short-, mid- and long-term impact that are not 
already being addressed by others. Examples include working with 
federally Funded Research and Development Centers (FFRDCs) and academia 
to attack the deep space uncorrelated target association problem to 
improve custody of space objects and reduce the burden on the space 
surveillance network; better conjunction assessment and re-entry 
estimation algorithms to reduce collision probabilities and unnecessary 
maneuvers; and infrared star catalog improvement to ease observation 
calibrations. These products have recently transitioned to national SSA 
capabilities. Advanced component technologies developed with industry 
include visible focal plane arrays, deployable baffles and lenses to 
meet performance, and cost and weight requirements for future space-
based surveillance systems.
    As part of the Air Force Research Laboratory's long history of 
proving new technologies in relevant environments, the Automated 
Navigation and Guidance Experiment for Local Space (ANGELS) program 
examines techniques to provide a clearer picture of the environment 
around our vital space assets through safe, automated spacecraft 
operations above Geosynchronous Earth Orbit (GEO). Equipped with 
significant detection, tracking and characterization technology, ANGELS 
will launch in 2014. It will maneuver around its booster's upper stage 
and explore increased levels of automation in mission planning and 
execution, enabling more timely and complex operations with reduced 
footprint. Additional indications and warning work focuses on change 
detection and characterization technologies to provide key observables 
that improve response time and efficacy.
Satellite Resilience
    Our Nation and our military are heavily dependent on space 
capabilities. With an operational space domain that is becoming 
increasingly congested, competitive and contested, the Air Force has 
seen the need for development of technologies to increase resilience of 
our space capabilities. The satellites upon which we rely so heavily 
must be able to avoid or survive threats, both man-made and natural, 
and to operate through and subsequently quickly recover should threat 
or environmental effects manifest. To this end, the Air Force S&T 
Program has increased technological investment in tactical sensing and 
threat warning, reactive satellite control, and hardening.
    Satellites today are equipped with a wide range of sensors, that, 
if exploited in new ways and/or coupled with new hosted threat sensing 
technologies could yield significant increases to tactical sensing and 
threat warning. The Air Force pursues a range of internally-focused 
health and status sensing (e.g. structural integrity, thermal, cyber) 
and externally focused object or phenomena sensing (e.g. space 
environment, threat sensing, directed energy detection) technologies, 
and a range of data fusion approaches to maximize the timeliness and 
confidence of that warning. While tactical warning is vital, it is only 
immediately helpful when a satellite is able to tactically respond in 
some way to avoid a threat or minimize its effects. Any choice of a 
response requires some means of reconciling warning with viable courses 
of action available. The Air Force focuses on efforts specifically 
dedicated to tailoring satellite control based on tactical warning 
inputs. Finally, hardening technologies refers to a range of both 
passive and active capabilities that, when selected and executed, could 
result in threat avoidance, lessening their effects or recovering lost 
capability more quickly. For example, for particular types of threats, 
dynamic configuration changes, optical protection, cyber quarantine, 
dynamic thermal management or possibly maneuvers might achieve the 
desired protection.
Precision Navigation and Timing
    Most U.S. weapon systems rely on the Global Positioning System 
(GPS) satellites to provide the required position navigation and timing 
(PNT) to function properly. This reliance has created a vulnerability 
which is being exploited by our adversaries through development of 
jammers to degrade access to the GPS signals. For success in the long 
term, Air Force S&T is improving the robustness of military GPS 
receivers and also developing several non-GPS based alternative 
capabilities including exploitation of other satellite navigation 
constellations, use of new signals of opportunity, and incorporation of 
additional sensors such as star trackers and terrain viewing optical 
systems. These receivers provide new navigation options with different 
accuracy depending on available sensors and computational power. Rapid 
progress is being made on advanced Inertial Measurement Units based on 
cold atom technologies. These units have the potential to provide 
accurate PNT for extended periods without any external update. 
Together, these approaches will provide future options to enable the 
Air Force mission to continue in contested and denied environments.
Assured Communications
    Assured communications are critical to the warfighter in all 
aspects of the Air Force core missions. The Air Force S&T Program is 
developing technologies to counter threats to mission performance, such 
as spectrum congestion and jamming, and to maintain or increase 
available bandwidth through access to new portions of the radio 
frequency spectrum, alleviating pressure on DOD spectrum allocations. 
Future ability to use new spectrum will increase DOD communications 
architecture capacity and affordability, by requiring fewer expensive, 
high capacity gateways. Additional bandwidth will allow improved anti-
jam communications performance and higher frequency communications, 
which will reduce scintillation losses for nuclear command and control 
(C2). The performance enhancements would directly improve the ability 
of remotely-piloted aircraft to transmit images and data (ISR) and 
improve command and control assurance.
    Efforts in Assured Communications include the Future Space 
Communications effort which includes research to characterize and 
provide new spectrum for future military space communications through 
the W/V-band Space Communications Experiment (WSCE). WSCE will 
characterize and model the atmospheric effects of upper V-band and W-
band (71-76 GHz and 81-86 GHz) signal transmission. Space-based data 
collection and atmospheric attenuation model development is necessary 
to provide the statistics necessary to design a future satellite 
communications architecture that will allow use of the currently empty 
V- and W-band spectrum.
Long Range Sensing
    For the past decade the Air Force has provided near persistent ISR 
for Combatant Commanders conducting operations in the uncontested air 
environments of Iraq and Afghanistan. We do not see the appetite for 
ISR waning in the future. However, the ability to perform effective 
sensing in anti-access/area denial and contested environments is 
threatened by many new and different challenges rarely seen during the 
past 10 years of permissive environment operations. In the past, 
airborne collection platforms conducted airborne ISR outside of the 
lethal range of air defense systems. Today, however, the modern and 
evolving foreign Integrated Air Defense Systems (IADS) of our 
adversaries have increased lethality and significantly improved 
engagement capabilities which will force ISR aircraft to fly at longer 
stand-off distances. The effectiveness of current precision weapons 
will be reduced with distance limiting the ability to accurately 
detect, identify and geo-locate targets.
    The Air Force S&T Program is focused on significantly improving our 
sensing ability to adequately address the challenges of extended range 
ISR collection. The efforts include: 1) next generation RF sensing for 
contested spectrum environments in which long stand-off sensing is 
primarily focused on all-weather ISR using traditional active radar 
modes at ranges of greater than 100 miles; 2) passive RF Sensing in 
which signals of opportunity are exploited to detect, identify and 
locate targets through the use of passive multi-mode and distributed 
multi-static techniques; 3) laser radar sensing focused on enhancing 
target identification through the use of synthetic aperture laser radar 
and also addressing high resolution wide-area three dimensional imaging 
through advancements in direct detection radar; and 4) passive EO/IR 
sensing to enhance capabilities to detect and track difficult targets, 
improve target identification at long standoff ranges and perform 
material identification through advancing hyperspectral and stand-off 
high resolution imaging technology.
Live, Virtual, and Constructive
    The Air Force continues to develop and demonstrate technologies for 
Live, Virtual, and Constructive (LVC) operations to maintain combat 
readiness. The training need for LVC is real while training costs are 
increasing and threat environments are complex. In particular, 
realistic training for anti-access/area-denial environments is not 
available. During a recent demonstration of LVC capability for tactical 
forces at Shaw AFB, South Carolina, AFRL LVC research capability was 
integrated in operations with an F-16 Unit Training Device (a virtual 
simulator) to simultaneously interoperate with a mix of live F-16 
aircraft, other virtual simulations, and high fidelity computer-
generated constructive players. This mix of players enabled the real 
time and realistic portrayal and interaction of other strike package 
assets and aggressor aircraft with a level of complexity that could not 
be achieved if limited to live assets, given the expense and 
availability of them to support the scenarios. LVC S&T has the 
capability to provide greater focused training for our warfighters 
across a range of operational domains such as tactical air, special 
operations, cyber, ISR, and C2. The Air Force is exploring a 5th 
generation LVC Proof of Concept set of demonstrations that would 
validate the requirements for a formal program of record for LVC.
Basic Research
    The development of revolutionary capabilities requires the careful 
investment in foundational science to generate new knowledge. Our 
scientists discover the potential military utility of these new ideas 
and concepts, develop this understanding to change the art-of-the-
possible and then transition the S&T for further use. Air Force basic 
research sits at the center of an innovation network that tracks the 
best S&T in the DOD, with our partners in the Army, the Navy, DARPA, 
and the Defense Threat Reduction Agency (DTRA), while monitoring the 
investments and breakthroughs of the NSF, NASA, NIST, and the 
Department of Energy. Air Force scientists and engineers watch and 
collaborate with the best universities and research centers from around 
the world in open, publishable research that cuts across multiple 
scientific disciplines aligned to military needs.
    For example, Air Force basic research played a role in the Air 
Force's successful CHAMP technology demonstration discussed earlier. 
While the CHAMP demonstration required extensive applied research and 
advanced technology development, fundamental basic research investment 
in both supercomputers and computational mathematics provided a virtual 
prototyping capability called Improved Concurrent Electromagnetic 
Particle-In-Cell (ICEPIC) for directed energy concepts to Air Force 
researchers. This allowed new ideas to be studied effectively and 
affordably on the computer without costly manufacture for every 
iteration of the technology. Virtual prototyping was a critical 
enabling technology, and resulted from nearly two decades of steady, 
targeted investments in fundamental algorithms that then transitioned 
to a capability driving technology development in Air Force 
laboratories and in industry.
Manufacturing Technologies
    A key cross-cutting enabling technology area is in developing 
materials, processes, and advanced manufacturing technologies for all 
systems including aircraft, spacecraft, missiles, rockets, ground-based 
systems and their structural, electronic and optical components. The 
fiscal year 2015 Air Force S&T Program emphasizes materials work from 
improved design and manufacturing processes to risk reduction through 
assessing manufacturing readiness.
    The Air Force's investment in additive manufacturing technologies 
offers new and innovative approaches to the design and manufacture of 
Air Force and DOD systems. Additive manufacturing, or the process of 
joining materials to make objects from 3D model data layer by layer, 
changes the conventional approach to design, enabling a more direct 
design to requirements. As opposed to subtractive processes like 
machining, additive manufacturing offers a whole new design realm in 
which geometric complexity is not a constraint and material properties 
can be specifically located where needed. As with the insertion of all 
advanced materials and processes, the Air Force strives to ensure 
appropriate application and proper qualification of additive 
manufacturing for warfighter safety and system performance.
    Currently, the Air Force is invested in more than a dozen programs 
ranging from assisting in major high-Technology Readiness Level (TRL) 
qualification programs to mid-TRL process improvement programs, to low-
TRL process modeling and simulation programs. Overall, we have 
established a strategic program to quantify risk for implementation and 
to advance the understanding of processing capabilities. We have 
identified multiple technical areas that require Air Force investment 
and are developing an initiative that integrates pervasive additive 
manufacturing technologies across Air Force sectors, spanning multiple 
material classes from structural, metallic applications to functional, 
electronic needs.
    The Air Force leverages its additive manufacturing resources and 
interests with the Administration's National Network for Manufacturing 
Innovation (NNMI) to support the acceleration of additive manufacturing 
technologies to the U.S. manufacturing sector to increase domestic 
competitiveness. In fiscal year 2013, the Air Force played a key role 
in supporting the NNMI National Additive Manufacturing Innovation 
Institute called ``America Makes.'' The Air Force, on behalf of the 
Office of the Secretary of Defense, led an interagency effort, which 
included DOD, DOE, DOC/NIST, NASA, and NSF, to launch a $69 million 
public-private partnership in Additive Manufacturing.
    Cooperatively working with the private partner team lead, the Air 
Force helped ``America Makes'' achieve significant accomplishments in 
its first year. After opening it headquarters in Youngstown, Ohio in 
September 2012, the ``America Makes'' consortium has grown to 
approximately 80 member organizations consisting of manufacturing 
companies, universities, community colleges, and non-profit 
organizations. A shared public-private leadership governance structure, 
organizational charter, and intellectual property strategy were 
implemented and two project calls were launched in Additive 
Manufacturing and 3D printing technology research, discovery, creation, 
and innovation. So far, more than 20 projects totaling approximately 
$29 million and involving more than 75 partners have been started 
covering a broad set of priorities including advances in materials, 
design and manufacturing processes, equipment, qualification and 
certification, and knowledge base development. ``America Makes'' serves 
as an example for future NNMI institutes and the Air Force has provided 
support to establish two additional DOD sponsored institutes of 
manufacturing innovation.
    The Air Force Manufacturing Technology program continues to lead 
the way in developing methods and tools for Manufacturing Readiness 
Assessments and continues to lead assessments on new technology, 
components, processes, and subsystems to identify manufacturing 
maturity and associated risk. Increasing numbers of weapon system prime 
contractors and suppliers have integrated Manufacturing Readiness into 
their culture which aids in product and process transition and 
implementation, resulting in reduced cost, schedule and performance 
risk. Benefits from the advanced manufacturing propulsion initiative 
continue to accrue in the form of reduced turbine engine cost and 
weight through advanced manufacturing of light weight castings and 
ceramic composites and improved airfoil processing. Advanced next 
generation radar and coatings affordability projects continue to reduce 
cost and manufacturing risk to systems such as the F-22 and F-35 
aircraft. The Air Force Manufacturing Technology investment continues 
to make a significant impact on the F-35 program in particular, driving 
down life cycle costs by over $3 billion, with a number of ongoing 
projects that will benefit multiple F-35 program Integrated Product 
Teams.
    The Air Force is also leveraging basic research efforts to improve 
sustainment of legacy systems. The ``Digital Twin'' concept combines 
the state-of-the-art in computational tools, advanced sensors, and 
novel algorithms to create a digital model of every platform in the 
fleet. Imagine a world where instead of using fleet averages for the 
maintenance and sustainment of an airframe, there is a computer model 
of each plane that records all the data from each flight, integrates 
the stress of the flights into the history of the actual materials on 
the platform, and continually checks the health of vital components. 
Thus, the computer model mimics all the missions of the physical asset, 
thereby allowing us to do maintenance exactly when required. This is 
the airplane equivalent of individualized medicine, making sure that 
each individual asset of the Air Force is set to operate at peak 
performance. Interdisciplinary basic research in material science, 
fundamental studies in new sensors and novel inquiry into new, 
transformational computer architecture enable the Digital Twin 
concepts. These foundational studies are tightly integrated with 
applied research, both in the Air Force Research Laboratory as well as 
efforts in NASA, to drive forward the S&T to permit breakthroughs in 
affordable sustainment.
    rapid innovation program and small business innovation research
    The Air Force recognizes small businesses are critical to our 
defense industrial base and essential to our Nation's economy. The U.S. 
relies heavily on innovation through research and development as the 
small businesses continue to be a major driver of high-technology 
innovation and economic growth in the U.S. We continue to engage small 
businesses through the Rapid Innovation Program, and the Small Business 
Innovation Research (SBIR) and Small Business Technology Transfer 
(STTR) programs.
    The Rapid Innovation Program has been an excellent means for the 
Air Force to communicate critical needs and solicit vendors to respond 
with innovative technology solutions. The program provides a vehicle 
for businesses, especially small businesses, to easily submit their 
innovative technologies where they feel it will best meet military 
needs. The Air Force benefits from the ability to evaluate proposed 
innovative technologies against critical needs, and selecting the most 
compelling for contract award. The response to the program has been 
overwhelming, and instrumental to the transition of capability by small 
businesses. Over the last 3 years, the Air Force has received over 
2,200 white paper submissions from vendors offering solutions to 
critical Air Force needs. We have awarded over 60 projects directly to 
small businesses and anticipate awarding another 25 by the end of this 
fiscal year.
    Projects from the fiscal year 2011 Rapid Innovation Program are now 
maturing and showing great promise. For example, one project developed 
a handheld instrument for quality assurance of surface preparation 
processes used in manufacturing of the F-35 aircraft. Current F-35 
aircraft manufacturing processes require manual testing of 30,000 nut 
plates on each plane to ensure correct bonding of materials. The 
current failure rate is averaging 1 percent or 300 nut plates. Each 
failure requires individual re-preparation and re-bonding with 
supervisory oversight. The Rapid Innovation Program project handheld 
device will significantly reduce the failure rate of adhesively bonded 
nut plates. In turn, this will reduce rework and inspection costs, 
increase aircraft availability, assist Lockheed Martin in achieving its 
target production rate, and reduce repetitive injury claims from 
employees. Lockheed Martin has been very closely monitoring this 
technology and will be completing a return-on-investment review in the 
coming months following prototype evaluation.
    The Air Force continues to collaborate with other Federal agencies 
and Air Force acquisition programs to streamline our SBIR and STTR 
processes. We are also collaborating with the Air Force's Small 
Business office (SAF/SB) to implement the provisions of the 
reauthorization and to assist in maximizing small business 
opportunities in government contracts while enhancing the impact and 
value of small businesses.
    For example, to improve the effectiveness of SBIR investments, the 
Air Force Research Laboratory has started to strategically bundle, 
coordinate, and align Air Force SBIR topics against top Air Force 
priorities identified by Air Force Program Executive Officers (PEO). In 
the Fall of 2013, the Laboratory began a pilot effort with the Air 
Force Program Executive Officer for Space to focus the combined 
investments of approximately 45 SBIR Phase I awards and 15 Phase II 
SBIR awards on the identified, top priority challenge of transforming 
our military space-based PNT capabilities.
    In conjunction with this strategic initiative, the Air Force is 
also energizing efforts to seek out and attract non-traditional 
participants, which are small businesses with skills, knowledge and 
abilities relevant to the bundled topics, in SBIR awards but who, for 
various reasons, do not routinely participate in the SBIR proposal 
process. This strategic concentration of small business innovation 
against top priorities will ultimately enhance the transitioning of 
small business innovation, raise the visibility and importance of those 
investments, and take advantage of the Nation's small business 
innovation. If proven successful, the Air Force will begin to 
institutionalize it as a model for organizing and aligning SBIR topics 
against other top priority issues.
    One recent SBIR project developed innovative low profile and 
conformal antennas to allow air platforms, including small Remotely 
Piloted Aircraft (RPA), to operate more aerodynamically and ground 
vehicles to operate more covertly in areas where Improvised Explosive 
Devices (IEDs) are a threat. The wideband low profile antenna assembly 
for vehicle Counter Radio Controlled IED Electronic Warfare (CREW) 
systems operates efficiently from VHF to S-band, and at a height of 
less than 3 inches, greatly reduces visual signature. The wideband 
conformal antenna technologies developed for RPA systems operate from 
UHF through S-band and minimize the number of required antennas, 
significantly reducing weight and aerodynamic drag.
                         world class workforce
    Maintaining our U.S. military's decisive technological edge 
requires an agile, capable workforce that leads cutting-edge research, 
explores emerging technology areas, and promotes innovation across 
government, industry and academia. Nurturing our current world class 
workforce and the next generations of science, technology, engineering, 
and mathematics (STEM) professionals is an Air Force, DOD and national 
concern. We must be able to recruit, retain and develop a capable STEM 
workforce in the face of worldwide competition for the same talent.
    The Air Force continues to focus on developing technical experts 
and leaders who can provide the very best research and technical advice 
across the entire lifecycle of our systems, from acquisition, test, 
deployment and sustainment. After yielding success since 2011, the 
original Bright Horizons, the Air Force STEM Workforce Strategic 
Roadmap, is currently being updated with new goals and objectives to 
reflect the current environment. The Air Force has also developed a 
soon-to-be-released Engineering Enterprise Strategic Plan aimed at 
recruiting, developing and retaining the scientist and engineer talent 
to meet the future need of the Air Force.
    The increased Laboratory hiring and personnel management 
authorities and flexibilities provided by the Congress over the last 
several years have done much to improve our ability to attract the 
Nation's best talent. The Air Force is currently developing 
implementation plans for the authorities most recently provided in the 
fiscal year 2014 National Defense Authorization Act. The ability to 
manage Laboratory personnel levels according to budget will allow us to 
be more agile and targeted in hiring for new and emerging research 
areas. The Air Force Research Laboratory recruits up-and-coming, as 
well as seasoned, scientists and engineers, including continuing a 
vibrant relationship with Historically Black Colleges and Universities 
and Minority Serving Institutions (HBCU/MI), who conduct research 
projects, improve infrastructure, and intern with the Air Force 
Research Laboratory in support of the Air Force mission.
    The Air Force also leverages the National Defense Education Program 
(NDEP) Science Mathematics and Research for Transformation (SMART) 
Program that supports U.S. undergraduate and graduate students pursuing 
degrees in 19 STEM disciplines. The Air Force provides advisors for the 
SMART scholars, summer internships, and post-graduation employment 
opportunities. The Air Force has sponsored 523 SMART scholars during 
the past 8 years, and of the 315 scholars that have completed the 
program, 88 percent are still working for the Air Force, 9 percent are 
getting advanced degrees, and 3 percent have left due to various 
reasons including furlough and government funding uncertainty. The Air 
Force identified 110 Key Technology Areas essential for current and 
future support to the war fighter, which we used for selecting academic 
specialties for SMART scholars. SMART Scholars are an essential 
recruitment source of employees to enable key technology advances and 
future STEM leaders.
    Sequestration and fiscal uncertainty in fiscal year 2013 caused the 
Air Force to significantly curtail travel expenses and severely limit 
conference attendance. It is essential for our scientists and engineers 
to be fully engaged within the national and international community so 
this curtailment disproportionately impacted the S&T community. We have 
worked with Air Force leadership to solve these issues and establish 
policies allowing greater flexibility for this mission imperative in 
2014 and beyond. We can recover from the 1 year (2013) of non-
participation in the greater S&T national and international community. 
However, severe travel restrictions over the long term could undermine 
the Air Force's ability retain top talent.
    The Air Force has effectively used the authority provided by 
Section 219 of the Duncan Hunter National Defense Authorization Act not 
only to increase the rate of innovation and accelerate the development 
and fielding of needed military capabilities but also to grow and 
develop the workforce and provide premier Laboratory infrastructure. 
For example, the Information Directorate of the Air Force Research 
Laboratory located in Rome, New York used funding made available by 
Section 219 to develop curriculum at Clarkson University. The 
curriculum is aligned to the Information Directorate's command, 
control, communications, cyber and intelligence (C4I) technology 
mission and provides training and development programs to Laboratory 
personnel. To fully utilize the new Section 219 authorities from the 
fiscal year 2014 National Defense Authorization Act, the Laboratory is 
now developing a targeted infrastructure plan to provide its scientist 
and engineer workforce premier laboratory facilities in its locations 
nationwide. Recent success in the infrastructure area includes the 
opening of two state-of-the-art fuze laboratories at Eglin AFB, 
Florida, which are enabling enhanced research and development into 
hardened penetration and point burst fuzing.
                               conclusion
    The threats our Nation faces today and those forecast in the future 
leave the U.S. military with one imperative. We must maintain decisive 
technological advantage. We must take lessons from the last decade of 
conflict and creatively visualize the future strategic landscape. We 
must capitalize on the opportunities found within this space.
    The focused and balanced investments of the Air Force fiscal year 
2015 S&T Program are hedges against the unpredictable future and 
provide pathways to this flexible, precise and lethal force at a 
relatively low cost in in relation to the return on investment. We 
recognize that fiscal challenges will not disappear tomorrow, and that 
is why we have continued to improve our processes to make better 
investment decisions and efficiently deliver capability to our 
warfighters.
    Chairman Durbin, Vice Chairman Cochran, and Members of the 
Subcommittee, thank you again for the opportunity to testify today and 
thank you for your continuing support of the U.S. Air Force's S&T 
Program.

    Senator Durbin. Thanks, Dr. Walker.
    Admiral Klunder.
STATEMENT OF REAR ADMIRAL MATTHEW L. KLUNDER, CHIEF OF 
            NAVAL RESEARCH
    Admiral Klunder. Good morning, Chairman Durbin, Vice 
Chairman Cochran, and other distinguished subcommittee members. 
It is an honor to report on science and technology efforts in 
the Department of the Navy and discuss how the President's 2015 
budget request supports the Navy and Marine Corps.
    We use S&T to enable your Navy and Marine Corps team to 
maintain the technological edge necessary to prevail in any 
environment where we are called to defend U.S. interests. We 
work with the Secretary of the Navy, the Chief of Naval 
Operations, and the Commandant of the Marine Corps to balance 
the allocation of resources between near-term innovation and 
long-term leap-ahead research. Our goal is to improve our 
warfighting capability to encounter increasingly complex 
threats in uncertain environments while, at the same time, 
addressing affordability in a serious way with our systems.
    Beginning with the evolution of current systems, 
incremental spiral development of current technology, we move 
toward exploiting yet-to-be-discovered, disruptive game-
changing technologies. The Naval S&T strategic plan guides our 
investments and it is regularly updated by Navy and Marine 
Corps leadership to validate the alignment of S&T with the 
current and future missions, priorities and requirements when 
they come about. It ensures S&T has long-term focus, meets 
near-term objectives, and makes what we do clear to 
decisionmakers, partners, customers, and performers. The S&T 
plan is currently under review and will be updated in the very 
near future.
    We fully understand that anti-access and area denial 
threats continue to increase. The cyber war challenge, my 
colleagues have noted already, will also increase and become 
more complex. These are problems that are not easy to solve, 
but we are making progress. As I said before, we also want to 
get away from using $3 million weapons to defeat a $50,000 
threat. We have weapons in development and being fielded that 
will allow us to reverse that asymmetrical cost advantage 
currently held by some of our adversaries. And here is really 
what is important to me. At the end of the day, I never want to 
see a sailor or a marine in a fair fight, and we are confident 
that we can do that in an affordable way.
    These are not pie-in-the-sky science projects. They are 
being tested. They work. I invite you and your staffs to get 
hands-on experience and see them for yourselves. A number of 
your colleagues and your staff have already been down to 
Dahlgren, Virginia, the Naval Research Lab here in Anacostia 
where world-class scientists and civilian employees are making 
that happen.
    The bottom line is we are constantly transitioning the 
results of discovery and invention and applied research into 
fielding prototypes, weapons, and acquisition programs of 
record. We were commended for the way we do that by the 2013 
Government Accountability Office report cited in my testimony.
    But it is not enough to build transition-effective systems. 
They need to be extremely affordable. An ongoing example of our 
success in this venue is the laser weapon system I think I have 
briefed some of you on before. It is part of our solid state 
maturation program that we have ongoing. Energy weapons, 
specifically directed energy weapons, offer the Navy and Marine 
Corps game-changing capabilities and speed-of-light 
engagements, deep magazines, multimission functionality, and 
affordable missions. Laser weapons have very low engagement 
costs. Right now, today, the one we are going to put on the USS 
Ponce is under a dollar, under a U.S. dollar for one round of 
pulsed energy. We think that is critical in our current fiscal 
environment. We really do. They are capable of defeating 
adversarial threats, including fast boats, UAV's, low-cost 
widely available weapons. Our laser weapon system that you are 
going to see this summer on the ship out in the gulf leverages 
advancements in commercial technology for use in a rugged, 
robust, prototype laser weapon capable of identifying, 
illuminating, tracking, and lasing the enemy's surface and air 
threats. The Navy is installing the LaWS system on the Ponce  
in the Arabian Gulf this year. That harsh operationally 
important environment we think will provide a real ideal 
opportunity for us to evaluate long-term system performance. 
The LaWS has every potential for extraordinary success. We have 
never missed yet on all of our targets, and in terms of 
fielding an effective and affordable system for our marines and 
sailors, we think it is an ideal concept.
    There is also another one. The electromagnetic railgun is 
similarly poised to provide game-changing, disruptive 
capabilities for our long-range land attack, ballistic and 
cruise missile defense, and anti-surface warfare against ships 
and small boats. Fired by an electric pulse, no gunpowder, that 
railgun has the potential to launch a projectile over 110 
nautical miles at a speed of over Mach 7. The projectile itself 
development is currently well underway, and the barrel life 
that we have for these guns is well on its path for over 1,000 
shots for each barrel. Current research is focused on improving 
and increasing the repetition rate of that fire and that 
capability for multiple rounds per minute, and those 
developments are certainly available to your staffs.
    We also think the pulse power that comes to feed that gun 
is also well on its way and it is making tremendous progress 
also.
    The development tests that are ongoing right now at the 
Naval Surface Warfare Center in Dahlgren that I alluded to 
earlier is also at NRL, nearby in Anacostia. And along with 
those evaluations and the test results we have performed and 
saw thus far, we see this as an integration into some of our 
new and existing naval vessels and platforms. As a matter of 
fact, we are so confident, we are going to put that on one of 
our joint high speed vessels here in 2016 for just checking out 
integration.

                           PREPARED STATEMENT

    We will continue to duplicate these kinds of successes in 
other S&T areas with our innovative research and disrupted 
thinking, always trying to make our existing systems more 
effective and affordable while improving acquisition programs. 
Our research is both exhilarating and unpredictable. We balance 
a range of complementary but competing research initiatives and 
coordinate with my colleagues and support advances in 
established operational areas while also sustaining far-
reaching, long-term efforts that may prove disruptive to 
traditional operational concepts.
    I thank you again for your support and look forward to 
answering any questions. Thank you.
    [The statement follows:]
         Prepared Statement of Rear Admiral Matthew L. Klunder
                              introduction
    It is an honor to report on Department of the Navy (DoN) Science 
and Technology (S&T) and discuss how the President's fiscal year 2015 
Budget supports the Navy and Marine Corps (USMC). The fiscal year 2015 
Budget requests approximately $2 billion for Naval S&T. The Navy and 
Marine Corps use S&T to enable the Fleet/Force to maintain the 
technological edge necessary to prevail in any environment where we may 
be called to defend U.S. interests. We work with the Secretary of the 
Navy (SECNAV), Chief of Naval Operations (CNO) and Commandant of the 
Marine Corps (CMC) to balance the allocation of resources between near-
term technology development and long-term research. We strive to 
improve affordability, communication with the acquisition community, 
and engage with stakeholders.
                 science and technology strategic plan
    The Naval S&T Strategic Plan guides our investments and is 
regularly updated by Navy and USMC leadership to validate alignment of 
S&T with current missions, leadership priorities, and future 
requirements. It ensures S&T has long-term focus, meets near-term 
objectives, and makes what we do clear to decision makers, partners, 
customers and performers. The Plan identifies nine areas that help to 
focus S&T to meet Navy/USMC needs: (1) Assure Access to Maritime 
Battlespace, (2) Autonomy and Unmanned Systems, (3) Expeditionary and 
Irregular Warfare, (4) Information Dominance, (5) Platform Design and 
Survivability, (6) Power and Energy, (7) Power Projection and 
Integrated Defense, (8) Total Ownership Cost, and (9) Warfighter 
Performance. Our goal is to move from existing systems and concepts of 
operations toward a warfighting capability to counter predicted threats 
in an increasingly complex and uncertain environment. Beginning with 
the evolution of current systems through incremental improvement and 
spiral development of known technology, we move toward exploiting yet-
to-be-discovered, disruptive, game-changing technologies. The S&T 
Strategic Plan and focus areas are currently under review and will be 
updated in the near future.
                       implementing the strategy
    Based on time-to-delivery and specification of need, Naval S&T can 
be viewed as fitting into four primary areas--Discovery and Invention 
(D&I), Leap Ahead Innovations (Innovative Naval Prototypes/INP), 
Acquisition Enablers (Future Naval Capabilities/FNC), and a Quick 
Reaction capability to respond to emerging requirements. Our S&T 
portfolio balances a range of complementary but competing initiatives 
by supporting advances in established operational areas--while 
sustaining long-term research that may prove disruptive to traditional 
operational concepts.
                        discovery and invention
    Discovery and Invention (D&I) includes basic research (6.1) and 
early applied research (6.2) in areas essential to Naval missions, as 
well as emerging areas with promise for future application. D&I 
develops fundamental knowledge, provides a basis for future Navy/Marine 
Corps systems, and sustains our Scientist/Engineer workforce. D&I 
develops knowledge from which INP, FNC, and Quick Reaction efforts are 
generated and is the foundation for advanced technology.
    Approximately 45 percent of ONR investments are in D&I, with 
roughly 60 percent of that total executed by academic and non-profit 
performers. D&I is peer reviewed by outside experts who independently 
assess scientific merit--and overseen by ONR program officers and 
senior leadership. Investment decisions are guided by risk, impact, 
significance, originality, principal investigator, and budget 
resources.
    ONR's University Research Initiative (URI) includes the 
Multidisciplinary University Research Initiative (MURI), the Defense 
University Research Implementation Program (DURIP), and the 
Presidential Early Career Award for Scientist and Engineers (PECASE). 
MURI supports teams of researchers investigating topics that intersect 
multiple technical disciplines. DURIP provides grants for the purchase 
of instrumentation necessary to perform research essential to the Navy. 
PECASE recognizes achievements of young scientists/engineers and 
encourages them to explore professions in academia and Naval 
laboratories. The Basic Research Challenge funds promising research not 
addressed by ONR's core program. The Young Investigator Program 
supports scientists and engineers with exceptional promise for Naval 
research. Research opportunities for undergraduate and grad students, 
fellows, and future faculty members are provided by the Naval Research 
Enterprise Internship Program (NREIP), where participants work at Naval 
laboratories and warfare centers. The In-House Laboratory Independent 
Research (ILIR) and Independent Applied Research (IAR) programs sponsor 
critical research, while furthering the education of scientists and 
engineers at warfare centers. ONR also brings Historically Black 
Colleges and Universities and Minority Institutions (HBCU/MI) together 
with Naval laboratories and warfare centers to give students hands-on 
experience in the Naval research environment.
    Supporting warfighters depends on our Science, Technology, 
Engineering and Mathematics (STEM) workforce--but that workforce is 
aging. With half of Navy science and engineering professionals 
retirement eligible by 2020, we face an acute shortfall in our Naval 
engineering, computer science and ocean engineering workforce. 
Production of engineers has been flat for two decades, and less in 
specialty fields. A complicating factor is that DoN must rely on U.S. 
citizens for classified work; the number of U.S. citizen STEM graduates 
will not keep up with domestic or international competition for the 
same talent. ONR evaluates STEM investments with metrics tailored to 
measure numbers of students and teachers, overall impact, and overall 
ability to achieve Naval requirements in coordination with other 
Federal STEM programs.
          leap ahead innovations (innovative naval prototypes)
    Innovative Naval Prototypes (INP) total about 12 percent of the S&T 
budget. INPs are high-risk/high-payoff opportunities from D&I that are 
discontinuous, disruptive departures from established requirements and 
operational concepts that can dramatically change the way Naval forces 
fight, while reducing acquisition risk. Overseen by the Naval Research, 
Development, Testing and Evaluation (RTD&E) Corporate Board 
(Undersecretary of the Navy; Assistant Secretary of the Navy for 
Research, Development and Acquisition (ASN-RDA); Vice CNO; Assistant 
CMC; Director of Innovation, Test, and Evaluation and Technology 
Requirements; Deputy Assistant Secretary of the Navy for RDT&E; and 
Deputy Under Secretary of the Navy for Plans, Policy, Oversight and 
Integration), the goal is to prove concepts and mature technology in 4-
7 years, allowing informed decisions about risk reduction and 
transition to acquisition programs. INP Program Managers and Deputies 
are from ONR and the acquisition community.
    INPs include:

    Integrated Topside (InTop) will enable the Navy to operate freely 
        in the electromagnetic spectrum while denying adversaries' 
        ability to do the same through development of multi-beam, 
        multi-function ultra-wideband apertures and Radio Frequency 
        (RF) equipment for all ship classes. We are developing 
        Electronic Warfare, Information Operations, Radar, Satellite, 
        and Line of Sight Communications using: (1) open architecture 
        RF hardware/software to enable a broad industrial base to 
        contribute to development of affordable systems, and (2) 
        modular systems to enable technology to be scalable across Navy 
        platforms and reduce logistics, training, and maintenance 
        costs. We continue prototype tests/demonstrations with testing 
        by the Naval Undersea Warfare Center (NUWC) for submarine 
        Satellite Communications (SATCOM) and by the Naval Research 
        Laboratory (NRL) for the Surface Electronic Warfare Improvement 
        Program (SEWIP). Accomplishments include over the air testing 
        of the Submarine Wideband SATCOM Antenna transmitter, 
        integration of all antennas and electronics for the Electronic 
        Warfare/Information Operations/Line of Sight Communications 
        Advanced Development Model, building the Low Level Resource 
        Allocation Manager, and award of the Flexible Distributed Array 
        Radar contract.

    The Large Displacement Unmanned Undersea Vehicle (LDUUV) program is 
        developing a reliable, fully autonomous, long endurance UUV 
        capable of extended operation (60+ days) in cluttered littoral 
        environments. The program has already built three vehicles and 
        is developing the energy, autonomy and core systems to operate 
        in a complex ocean environment near harbors, shorelines, and 
        other high traffic locations. Key goals include doubling 
        current air-independent UUV energy density, using open 
        architecture to lower cost, and enabling full pier to pier 
        autonomy in over-the-horizon operations. Achieving these goals 
        will reduce platform vulnerability, enhance warfighter 
        capability and safety, and close gaps in critical and complex 
        mission areas by extending the reach of the Navy into denied 
        areas.

    The Autonomous Aerial Cargo/Utility System (AACUS) is developing 
        intelligent, autonomous capabilities for rapid, affordable, 
        reliable rotorcraft supply in permissive, hostile and GPS-
        denied settings. AACUS-enabled aircraft will be supervised by 
        field personnel from a handheld device. Challenges include 
        dynamic mission management and contingency planning, as well as 
        landing execution and obstacle avoidance. AACUS has already 
        demonstrated numerous successful flights and is designed for 
        open system architecture to promote modularity and 
        affordability. It could be used in logistics missions, Casualty 
        Evacuation (CASEVAC), combat rescue, and humanitarian aid 
        missions. S&T partners include the Air Force, Army, USMC, 
        National Aeronautics and Space Administration (NASA), Naval Air 
        Systems Command (NAVAIR), and other academic, private sector, 
        and government organizations.

    The Electromagnetic Railgun (EMRG) has multi-mission potential for 
        long-range land-attack, ballistic and cruise missile defense, 
        and anti-surface warfare against ships and small boats. Fired 
        by electric pulse, Railgun eliminates gun propellant from 
        magazines resulting in greater resistance to battle damage. 
        Since 2005, launch energy has advanced by a factor of 5 (to 32 
        mega joules) with potential to launch projectiles 110 nautical 
        miles. Projectile design is underway, with early prototype 
        testing, component development, and modeling and simulation.

    Barrel life has increased from tens of shots to over 400, with a 
        program path to achieve 1000 shots. Advanced composite 
        launchers have been strength tested to operational levels. 
        Physical size of the pulsed power system was reduced by a 
        factor of 2.5 through increased energy density so the system 
        will fit in current and future surface combatants. Current 
        research is focused on a rep-rate capability of multiple rounds 
        per minute which entails development of a tactical prototype 
        gun barrel and pulsed power systems incorporating advanced 
        cooling techniques. Components are designed to transition 
        directly into prototype systems now being conceptualized. ONR 
        is working with Naval Sea Systems Command (NAVSEA) and the 
        Office of the Secretary of Defense (OSD) Strategic Capabilities 
        Office to ensure commonality and reduce the need for expensive 
        redesign. Developmental tests are ongoing at Naval Surface 
        Warfare Center, Dahlgren and NRL, along with evaluations of 
        integration into new and existing Naval platforms.

    Electromagnetic Railgun testing aboard a Joint High Speed Vessel 
        (JHSV) will begin in 2016 and utilize components largely in 
        common with those developed and demonstrated at Dahlgren. At-
        sea testing is one of the critical events planned in coming 
        years to demonstrate multi-mission capability. At-sea tests 
        capture lessons learned for incorporation into a full future 
        tactical design and allow us to understand any potential 
        modifications before fully integrating the technology on our 
        ships. Further, it will gather data to support design for 
        reliability and sustainability related to Railgun operation in 
        a marine environment.

    Finally, although similarly high-risk and disruptive, SwampWorks 
        programs are smaller than INPs and intended to produce quick 
        results in 1-3 years. SwampWorks efforts have substantial 
        flexibility in planning and execution, with a streamlined 
        approval process. Formal transition agreements are not 
        required, but SwampWorks programs have advocates outside ONR, 
        either from the acquisition community or Fleet/Force. 
        SwampWorks products are frequently inserted into Fleet/Force 
        experimentation.
                        directed energy roadmap
    Development and ship integration of energy-intensive systems such 
as Directed Energy Weapons (DEW) (e.g. high-energy lasers (HEL) and 
High Powered Radio Frequency (HPRF)) and EMRG requires careful 
engineering. Shipboard integration considerations include space, 
weight, power, cooling, stability, impact on combat systems, fire 
control, and interfaces. Technical maturity and integration will be 
accomplished through a measured approach to allocation of ship services 
and interface with ship systems.
    Navy's near-term focus is on a Solid State Laser Quick Reaction 
Capability (SSL-QRC), which will field a prototype system based on the 
Laser Weapon System (LaWS), and the Solid State Laser Technology 
Maturation (SSL-TM) program. The Navy plans to deploy SSL-QRC (LaWS) to 
the Persian Gulf aboard USS PONCE in 2014 to demonstrate the ability to 
meet gaps in ship self-defense against armed fast boats and unmanned 
aerial vehicle threats. Navy is also investigating the use of non-
lethal HPRF technologies for vessel stopping and counter UAS. 
Development continues on Free Electron Laser technologies for long-term 
solutions requiring power levels beyond that which Solid State Lasers 
can deliver.
    SSL-TM will help determine the load capacity and most effective 
means to integrate a HEL on surface ships such as DDG-51 and the 
Littoral Combat Ship. The SSL-TM goal is to demonstrate a 100-150 
kilowatt Advanced Development Model (ADM) by 2016. The program will 
address technical challenges in rugged laser subsystems, optics 
suitable for maritime environments, and capability to propagate lethal 
power levels in the maritime atmosphere. The SSL-TM prototype will be 
sufficiently mature to commence an acquisition program of record.
    Progress on technologies covered in the Naval DE Roadmap efforts 
(HEL, HPRF) and EMRG are projected to result in capabilities that meet 
future requirements. As part of the Navy's Two-Pass Six-Gate review 
process for major acquisition programs, a Gate 6 Configuration Steering 
Board (CSB) is conducted annually for each ship class. Once a DEW 
achieves maturity, the CSB reviews technology, requirements, and cost 
to determine if transitioning to acquisition program and incorporation 
in a ship class is warranted. If warranted, the CSB determines on which 
hull the technology will be incorporated. For technology that provides 
significant capability but also significant installation impact to a 
ship, cost/benefit will be weighed against installation during new 
construction. If the installation impact is less, the technology could 
be included as part of a back fit or post-delivery installation.
    In 2013, NAVSEA developed the Naval Power Systems Technology 
Development Roadmap (NPS TDR). NPS TDR aligns power system developments 
with warfighter needs, including DEWs and energy-intensive weapons and 
sensors for shipboard use, to ensure that future ships are capable of 
accepting power and cooling loads of such systems as they are 
developed. The roadmap addresses new construction integration and back 
fit of technologies for ships in service. NPS TDR is adapted to 
evolving requirements from weapons and sensor system developments, as 
well as changes in the Navy's 30-year shipbuilding plan, and will be 
updated every 2 years. NPS TDR introduced the concept of an Energy 
Magazine to provide the required power from the ship's electrical 
system and interface with high powered weapons and sensors. The Energy 
Magazine will initially support near-term applications, such as HEL, on 
a legacy platform. As new systems become available, the Energy Magazine 
can be expanded to accommodate multiple loads by providing the 
appropriate power conversion and energy storage.
    The Naval Directed Energy Steering Group is currently drafting a 
Naval DE roadmap based on the Naval DE Vision and Strategy to establish 
goals, principles, priorities, roles, responsibilities, and objectives 
regarding acquisition and fielding of DEWs by the Navy and Marine 
Corps. This roadmap will address the way ahead for platform 
requirements, as well as power and cooling necessary to support these 
systems.
            acquisition enablers (future naval capabilities)
    Acquisition Enablers (AE) are the critical component of our 
transition strategy. AE consists of our Future Naval Capabilities (FNC) 
program, USMC Advanced Technology Development (6.3) funds, Joint Non-
Lethal Weapons Directorate (6.3) funds, the Manufacturing Technology 
(ManTech) program, and Low Observable, Counter Low Observable funds.
    FNCs are near-term (2-4 year), requirements-driven, delivery-
oriented S&T projects. FNCs deliver mature technologies to acquisition 
sponsors for incorporation into systems that provide new capabilities. 
FNCs use a collaborative process involving requirements, research, 
acquisition, and Fleet/Force communities to align this part of the S&T 
portfolio with Naval Capability Gaps identified by the Office of the 
Chief of Naval Operations (OPNAV) and the Marine Corps Combat 
Development Command (MCCDC). A gap is any capability required to 
achieve Naval objectives that is not achievable with current platforms, 
weapon systems, doctrine, organizational structure, training, 
materials, leadership, personnel or facilities and requires S&T 
investment to solve or overcome. Capability Gaps define the 
requirement, not how to meet it.
    FNCs are aligned to functional areas called ``Pillars'': Sea 
Shield, Sea Strike, Sea Basing, FORCEnet, Naval Expeditionary Maneuver 
Warfare, Capable Manpower, Force Health Protection, Enterprise and 
Platform Enablers, and Power and Energy. FNC projects address specific 
gaps in each of those areas, with final prioritization approved by a 3-
Star Technology Oversight Group (TOG) representing OPNAV, Marine Corps, 
U.S. Fleet Forces Command, ASN-RDA, and ONR. FNCs are based on D&I 
investments where technology can be matured from Technology Readiness 
Level (TRL) 3 to TRL 6 in 3-5 years. Selection takes account of related 
work in the Department of Defense (DOD), government agencies, industry 
and Naval centers of excellence. Our investments focus on the most 
pressing gaps, with funding changes based on successful transitions, 
reprioritization, new starts, and evolving Naval needs. As FNC products 
mature, Technology Readiness Levels (TRL) change, moving products from 
6.2 to 6.3 PEs. Year one is mostly 6.2; the final year mostly 6.3--with 
a mix of 6.2/6.3 between. As FNC products transition from S&T to 
Advanced Component Development and Prototypes (6.4) and Engineering and 
Manufacturing Development (6.5), responsibility for continued 
development shifts from ONR to acquisition commands.
    Approved FNC products have Technology Transition Agreements to 
document the commitment of the resource sponsor, acquisition program, 
and ONR to develop, deliver and integrate products into new or upgraded 
systems. Every product is measured by technical and financial 
milestones. All products must meet required transition commitment 
levels for S&T development to continue. Products that no longer have 
viable transition paths are terminated with residual funding used to 
solve problems with existing projects, or start new projects in 
compliance with Navy priorities, charters, business rules and 
development guidelines. The measure of success is whether projects meet 
technology requirements and exit criteria, and whether acquisition 
sponsors have transition funds in programs to accept and integrate FNC 
products. The transition status of FNC products is actively monitored 
on an annual basis, with products terminated if the S&T is failing or 
the transition plan is no longer viable. Through the end of fiscal year 
2013, 216 FNC products completed S&T development (a success rate of 84 
percent), with 41 FNC products terminated before completion.
    Results are evaluated by a Transition Review Board (TRB) consisting 
of Naval Reserve Officers representing Requirements, Acquisition and 
S&T communities. The TRB provides an objective, independent assessment 
of FNC products after successful transition or termination, analyzing 
the causes and residual value of unsuccessful transitions and 
deployments. Even in case of products which do not deploy, there is 
significant residual value in technology that can be leveraged for 
follow-on S&T efforts and made available for future transitions. 
Nothing goes to waste.
                           quick reaction s&t
    ONR maintains quick-reaction capability for projects lasting 12-24 
months that respond to immediate requirements identified by Fleet/Force 
or Naval leadership. TechSolutions provides short-term solutions to 
immediate operational and tactical requirements. Accessible via 
Internet and SIPRnet, TechSolutions accepts recommendations from 
Sailors and Marines about ways to improve mission effectiveness through 
the application of technology. TechSolutions uses rapid prototyping to 
meet specific requirements, with each project structured around 
definable metrics, and appropriate acquisition/test systems by 
integrated product teams. While neither a substitute for the 
acquisition process, nor a replacement for systems commands, 
TechSolutions prototypes deliver solutions to address immediate needs 
that can be easily transitioned to the Fleet/Force.
    Technology development often occurs faster than DOD Planning, 
Programming, Budgeting and Execution (PPBE) can respond. Our Technology 
Insertion for Program Savings (TIPS) program provides current-year 
funding (inside the PPBE process), eliminating time lag in the PPBE 
cycle. TIPS provides up to $2 million for development efforts taking no 
more than 2 years, coupled with Fleet/Force support and resource 
sponsor commitment to fund moving the technology into the acquisition 
Program of Record (POR) or operating system. TIPS focuses on 
improvements that substantially reduce operating and support costs for 
warfighting systems.
    In partnership with ONR, Naval Warfare Development Command (NWDC), 
Naval Postgraduate School, Naval War College and Marine Corps 
Warfighting Lab (MCWL) assess new warfighting concepts and 
technologies. Initiatives in support of our maritime strategy are 
applied, tested, analyzed and refined through war games, exercises, 
experiments and operational lessons learned.
 government accountability office (gao) report on technology transition
    In the March 2013 Government Accountability Office Report, 
``DEFENSE TECHNOLOGY DEVELOPMENT: Technology Transition Programs 
Support Military Users, but Opportunities Exist to Improve Measurement 
of Outcomes (GAO-13-286),'' GAO reported:

    ``. . . the Office of Naval Research (ONR) has a well-established 
        technology transition focus. ONR's Office of Transition manages 
        the Future Naval Capabilities (FNC) portfolio, which is the 
        Navy's largest transition program--for which nearly $450 
        million was budgeted in fiscal year 2013. The program, which 
        was initiated in 1999, seeks to provide the best technology 
        solutions to address operational requirements, delivering 
        technology products to acquisition programs that enhance 
        capabilities within a 5-year timeframe. ONR's Offices of 
        Transition and Innovation also support rapid technology 
        transition to the fleet, force, and acquisition communities via 
        the Rapid Technology Transition (RTT), Technology Insertion 
        Program for Savings (TIPS), TechSolutions (TS), and SwampWorks 
        and Experimentation (SW/Exp) programs.'' (p. 9)

    GAO said, ``The Navy uses a Transition Review Board to monitor 
        completed projects from the Future Naval Capabilities, Rapid 
        Technology Transition, and Technology Insertion Program for 
        Savings programs. The board determines and reports on whether 
        transitioned projects are utilized in systems that support Navy 
        warfighters. The Navy determined, for example, that of the 155 
        technology products the Future Naval Capabilities program 
        delivered to acquisition programs between fiscal years 2006-
        2011, 21 percent were subsequently deployed to fleet forces, 35 
        percent were still with the acquisition programs, and 44 
        percent failed to deploy. For projects that do not successfully 
        deploy, the board assesses whether there are other benefits 
        achieved, such as technologies leveraged for follow-on S&T 
        work. The board also identifies obstacles to transition, such 
        as loss of interest by the user or inadequacy of funding. These 
        findings, along with a detailed one-page summary for each 
        project, are then used to inform the Navy's annual review 
        process. We found that by maintaining this level of tracking, 
        the Navy is better aware of the benefits and obstacles 
        associated with a substantial portion of their S&T portfolio, 
        which may better inform decisions made by Navy leadership.'' 
        (pp. 21-22)

    GAO continued, ``At the program level, many program officials 
        indicated that senior leadership engagement, particularly in 
        providing oversight for projects through to transition, is 
        essential to having an effective program. We found the Future 
        Naval Capabilities program provides a good example of senior 
        leadership positively affecting project management activities. 
        Specifically, due to funding constraints in its fiscal year 
        2013 S&T budget, Navy senior leadership supported the 
        termination of ongoing Future Naval Capabilities projects that 
        were determined to be lower priorities so that new, higher 
        priority projects could be pursued. Navy officials stated that 
        this type of awareness and understanding at senior levels 
        enables the Future Naval Capabilities program to make efficient 
        decisions that are less likely to meet resistance and that 
        support the highest priority projects being developed for 
        transition opportunities. (p. 25)

    ``Several transition programs also emphasized the relationship 
        between ``working-level'' stakeholders--S&T developers and 
        acquisition programs or warfighters in the field--when 
        discussing the keys to technology transition. These 
        stakeholders manage expectations throughout a project and 
        ensure it will meet user needs. This reduces the risk of 
        completed projects languishing because funding is not available 
        or because user requirements have changed, or both. Some 
        programs that we reviewed use integrated product teams, which 
        may be composed of individuals representing the requirements, 
        acquisition, operational, and S&T communities, among others, to 
        facilitate continuous communication with stakeholders and 
        ensure that transition planning is on track. In the case of the 
        Navy, integrated product teams identify capability gaps, 
        provide input on which S&T projects may address those gaps, 
        assess project progress, make sure transition strategies remain 
        valid, and confirm funding is aligned to support transition. 
        According to Navy officials, the results of integrated product 
        team efforts also support information sharing across senior- 
        and working-level stakeholders to validate development status 
        and transition planning activities.'' (pp. 25-26)

    GAO concluded, ``We found the Future Naval Capabilities program 
        uses technology transition agreements as management tools to 
        increase the level of documented commitment as a project 
        progresses over time. To accomplish this, the program has three 
        levels for agreements that reflect the requisite knowledge 
        available at different phases of a project. Key elements of an 
        initial agreement include a basic project description, 
        identification of initial exit criteria, a high-level 
        integration strategy, and a likely transition funding source. 
        As a project progresses, the other two levels of agreement 
        require increasing commitment and specificity of requirements 
        from stakeholders to develop, deliver, and integrate a Future 
        Naval Capabilities project into an acquisition program or other 
        form of deployment. Key elements of the second and third tier 
        agreements involve refining and finalizing project 
        descriptions, detailing exit criteria, providing greater 
        specificity about the integration strategy, and providing 
        estimates for transition costs and eventually executing 
        transition funding. Stakeholders review the agreements annually 
        to revalidate the commitments laid out within the document. 
        (p.27)

    ``We also found Transition Commitment Level (TCL) assessment tools 
        . . . offer another means of validating that transition 
        programs are investing in projects that have a firm transition 
        commitment from prospective users. These tools provide 
        scorecards that chart how well-defined the fundamental 
        characteristics that support a strong commitment to transition 
        projects are at a given point in time. The Future Naval 
        Capabilities program uses a single TCL tool that documents 
        level of transition commitment from project start to 
        completion.'' (p.27)
                             s&t highlights
    The Naval S&T portfolio includes a range of projects and programs 
entering or about to enter the Fleet/Force. Examples follow.
         expeditionary maneuver warfare and combating terrorism
    Marine expeditionary forces are forward-deployed and forward-based, 
right-sized to respond to missions across the range of military 
operations from combat to Humanitarian Assistance and Disaster Relief 
(HADR). This is best achieved by a Middleweight Force which can launch 
from the sea and project power in sophisticated anti-access, area-
denial (A2/AD) environments. The imperative to lighten the load for 
every Marine and the Marine Air-Ground Task Force (MAGTAF) is critical, 
requiring research in technologies that increase speed, agility and 
range, develop advanced materials for lighter body armor, helmets and 
eye protection, while reducing fuel consumption and vulnerability to 
Improvised Explosive Devices (IEDs) and mines. We develop over-horizon, 
beyond line-of-sight, restricted environment communications, and 
adaptable sensor systems to detect, classify, identify, locate and 
track low level entities in urban clutter, improve situational 
awareness, and enhance real time tactical decisionmaking.
    Improving resilience of Marines enables them to more effectively, 
efficiently observe, orient, decide and act (OODA) in complex, 
stressful conditions. We explore technologies to provide autonomous 
logistics, and enhance fuel, water and maintenance self-sufficiency. 
On-demand, reduced logistics enable a high operational tempo, and allow 
the Corps to out-maneuver and dominate any enemy. Marines out-perform 
and out-think enemies by understanding battlespace in greater detail, 
making decisions with greater understanding of enemy intent, and 
getting inside the enemy decision cycle. To achieve this, ONR created a 
small unit leader training framework based on codified learning models 
and theories to deliver technology and knowledge products for the USMC 
Training and Education Command (TECOM) that maximizes learning and 
skill acquisition at minimal cost. We invest in S&T to improve training 
efficiency based on cutting-edge, neuro-cognitive, psychologically-
driven instructional strategies that enable Sailors and Marines to 
survive the brutal environment of combat, as well as retain emotional 
and mental health after they leave the traumatic environment.
    Current S&T investments include projects to improve On-Board 
Vehicle Power, Advanced Remanufacturing and Sustainment Technologies, 
and Internally Transportable Vehicle Autonomy Conversion. Force 
Protection projects include development of Personal Protection 
Technologies, On-The-Move Detection-of-Threat Optics, the Modular 
Explosive Hazard Defeat System (MEHDS), and Ground Based Air Defense 
(On-the-Move). Fires projects (Advanced Ammunition and Energetics) 
include an Integrated Day-Night Sight, the High Reliability DPICM (Dual 
Purpose Improved Conventional Munition) Replacement Program, and High 
Performance Alloys for Weapons. Logistics applications will improve 
Pallet Handling and Packaging, a JP-8 Solid Oxide Fuel Cell, and 
Autonomous Resupply technology. Human Performance, Training and 
Education investments will provide an Advanced Training System for 
Small Unit Decision-Making, and Training to Optimize Use of Resilience 
Skills (TOURS). Finally, Intelligence, Surveillance and Reconnaissance 
projects include Night Wide Area Augmentation System (WAAS), Entity 
Disambiguation, and Semantic Web enablement to enhance mission-centric 
knowledge generation and delivery. Our S&T efforts are undertaken hand-
in-glove with the Marine Corps Warfighting Laboratory at Quantico, 
Virginia, whose mission is to rigorously explore and assess Marine 
Corps concepts using an integral combination of war-gaming, concept-
based experimentation, technology assessments, and analysis to 
validate, modify or reject the concept's viability, and identify 
opportunities for future force development.
command, control, communications, computers, intelligence, surveillance 
                       and reconnaissance (c4isr)
    The proliferation of anti-access, area-denial (A2/AD) capabilities 
among potential adversaries drives the need for technologies that 
assure access for Naval forces. Our challenges include the requirement 
to project power despite A2/AD challenges and to provide information 
dominance to the warfighter.
    Improved decisionmaking is central to the Navy's S&T plan to 
provide information dominance to the warfighter. One goal is to develop 
a highly flexible, open architecture, information and decisionmaking 
capability with applications enabling operational and tactical forces 
to function with the same distributed information base across all 
warfare and mission areas. Information gathering and analysis will be 
largely automated and autonomously controlled so warfighters can have 
more time to make decisions and execute plans. A key aspect of this is 
our use of the electromagnetic spectrum for dominance, while denying 
the same to our adversaries. To this end ONR, Navy, and the other 
services are working to deliver hardware and software to support 
electromagnetic spectrum dominance in the near and far term. 
Capabilities are in various stages of maturity and deployment.
    ONR developed software to evaluate effectiveness of new Electronic 
Warfare countermeasures. When the Fleet identified a requirement to 
improve threat awareness and assess vulnerability to anti-ship cruise 
missiles using organic Electronics Support Measures (ESM) sensors and 
radar, ONR used the same software to address the new requirement by 
developing a Human-Machine Interface (HMI), installing it on ships, and 
deploying scientists to make the new HMI sailor friendly. This gave the 
Task Force a clearer picture of ESM effectiveness and vulnerabilities 
relative to current sensors, weather, and threats--allowing them to 
reassign sensor coverage and move platforms to reduce vulnerabilities.
    The Joint Counter Radio Controlled Improvised Explosive Device 
Electronic Warfare (JCREW) effort is developing flexible, dynamic 
system architecture to detect IED signals across the entire spectrum 
and provide automated responses. Unlike current technology, JCREW is 
designed to allow detection and communication systems to operate 
simultaneously.
                       ocean battlespace sensing
    To continue to dominate in the maritime environment Naval forces 
must be able to accurately predict and adapt to ocean, air, littoral 
and riverine environments on both tactical and strategic levels. Recent 
changes in climate conditions and extremes have created an emerging 
need for more accurate and longer range forecasts for DOD and Naval 
operations. In support of the Navy's Task Force Climate Change, the 
National Oceanographic Partnership Program, and in partnership with the 
Air Force, Department of Energy, National Aeronautics and Space 
Administration, National Oceanic and Atmospheric Administration, and 
National Science Foundation (NSF), we invest in S&T to provide mobile 
autonomous environment sensing, match predictive capability to tactical 
requirements, develop systems that adapt to environmental variability, 
and integrate atmospheric and ocean models to enable better 
forecasting. Additional investments will provide a better understanding 
of surface wind impact on upper ocean dynamics and energy fluxes across 
ocean boundary layers, increase knowledge of high latitude Arctic 
environments, and enhance our ability to forecast operational 
conditions with longer lead times. The payoff is safer, more efficient 
Naval operations in maritime environments through improved immediate, 
seasonal and longer range forecasts.
    ONR's environmental research is heavily field-oriented, employing 
oceanographic ships, aircraft, and autonomous air and undersea 
vehicles. For example, the Navy owns six University-National 
Oceanographic Laboratory System (UNOLS) Ocean Class Research Vessels 
that ONR schedules and supports in partnership with NSF. Construction 
of two replacement vessels is underway, with Auxiliary General 
Oceanographic Research Ship (AGOR) 27--Research Vessel (R/V) Neil 
Armstrong assigned to Woods Hole Oceanographic Institution, and AGOR 
28--R/V Sally Ride assigned to Scripps Institution of Oceanography. 
Both are expected to begin research operations in fiscal year 2015.
    In addition, we are developing rapid, standoff mine countermeasures 
to support unencumbered maneuver of combatants, assure access, ensure 
strategic mobility and sustainment, decrease mine countermeasure (MCM) 
hazards, and increase the standoff range of combatants from minefields. 
ONR experiments with sensing and autonomy technologies help small 
vessels to operate at night, in all weather, at higher speeds, and with 
less risk over large, poorly mapped riverine systems. Our Advanced 
Undersea Weapon System (AUWS) will deliver targeting sensors and 
remotely controllable or autonomous weapons into chokepoints or 
channels to neutralize maritime threats. ONR's Advanced Sonar 
Technology for High Clearance Rate MCM in the surf and autonomous 
minehunting payloads for Unmanned Surface Vehicles (USV), reduce 
timelines for detecting, identifying and clearing floating, drifting, 
moored and bottom mines in shallow water.
    ONR supports research in acoustic propagation and scattering to 
improve anti-submarine wide area surveillance, detection, localization, 
tracking, and attack capabilities against adversary submarines in 
noisy, cluttered shallow water environments. We provide S&T to mitigate 
effects of acoustic systems on marine mammals, to improve probability 
of kill for undersea weapons, and to enable new undersea weapon 
concepts of operation. Projects include the Remote Aerial Sonar and 
Communications Laser (RASCL), Affordable Compact Bow Sonar for large 
deck surface ships, holding threat submarines at risk in forward areas, 
screening transiting battle groups, and providing torpedo defense for 
ships.
                        sea warfare and weapons
    ONR's major focus in this area is to improve surface, submarine, 
ground, and air platforms, as well as undersea weapon performance. S&T 
investments provide options for advanced electrical systems and 
components, and for survivable, agile, mobile, sustainable, manned and 
unmanned, surface and sub-surface sea platforms, and undersea weapons. 
Significant investments provide S&T to improve performance and 
affordability of the Nation's strategic submarine assets under the Ohio 
Replacement Program (ORP), as well as Virginia-class submarines. Our 
Electric Ship Research and Development Consortium enlists academic 
institutions to develop electric power architectures and technologies 
to enable use of next generation high power sensors and weapons, 
including directed energy weapons (DEW) systems described earlier. 
Investments encompass projects to transition S&T necessary to improve 
performance and capabilities of our current fleet of torpedoes, 
undersea weapons and vehicles, as well as effective countermeasures and 
defensive weapons to protect against undersea weapon threats. Undersea 
vehicle S&T includes research, development and deployment of long-
endurance, air-independent power systems for unmanned undersea vehicles 
(UUVs). Additionally, we utilize extensive experience in surface craft 
design and autonomy to provide the Fleet with unmanned surface vessels 
(USVs) capable of operating effectively in a range of marine 
environments.
    A key enabler of these Sea Warfare and other capabilities is S&T 
investment in naval materials. These investments focus on performance 
and affordability of advanced materials for applications such as 
lightweight structures, corrosion and biofouling mitigation, 
maintenance cost-reduction, undersea acoustics, and energy- and power-
dense electrical energy conversion and storage. These efforts explore 
and apply fundamental materials physics to discover and engineer future 
materials meeting warfighting platform demands now and in the future. 
Consistent with this approach, our investment in Integrated 
Computational Materials Engineering is a key contributor to the 
recently established Lightweight and Modern Metals Manufacturing 
Initiative (LM3I).
                         warfighter performance
    Warfighter Performance S&T addresses the full range of research 
issues involving human system interactions, medical and biological 
systems, and supports the SECNAV mission of protecting the safety and 
privacy rights of human research subjects.
    Human system research helps the DoN recruit the right people, 
assign them to the right jobs, while ensuring they have the right 
skills in safe systems that are designed to support effective 
decisionmaking and collaboration. Our S&T investments in this area 
helps improve small team, platform, task force, and battle group 
operations by developing training technology and decision support 
systems that accommodate human capabilities and limits. ONR initiatives 
include simulation-based approaches to fleet integrated, multi-
platform, multi-mission training and experimentation that enable near-
real time collaboration, decisionmaking and planning across platforms 
and organizations.
    Warfighter performance goals are to enhance performance, improve 
the timeliness and quality of decisionmaking, develop strategies to 
mitigate workload, resolve ambiguity, and reduce workload and manning, 
while improving situational awareness and speed of command. Training 
technology S&T designs virtual networked learning environments that 
exploit live assets, virtual simulators and artificially intelligent 
constructive (Live, Virtual, Constructive/LVC) entities in distributed 
training environments to increase individual and team skill, knowledge, 
expertise and experience in warfighting tasks. S&T enables the Navy and 
Marine Corps to effectively and affordably train in classrooms, 
simulated environments, and on deployment.
    Medical S&T improves the health, well-being, protection and 
survival of personnel in undersea, shipboard and expeditionary 
settings. ONR develops medical equipment, diagnostic capabilities, and 
treatments to improve warfighter performance and resilience. ONR 
develops solutions for point of injury care and casualty evacuation, 
new approaches to mitigate risks associated with operations in extreme 
environments such as dive medicine, and continues to address noise 
induced hearing loss by reducing noise at the source, limiting 
exposure, and developing protective technologies.
    ONR's biological research program exploits principles from nature 
to design, control and power autonomous systems; improve processes, 
materials and sensors; and develop synthetic biology tools to support 
the Fleet/Force. Biocentric technologies offer a variety of enabling 
capabilities, including bio-inspired autonomous vehicles, acoustic/
seismic discrimination systems, microbial fuel cells for sustainable 
power, engineered plants that produce energetic material precursors, 
and diagnostic tools to assess the health of marine mammals.
    Human subject research is critical to support the Navy and Marine 
Corps warfighter, training and operational capability, and Navy 
Medicine. Many RDT&E activities designed to respond to Fleet/Force 
requirements necessitate human subject participation. As part of the 
DoN Human Research Protection Program, ONR is responsible for 
implementation of human subject protections in the Navy's systems 
commands, operational forces, training units, and at Navy-sponsored 
extramural institutions. ONR reconciles the competing priorities of 
conducting potentially risky research involving human subjects and 
compliance with Federal, DOD, and DoN human protection policies.
                     naval air warfare and weapons
    ONR's Naval Air Warfare goal is to develop, demonstrate and 
transition technologies to expand Naval weapon system stand-off ranges 
and reduce engagement timelines to enable rapid, precise, assured 
defeat of moving land, sea and air targets. We invest in S&T to develop 
propulsion for high speed weapons requiring technologies associated 
with high acceleration, high temperature, and high strength materials. 
We develop advanced structural materials and corrosion protection for 
aircraft, improvements that enhance operational characteristics such as 
improved lift, and to address other requirements driven by operations 
in the unique maritime environment. These include kinematic and 
lethality enhancements to increase range and effectiveness of tactical 
weapons, and aided target recognition to provide the F/A-18 with 
advanced target identification capabilities.
                    naval research laboratory (nrl)
    ONR supports the DoN corporate lab, the Naval Research Laboratory 
(NRL). The NRL base program develops S&T to meet needs identified in 
the Naval S&T Strategic Plan and sustains world class skills and 
innovation in our in-house laboratory. Research at NRL is the 
foundation that can focus on any area to develop technology from 
concept to operation when high-priority, short-term needs arise. NRL is 
the lead Navy lab for space systems, firefighting, tactical electronic 
warfare, advanced electronics and artificial intelligence. Among our 
greatest challenges is to recapitalize NRL infrastructure. I invite you 
to visit this facility and learn more about research undertaken there 
by our world-class scientists and engineers.
                               onr global
    ONR has offices in London, Prague, Singapore, Tokyo and Santiago--
and closely coordinates activities with the other services and 
Assistant Secretary of Defense (Research and Engineering). We search 
for emerging research and technologies to help address current Naval 
needs, as well as requirements for future capabilities. ONR Global 
establishes contacts with international S&T leaders, giving us new 
perspectives and helping identify trends and forecast threats. It 
enables us to recruit the world's scientists and engineers in 
partnerships to benefit the U.S. and our allies. Global includes 
Science Advisors who communicate Fleet/Force needs to the Naval 
Research Enterprise (primarily Navy labs, warfare centers, affiliated 
universities) to facilitate development of solutions to transition to 
the Fleet/Force. Participants include Naval engineers who coordinate 
experimentation, develop prototypes, define transition options, and 
collaborate with Fleet/Force to define S&T investments. Our 
International Science Program gives scientists from academia, 
government and industry opportunities to engage leading international 
scientists and innovators. Our technical staff helps establish 
collaboration between Naval scientists and their foreign counterparts, 
and identifies centers of excellence for Naval S&T.
                               conclusion
    The fiscal year 2015 President's budget request will enable us to 
continue moving toward enhanced capabilities, more effective 
partnership between research and acquisition, and strengthened 
partnerships with the Army, Air Force, DARPA and other DOD research 
organizations--as well as performers outside the Naval R&D system. We 
strive to tap into the full spectrum of discovery and accelerate the 
transition of appropriate technologies to civilian use. Our S&T 
investments represent careful stewardship of taxpayer dollars that will 
achieve these goals and significantly enhance the safety and 
performance of warfighters as they serve in defense of the United 
States. Thank you for your support.

    Senator Durbin. Thanks, Admiral.
    I have three questions for the panel. I am going to state 
all three of them and anyone who feels inclined can jump in.
    First question: When I go to the NIH and ask Dr. Collins, 
he tells me that there is a dramatic decline in NIH 
researchers, that they are seeing in 1982 19 percent of their 
researchers were under the age of 36. Today it is 3 percent. He 
believes that our failure to fund his agency on a regular basis 
has created a crisis of confidence in those who are scientists 
and engineers who might otherwise go into biomedical research.
    I would like to know if you have seen this phenomenon in 
the work that you are doing.
    Secondly, I would like to address an issue that is timely 
because it is on the floor of the Senate. We are now 
contemplating extending the R&D tax credit under our tax code 
for private companies to invest in research and development. We 
believe that that work is so valuable that we ought to create a 
tax incentive for it, and I have always voted for it because I 
agree with that conclusion.
    However, we are running into an interesting political 
dilemma. There are some who say that because it is a tax cut, 
you do not have to pay for it. However, if you took tax dollars 
and spent them at your agencies or the National Institutes of 
Health, you have to cut spending somewhere else. I do not 
understand the difference.
    And the basic question is this: Do you believe that the R&D 
tax credit is enough to sustain America's superiority when it 
comes to basic research or developmental research, or do you 
believe the Government plays a unique role or a different role 
that ought to be served as well by adequately funding research 
efforts. I think I know the answer to that question.
    The third issue relates to the coordination of effort. This 
worries me. I have put in this budget more money, I believe, 
than in past years for medical research. I really intensely 
believe in it, and I believe the Department of Defense has 
proven that the money they receive can be well spent in medical 
research. I am interested in the coordination of medical 
research. I want to make sure, for example, when we have a 
BRAIN (Brain Research through Advancing Innovative 
Neurotechnologies) initiative that is shared by DARPA and NIH 
and other agencies, they are actually, at the beginning of this 
conversation, sitting down and establishing parameters and 
goals and methods of funding so we are not tripping over one 
another and wasting these precious medical research resources.
    Jump ball. Dr. Prabhakar.
    Dr. Prabhakar. Mr. Chairman, let me dive in because you 
talked about things that I want to discuss. I think they are 
very much on point.
    Let me try to attack the first two questions from the 
following perspective. I am now at a point where I have spent 
half of my professional life in the public sector and half in 
the private sector. When I returned to Washington about a year 
and a half ago, I came from 15 years in Silicon Valley, most of 
that in venture capital. And from that perspective, let me 
comment on the issue of the research community in the United 
States, who the people are that are engaged in this enterprise, 
and the R&D tax credit question.
    On the people issue, one of the things that really struck 
me, when I returned to the national security community after 
serving on the boards of small private companies as venture 
capitalists, is it was such a stark reminder that in the 
national security work, we really have migrated to where we 
connect with a very narrow part of the broader technical 
community. A lot of that has to do with the backgrounds of a 
lot who constitutes our technology community today. Over half 
of the Ph.D. engineers who practice in the United States today 
are foreign-born. The DOD does not have great ways of reaching 
into those communities, and I think without active efforts to 
reach into the research community to make those connections, 
recognizing that there are real security issues that have to be 
dealt with, we need, I think, to continue the kinds of work 
that all of us are doing that reach into research institutions 
and reach beyond just the defense community, the classic 
defense industrial base and the classic research labs in DOD, 
if we are to tap that broader human capital that is so vital to 
our national security needs. Number one.
    On the issue of the different kinds of funding, many others 
have much more knowledge, and obviously, I will leave it to you 
all to sort out tax policy. The point I really want to 
underscore, though, is the question of whether private 
companies' access to R&D tax credits or any investments that 
private companies make--how those contrast to the kind of work 
that happens with publicly supported R&D, particularly in the 
Defense Department. And again, I have seen both sides of that 
story.
    This is a national R&D ecosystem, and in an ecosystem, all 
the portions have to be healthy. So, yes, absolutely it matters 
that our companies continue to make the R&D investments which 
they make in order to build the next products and services that 
they can sell at a profit. That is what they do. That is how 
the economy works. Very important but different than the public 
R&D investment that is made. In our cases, of course, we are 
making that R&D investment for national security purposes, and 
our portfolios are chock full of the kinds of research that 
simply is not going to get invested in by private companies.
    Now, often we end up laying a research base. Sometimes we 
lay a research base that leads to much bigger private 
investment and then leads to, for example, all the technologies 
in the cell phone that you described earlier. But the reason 
all of us are making these investments is because it is simply 
not going to happen any other way, and it is vital to our 
Nation's needs.
    Mr. Shaffer. Sir, I would like to follow on to Arati's 
comments. I fully support what she said. I would like to add a 
little bit of data to some of that.
    For the first question on researchers, across our 
laboratories, we have basically a bimodal distribution with a 
larger number of researchers around 35 to 45, a large number of 
researchers 55 to 65, a bathtub from the last Government 
drawdown. I am concerned about the future because last year 
across the Department we hired under 1,000 new scientists into 
our laboratories, compared to a normal 3,000. Furthermore, 
right now what we are seeing across the board is about for 
every three who leave, we can hire one coming back in. That is 
just because of the budget crisis. So I am concerned. We are 
gathering across the panel that you see here better metrics, 
but there is a problem.
    The other thing I would like to comment on are the R&D tax 
credits. I am not going to get into taxes and tax policy, but I 
will tell you we are trying to make the industrial research 
part of what we are thinking about every day in the Department. 
We have made a strong emphasis on IR&D (independent research 
and development), but we are seeing data coming out of the 
industrial sector. In fact, CSIS (Center for Strategic and 
International Studies) issued a report yesterday that showed, 
with one notable exception--I am not going to get into which 
company--the amount of industrial IR&D over the last decade has 
declined fairly dramatically to the point where some of our 
major defense contractors are not putting much money back into 
R&D. And that is a concern because they are part, as Arati 
said, of the entire ecosystem.
    Senator Durbin. Senator Cochran.
    Senator Cochran. Mr. Chairman, it is a pleasure to join you 
and other members of the committee in reviewing the testimony 
or presentations being made by this distinguished panel of 
witnesses today.
    Ms. Miller, I understand coincidentally you visited the 
Army Corps of Engineers Research and Development Center 
laboratories in Vicksburg earlier this week. I would be 
interested in hearing your impressions of that visit. And to 
the extent that it is not classified, tell us what your 
impressions were.
    Ms. Miller. Thank you for the opportunity.
    It was a great visit. I have, obviously, been working with 
the Corps of Engineers for a long time as my role here as DASA 
R&T (Deputy Assistant Secretary of the Army for Research and 
Technology), but this was the first time I had actually made it 
down to Vicksburg. I have had a number of trips scheduled and 
been called off, and this time, even though they knew I was 
testifying on Wednesday, I said I was coming anyway. So I am 
here on 3 hours of sleep because we had a little bit of weather 
coming back into DC last night. So I apologize for that.
    The Corps is very impressive. The Engineer Research and 
Development Center is very impressive. While I was there, they 
took me through a number of their major activities. They have 
been looking at climate change and its impact not only on the 
environment but on the Army in particular, how we can utilize 
training ranges, how it might impact BRAC (base realignment and 
closure), not that we want one, but if BRAC happens again, we 
want to be prepared to understand the impacts on the Army areas 
that we might choose to relocate, how it affects operations in 
the Army as we go forward in the future and the upsetness that 
might happen in the world as we see it. We talked about 
environmental work. We talked about nanotechnology and the 
fundamentals that they do there to understand the impact of new 
materials that the Army is looking at using before they become 
a problem to the environment and to the soldiers that will be 
using them. All that is foundational and informs the rest of 
our weapons development and our material development.
    We also talked about high performance computing. They are 
the executive agent on behalf of all of the services for 
executing that program, which was divested from OSD (Office of 
the Secretary of Defense) to us 4 years ago, some very 
significant work there and something that I believe will 
underpin what we go forward with in the future.
    Senator Cochran. Thank you very much for that overview and 
for the contributions that we are making across previously 
established boundaries in this missile defense area. There is a 
great deal of collaboration going on, and I commend all of the 
panel for the work you are doing to make sure we have the most 
modern capabilities to protect the security interests of our 
country and for your sharing of that information from time to 
time as we visit with you and review the budget request for the 
next fiscal year.
    We are constrained because of the allocations, but your 
testimony helps us make the best choices in my view, and we 
should pay very careful attention to what you say to us about 
these very serious and important issues.
    Thank you for your good work.
    Senator Durbin. Senator Shelby.
    Senator Shelby. Thank you.
    We all have this chart, which Senator Durbin mentioned in 
his opening statement, at the hearing that Senator Mikulski 
called the other day, and a lot of us were there. It is 
disturbing the trend line going in the wrong direction on 
biomedical research, but it is also going the wrong direction 
in basic research.
    For the record, could you translate that into real dollars? 
The trend line is bad. And China and what they are doing in 
investing in the future will bode well for them, maybe not for 
the rest of the world. But if you could translate this into 
dollars, that would be good for the committee, I believe, 
rather than just percentages.
    I would like to direct my first question to Dr. Prabhakar. 
DARPA's involvement in the creation of the Internet is well 
known and well documented. Thank goodness. Thus, it comes as 
little surprise that the birthplace of the Internet is also 
leading the way in developing innovative mechanisms to protect 
that domain from cyber warfare attacks, which is a big concern 
of the business community, of the Pentagon, everything in 
today's world.
    It is my understanding, Doctor, that DARPA is currently 
working to develop a cyber warfare program, which would allow 
DOD to create platforms to plan for and counter cyber warfare 
just as it would for kinetic warfare. Whatever you can talk 
about here in open session, would you please update this 
Committee on Appropriations on the status of Plan X and, more 
broadly speaking, how important is sustained funding for 
DARPA's cybersecurity efforts to this country?
    Dr. Prabhakar. Thank you, Senator Shelby.
    As I mentioned in my opening remarks, cybersecurity I think 
is one of the core foundations as we become increasingly 
reliant on information. I think we are all familiar with the 
challenges that our businesses and our national security 
enterprise face because of cyber attacks that are happening on 
a constant basis, some driven by nation states, some driven by 
organizations, and some just individuals because so many 
individuals around the world have at their fingertips now the 
ability to participate in this domain, for better or for worse, 
often for better, but sometimes unfortunately for worse.
    We think that that cyber environment in which we are in a 
conflict today, that that is going to continue to escalate. 
Much of the conversation has been about computers and networks. 
Those are important to keep secure. But, of course, all of our 
embedded systems are also highly vulnerable. One of our 
researchers a couple years ago showed that they could hack the 
speedometer on a car. So if a speedometer on a car is 
vulnerable, then I think it is a good thing to realize that all 
of our embedded military systems are also vulnerable. 
Everything has a computer in it today.
    So Plan X is a foundational cyber warfare program that we 
are building to allow us to have the visibility and the 
understanding of cyberspace so that we can start to deal with 
how cyber warfare is happening today and where it will be in 
the future. We think it is going to become integral to the 
kinetic warfighting of the future.
    We want to give our senior decision-makers the ability to 
see what is happening in cyberspace, to plan actions, to be 
able to predict collateral effects, to avoid affects that they 
want to make sure do not happen, and then to do battle damage 
assessment. Those are the core capabilities.
    Senator Shelby. Is this one of DARPA's top priorities?
    Dr. Prabhakar. Across our portfolio, it is a high priority. 
As you know, what we do at DARPA needs to be a balanced 
portfolio. Maintaining the security of our information systems 
is one of those high priorities.
    Senator Shelby. Doctor, it is my understanding that I am 
getting into the long-range anti-ship missile. It is my 
understanding that on April 22, a few weeks ago, DARPA 
demonstrated five key technologies to the Secretary of Defense 
at the Pentagon. Among the five technologies exhibited was 
DARPA's long-range anti-ship missile which seeks to pierce 
through advance air defense systems and engage enemy warships 
from a long range, which is smart.
    Could you discuss the importance of continuing to fully 
fund development of the long-range anti-ship missile? And what 
is the capability as far as leaping ahead here?
    Dr. Prabhakar. This was a project that DARPA began about 5 
years ago in response to what we heard from the Pacific Fleet, 
basically their concern about being out-sticked, not having the 
range for anti-ship missile capabilities, particularly in the 
Pacific theater. We rapidly put together a program that 
culminated with successful flight tests for the DARPA stage of 
the research. Those flight tests were last fall. And the work 
that is now going on with DARPA's funding is in fact wrapped up 
for that program because we have successfully shown those 
flight tests.
    What is happening now is a joint DARPA and Navy effort to 
try to get from that flight test to operational capability as 
rapidly as we can. Because it is an urgent known requirement 
for the Navy, it is something that we are hoping that the Navy 
will be able to get across the finish line very quickly.
    Senator Shelby. Ms. Miller, could you just for a moment, 
for the record here today, speak to the importance of providing 
adequate funding--and that is part of what this hearing is 
about--to field new weapon technologies like the Army's missile 
and rocket advanced technology, how important that is to the 
service that is down the road, the Army particularly?
    Ms. Miller. Obviously, I believe it is very important for 
the Army to have robust funding in our air and missile defense 
capabilities at AMRDEC (Aviation and Missile Research, 
Development, and Engineering Center) down in Huntsville, also 
PEO (Program Executive Office) Missiles and Space. We have a 
pretty solid program in the Army's science and technology 
portfolio. We have taken a slight dip in that particular 
technology area, but that is not a deliberate decision not to 
fund that. That was the completion of a successful program in 
our extended area protection system, a missile development 
capability. And so we have completed that. And as we go into 
the next 2015 through 2019, we start to pick up with counter 
UAS (unmanned aircraft systems) capability development.
    Senator Shelby. Could you also speak to the proposed high 
energy laser demonstrator and what this potentially could do?
    Ms. Miller. Absolutely. For the Army, the Space and Missile 
Defense Command is leading all research in high energy lasers. 
This is a capability that all of the services co-funded--the 
development of solid state laser capability under the High 
Energy Laser Joint Technology Office. And then each one of us 
has taken that capability and is demonstrating it in an 
operational context.
    For the Army, we have been working out at WSMR (White Sands 
Missile Range) and doing some tests there. We have just 
recently gone with the Navy to test this at Eglin and see how 
the laser operates in that kind of environment because the Army 
pretty much is anywhere in the world and we need to make sure 
that it works in our capacity. It has been very successful 
against mortars and UAVs (unmanned aerial vehicle). It is 
slated to go into a program of record, our integrated fire 
protection system, in the 2022 timeframe.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Durbin. Senator Collins.
    Senator Collins. Thank you.

                            MALARIA VACCINES

    Dr. Rauch, I agree with the chairman's observation about 
the important contributions the Department of Defense has made 
to medical research. Oftentimes we think of traumatic brain 
injury where the Department has played such an important role.
    But the Department has gone beyond that and contributed in 
important ways in other areas such as infectious diseases. I 
was interested to read that the military infectious disease 
research program states that infectious diseases such as 
malaria historically cause more casualties when our troops are 
deployed to tropical regions than does enemy fire.
    Could you give us an update on efforts by the Department of 
Defense to develop a vaccine that would be effective against 
malaria?
    Dr. Rauch. Yes, ma'am.
    First of all, you are quite correct in that in the deployed 
force, there is a lot of morbidity associated with infectious 
diseases. Very true. And that is why we have an infectious 
disease research program that is dedicated to actually 
protecting our forces as they go into an endemic infectious 
disease area. Most concerning are infectious diseases such as 
malaria, dengue fever, and the diarrheal diseases. These are 
things that we really focus on.

                        VACCINE RESEARCH EFFORTS

    With respect to malaria, we partner with the Gates 
Foundation and also with private industry to mature these 
products along. There is one product that was really developed 
and the preclinical work was done at Walter Reed Army Institute 
of Research. It came out of that tech base, was picked up then 
by GlaxoSmithKline. And those are phase III trials that are 
being conducted, and it is really showing about 50 percent 
efficacy in protection.
    Now, you may say, oh, 50 percent. Can we do better than 
that? Malaria is a very, very challenging parasite. It is very 
agile. It is very flexible. You think you have it one time, and 
it changes. It is very agile. And so it is very much a 
challenge to come up with an efficacious medical countermeasure 
or vaccine. But those results from the phase III trial are 
very, very promising.
    There is also a candidate that is coming out of the Navy 
lab that is also very promising. So partnering with NIH in this 
area shows a lot of Federal leverage to tackle this problem.
    Senator Collins. Thank you.
    Admiral Klunder, oftentimes it is small businesses that 
come up with the truly innovative products, and I can see Ms. 
Miller nodding in agreement as I say that. But it can be very 
difficult for a small business to comply with the cost of 
submitting a bid, with changing specifications, with rescoping 
of projects. And I want to give you an example from my home 
State.

                      SMALL BUSINESS OPPORTUNITIES

    A small Maine shipyard built a prototype vessel for the 
Navy and for Special Forces and ultimately won a contract to 
build an advanced rescue craft for the military. And one of the 
challenges--the greatest challenge for this small business--was 
not building the high-tech vessel. It knew how to do that. But 
it was dealing with the expense of recurring costs associated 
with dealing with a very complex procurement process. What 
happened in this case is this small business submitted a bid at 
great cost to the business in response to the Navy's RFP 
(request for proposal) to supplement or replace the Mark V 
Special Operations Craft, only to watch the Navy change its 
mind, rescope the project, and publish a second new RFP. And 
for a big company, that would not be a problem. For a small 
company, it forced this firm to abandon the project due to the 
complexity, difficulty, and expense of completely redoing its 
bid.
    So what has happened is the Navy has now lost a competitor 
for a project despite the fact that this small firm 
demonstrated in building a prototype that it could perform 
exactly the kind of work that the Navy wants.
    So my question for you is how does the Navy ensure that you 
do not inadvertently exclude small businesses that do not have 
the kind of resources that a large defense contractor has to 
rebid on a contract when the Navy changes its mind.
    Admiral Klunder. Thank you, Senator Collins.
    I am not 100 percent involved in the details of that 
acquisition process, but I am familiar with it. And I offer two 
thoughts.
    One is we absolutely love the innovation that comes out of 
small businesses. As a matter of fact, on the railgun system 
that I have down at Dahlgren we developed, 80 separate 
companies were involved in the development of that. That is big 
and small. So I promise you I love working with small 
businesses. As a matter of fact, in 3 weeks here in the 
beginning of June, we are having our Navy Opportunity Forum to 
address specifically small businesses, and that is here in DC. 
So I will reach out.
    But on this specific company, because I do know about the 
issue at hand, I would like to offer that what I have done is, 
even though I know that process may have had some holes in it 
in terms of the complications and complexity you described, I 
have gone back and looked at that technology because there may 
be things we are going to do in the future, not necessarily a 
spec ops Mark V, but maybe connectors as we work with the 
Marine Corps, getting from sea to shore. I am looking at some 
of those technologies, I am going to reach out to that company, 
ma'am.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Senator Durbin. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    And thank you to all of you this morning. Very interesting.
    I wanted to ask a couple questions here about HAARP, the 
High Frequency Active Auroral Research Program. Several of you 
at the table have a little bit of a piece here. As you know, 
this is located up in Alaska. It is currently funded by the Air 
Force research lab. It was formerly funded by the Office of 
Naval Research. One of the prime customers is DARPA, which is 
currently running experiments at the facilities there. So 
questions to several of you this morning.
    I am told by the president of the University of Alaska that 
the Air Force has pulled its support for the facility and they 
are taking steps to demolish it or take it down this summer. He 
is making the argument that there are other opportunities for 
us, and he is trying to find a path where the university might 
be able to take title to the facility.
    I would like to start with you, Dr. Prabhakar. I understand 
that a lot of folks here on the committee probably do not 
understand what HAARP does. I think most Alaskans do not really 
know what HAARP does or why the agency is involved in it. So a 
very brief explanation and then a more direct question. Would 
you be disappointed or would you lose something if HAARP were 
to go away?
    Dr. Prabhakar. Senator Murkowski, as I think you know, one 
of our programs has been using the HAARP facility for the 
research that it is pursuing, and my understanding is that we 
did get value out of that interaction.
    The ``P'' in DARPA is projects, and we are not in the 
business of doing the same thing forever. So very naturally as 
we conclude that work, we are going to move on to other topics. 
So it is not an ongoing need for DARPA despite the fact that we 
had actually gotten some good value out of that infrastructure 
in the past.
    Senator Murkowski. Understood.
    Then to Dr. Walker and Mr. Shaffer--Dr. Walker, your agency 
is currently running the facility. I have mentioned that it is 
our understanding through the president of UAF that the plans 
are to move forward and demolish the facility this summer. So 
the question to you is, is that accurate? Can you explain why?
    And then perhaps to both you and Mr. Shaffer, is there any 
benefit in exploring a potential relationship with the 
University of Alaska to perhaps take over the HAARP?
    Dr. Walker. Thank you, Senator.
    The Air Force has gotten great value out of HAARP in the 
past. We took it over from the Navy and managed it and actually 
did a number of experiment campaigns up there and have finished 
our work that we are interested in doing up there. We are 
moving on to other ways of managing the ionosphere, which the 
HAARP was really designed to do, was to inject energy into the 
ionosphere to be able to actually control it. But that work has 
been completed.
    The Air Force has maintained the site for other Government 
agencies to use for several years now, and with DARPA 
completing their project, that is our last Government customer 
that we have in the site.
    We have put out a call Governmentwide for other agencies 
that had interest in managing the site or taking it over, 
including going out to academia and seeing if there was an 
interest there. And we have gotten interest from the university 
in Fairbanks. However, the interest that we have is that they 
will run it if we fund it, which is unfortunately in this 
fiscal environment we are in right now, this is not an area 
that we have any need for in the future and do not see that it 
would be a good use of Air Force S&T funds in the future. So 
our position has been that if there is not somebody who wants 
to take over the management and the funding of the site, then 
the Air Force has no future need, and that we do plan to do a 
dismantle of the system in the future after we make appropriate 
notifications.
    Senator Murkowski. When you say in the future, do you 
anticipate that it would be this summer then? Or would there 
perhaps be more time for the university to try to figure 
something out?
    Dr. Walker. We would prefer to start this summer. We would 
like to get the critical equipment out of the site before the 
winter. The harsh winter in Alaska does lead to a very costly 
winterization to maintain the site, and we would like to avoid 
that if we can.
    Senator Murkowski. Mr. Shaffer, if you have any comments on 
that.
    Mr. Shaffer. Yes, ma'am.
    So I am torn on this because my background is as an 
atmospheric scientist, and I think the facility is just a 
world-class facility.
    That said, we have worked very hard with the Air Force, 
with the Office of Science and Technology Policy over the last 
18 to 24 months to find another sponsor for this because, as 
you have heard the other people at the table, we, the 
Department, have gotten the research value out that we need for 
the facility. We have also worked with the University of Alaska 
Fairbanks to get some other person to pick up the long-term, 
just pure scientific research that HAARP offers the promise of. 
But with all the other issues and problems and challenges 
facing the Department at this time, we just do not see that 
that investment over a long-term period is where we would 
prioritize our investments.
    So we have been working with other agencies, trying to get 
agencies like the National Science Foundation, Department of 
Commerce who runs the National Ocean and Atmospheric 
Administration, to pick up the HAARP facility. No one else 
wants to step up to the bill, ma'am.
    Senator Murkowski. Let me ask you one final question here, 
Mr. Shaffer, and this is regarding small modular reactors. In 
the report language with the National Defense Authorization Act 
last year, DOD was directed to carry out an assessment of small 
modular reactors of 10 megawatts or less. As energy sources for 
our forward operations, I have always thought that this made a 
lot of sense, particularly in some of our remote areas. We have 
got Eielson Air Force Base up north that could clearly benefit 
from a reliable energy security that nuclear power could 
provide. But you need it on that smaller scale.
    Are you considering such domestic deployment operations for 
SMRs?
    Mr. Shaffer. We have been in discussion with the folks who 
are selling that particular technology. What we cannot get 
over, ma'am, is the sticker shock. There are a lot of other 
issues, but the sticker shock of the initial investment. So by 
the time you would do environmental impact statements and all 
the rest, even to put in a small nuclear reactor, every time I 
have looked at it, the bill has been around $1 billion. That is 
a lot of money in the current fiscal environment.
    I think I would speak for everybody at the table. As 
technologists, we think the technology offers tremendous 
promise, but getting past all the regulatory and all the other 
things that would constrict us to putting in a new nuclear 
reactor just makes it a very, very hard thing to work our way 
through.
    I was in Eielson last summer. I understand exactly the need 
for that type of capability, but we will need some help. And 
frankly, it is kind of the Department of Energy's ball to carry 
in many ways.
    Senator Murkowski. Well, and it is something that I think 
many of us are involved with here, trying to figure out how you 
can expedite that permitting process, how we can work to reduce 
those costs. But you are correct. We are probably still a ways 
away. I appreciate your perspective on it.
    Thank you, Mr. Chairman.
    Senator Durbin. Thanks, Senator.
    The last question, I know I asked too many for a short 
period of time, was about the coordination of different 
agencies in areas like biomedical research. It is my 
understanding that the NIH and DARPA and others are doing the 
BRAIN Initiative. What I am trying to get is some assurance, 
and I think I am going to get it that at the outset, there is a 
coordination of effort and resources so that we do not waste 
any time or money.
    Dr. Prabhakar. Yes. Sorry. Let me just speak specifically 
to the BRAIN Initiative, and then, Terry, please dive in.
    Absolutely, yes. We have had a lot of very good dialogue 
with NSF and NIH in particular on the BRAIN Initiative.
    Here is how we think about it, if this is useful to you. 
NSF and particularly NIH have built this phenomenal research 
foundation through the investments that they have made in 
biomedical research over many, many years. What we want to do 
at DARPA and our programs are doing today is building real 
technology capabilities out of some specific areas of new 
insights in brain function research. And it is a very good 
interplay. Our investment is very small compared to the 
neuroscience investment over many decades at NIH, but I think 
it is a time when there is a huge opportunity to build real 
technical capability.
    Senator Durbin. Is the same thing true of other areas in 
our appropriations bill where we are kind of specifying a line 
item different areas of medical research? Can the same be said, 
Dr. Rauch?
    Mr. Shaffer. Senator, let me take this and then I will let 
Terry talk about his specific area.
    We have been concerned for a number of years about better 
coordination of the programs. As you see here, we have three 
services, a number of agencies doing research in every area. 
Over the last 18 months, we have put in place a structure that 
took the best of what we had previously to coordinate our 
activity in 17 areas. That process is called Reliance 21, 
Communities of Interest. So in 17 areas where multiple agencies 
have an investment, we have the senior executive or senior 
leader who is responsible for investment of money coordinate 
their program with the other components because everybody wants 
to get the maximum out of their ability.
    One of these 17 areas--we actually adopted a body that was 
there before called ASBREM (Armed Services Biomedical Research 
Evaluation and Management), and I will turn it over to Terry 
because Terry is one of the co-chairs of ASBREM with my 
director for biomedical sciences. They actually do the 
coordination of the biomedical research area.
    Terry.
    Senator Durbin. I want to thank you for a new acronym.
    Go ahead.

            BIOMEDICAL RESEARCH, EVALUATION, AND MANAGEMENT

    Dr. Rauch. Well, sir, it is not a new acronym. It has been 
around for a while, but we continue to refine it.
    The ASBREM is really a mechanism to assure coordination 
across the Department. It is one mechanism to assure 
coordination of medical research across the Department. We 
actually have a liaison officer from Health Affairs that is 
actually assigned over to DARPA to make sure that DARPA and DHP 
programs are coordinated. I mean, that is an investment on our 
part.
    You know, the National Research Action Plan really sets the 
foundation particularly in the area of mental health research 
to assure coordination. There is hardly a day that goes by that 
I am not talking or emailing with my colleague over at the VA, 
Tim O'Leary, or with Tom Insel at NIH or his staff about the 
different projects that we have ongoing in mental health 
research.
    Every year for the last 4 years, we have held joint 
portfolio R&As, review and analyses, where the DOD program is 
presented in combat casualty care research and TBI and psych 
health research and infectious diseases and operational 
medicine and rehabilitation. The VA presents their program at 
the R&A. The NIH presents their program at the R&A. It is fully 
transparent. It enables us to see in a coordinated fashion the 
state of science that we are funding with our Federal dollars. 
And it enables us to determine where the gaps are, Federal 
gaps, and how we can correct those gaps or invest in those 
gaps. It informs our next upcoming investments.
    One last thing, sir, and I have to make a point. What comes 
out of these, in addition to what comes out of these portfolio 
reviews, is joint initiatives. Last year, the DOD and the VA 
co-funded two major consortia, one for PTSD and one for 
traumatic brain injury. When I say co-funded, I mean the VA put 
up their intramural program dollars that went to the awardee on 
the VA side, and we put up DHP (Defense Health Program) R&D 
dollars that went to the awardee on the academic side. Their 
consortia is at the University of Texas Health Science Center 
in San Antonio. That is the one for PTSD. The co-investigator 
is Terry Keane up at Boston VA. The one for traumatic brain 
injury is David Sifu down at VCU (Virginia Commonwealth 
University) who also has an appointment with the VA in 
Richmond. These are 5-year consortia, a 5-year period of 
performance. The first time we have ever done this together 
with the VA.
    We do something very similar with NIDA (National Institute 
on Drug Abuse) in terms of putting out joint program 
announcements where DOD will fund research on drug abuse, as 
well as NIDA.
    So we cost share. You can see that in combat casualty. I 
mean, I can go on and on and on.
    Senator Durbin. Thank you for that.
    Dr. Rauch. Your time is precious.
    Senator Durbin. Thank you.
    Do any of my colleagues have any follow-up questions? 
Senator Shelby.
    Senator Shelby. I have a couple of questions for Admiral 
Klunder.

                HIGH-POWER DENSITY WATER JET DEVELOPMENT

    Admiral, in the area of Office of Naval Research, it is my 
understanding that ONR delivered a new high-power density water 
jets to the Freedom variant of a littoral combat ship, LCS. 
Could you please provide an update of that testing, and what 
that will do?
    Admiral Klunder. Yes, Senator, thank you.
    And again, I offer that that work was done from a 
consortium of larger and small businesses. So that is very 
important to us.
    Senator Shelby. Why is it important to you?
    Admiral Klunder. We feel that if we are going to stimulate 
the economy and the industrial base----
    Senator Shelby. No. I mean why the water jet----
    Admiral Klunder. Oh, the water jet, certainly. Well, not 
only the ship itself but the fuel efficiency that we derive was 
incredibly impressive. We are not talking about one or two 
extra percentages. We are talking almost around 10 percent of 
fuel efficiencies we get out of this water jet. And again, I am 
a physicist. So there is a little bit of flow dynamics. But the 
point is we were able to test that, fabricate it with help in 
your great State. And then when we implemented that on the 
ship, it is now working.
    I would offer manufacturing, industrial base. We have a 
problem. How can we make it better, more fuel efficient? We 
injected with the industrial partners--performers and we will 
deliver that I think in a reasonably fair amount of time, which 
is on our ships now.

                JOINT HIGH SPEED VESSEL RAMP DEVELOPMENT

    Senator Shelby. This came about, as you mentioned, by some 
broad research working with others. Right? And businesses.
    Admiral Klunder. Yes, sir. And again, I think that was a 
great partnership from funding from ONR but also with local 
businesses.
    Senator Shelby. In another area, the joint high speed 
vessel ramp you are familiar with the Office of Naval Research 
completed a demonstration of a new lightweight ramp for the 
Navy's joint high speed vessel earlier this month. Could you 
discuss that and how you are going to implement this? And what 
will it do for you--do for us?
    Admiral Klunder. Sure. And again, I think for those that 
are not familiar with the joint high speed vessel, this is a 
very affordable, high speed vessel. It has lots of modular 
space in it. And why do I emphasize that? Because that vessel 
can now be used for multiple, multiple missions. We could use 
it to connect marines to go inland. We could use it potentially 
to put other kind of systems on there that may be spur of the 
moment, new threats as they come about.
    But to do that and to make sure it is truly multimission, 
we needed it to have a very effective ramp. And that ramp has 
been tested quite well. As I represent not only the Navy but 
the Marine Corps, the Marine Corps is very interested in that 
ramp and how it may be implemented on JHSV or other modular 
ships we are building as MLP. I think you are familiar with 
that ship also, Senator.

                   JOINT HIGH SPEED VESSEL ATTRIBUTES

    Senator Shelby. Admiral, can you explain briefly what the 
joint high speed vessel will mean for us in the Navy?
    Admiral Klunder. Thank you, Senator.
    Well, not only will it be a ship that can move very fast 
and very efficient on fuel, but again, it can carry a number of 
marines. It could actually put potentially a new weapons 
system----
    Senator Shelby. And be heavily armed too, could it not?
    Admiral Klunder. Yes, sir.
    And we can put it anywhere in the world quite quickly.
    Right now we have built--there is a number of those through 
the acquisition process that are being built and fielded. And 
as a matter of fact, this July we are going to bring one into 
San Diego and put the railgun on it to show the public.
    What I think really is important, as we continue to work 
with this ship and figure out different missions, it can really 
be used around the globe. It is not particular to one part of 
the globe. We could put it anywhere in the world and that is 
really part of its----
    Senator Shelby. So the Navy and Marine Corps are very 
pleased with what----
    Admiral Klunder. I would say we are fully embracing it, 
Senator. Thank you.
    Senator Shelby. Thank you.
    Admiral Klunder. Yes, sir.
    Senator Cochran. Mr. Chairman, could I ask unanimous 
consent to submit two questions to Dr. Walker and Admiral 
Klunder for the record?
    Senator Durbin. Without objection.
    Senator Murkowski.

                       ARCTIC SENSOR DEVELOPMENT

    Senator Murkowski. Mr. Chairman, very briefly. I know we 
have got a vote that has just started.
    But I wanted to just bring up very quickly with you, Dr. 
Prabhakar, I have mentioned, as cabinet members have come 
before different panels before us, my interest in making sure 
that this administration is advancing our national interests in 
the Arctic. And I have been somewhat disappointed with some 
lackluster implementation plans, but I have been very 
encouraged by DARPA's Assured Arctic Awareness initiative. I 
know that you have got some data that is coming back that you 
have been collecting out in the region. I am hoping that you 
are getting some early indication of good value coming out of 
that and, again, that you are really committed in moving 
forward in this initiative that I think is critically important 
not just for the State of Alaska, not at all, but truly for the 
entire Nation. So, first of all, I thank you for what DARPA is 
doing, but I would just encourage you to push a little harder 
on it.
    Dr. Prabhakar. Thank you very much for the comment, Senator 
Murkowski. And you are right. This is a national issue. The 
Navy has got its hands full with the oceans that we already 
know and a whole new ocean is appearing before our eyes in the 
Arctic, and the conditions there are very interesting, dynamic, 
and challenging. I too am looking forward to seeing what we are 
going to learn from our initiative.
    Senator Murkowski. Do you know when that might be coming 
out?
    Dr. Prabhakar. I know that we are still in the process of 
getting the data back.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Murkowski. I will look forward to----
    Dr. Prabhakar. Yes, same here.
    Senator Murkowski [continuing]. Having some collaboration 
on that. Thank you.
    Admiral Klunder. Senator, could I just--since I am in the 
Navy and the Arctic means a lot to us. And thank you, working 
with DARPA. I am not sure if we are all aware of it. Just this 
March we put another level of sensors off the Beaufort Sea off 
your great coast, and that was done in March. And we are going 
to measure that summer retreat of the marginal sea ice, and we 
are actually going to come up to Deadhorse Bay and Prudhoe Bay 
here in July to add some more sea gliders and wave gliders to 
complement that exercise.
    Senator Murkowski. Great.
    Admiral Klunder. So we are doing a fair amount of research 
and development up there to truly understand the environment 
because we think it is so important, Senator.
    Senator Murkowski. We appreciate that. Thank you, Admiral.
    Senator Durbin. Thank you, Senator Murkowski.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                  Questions Submitted to Alan Shaffer
              Questions Submitted by Senator Daniel Coats
    Question. Naval Surface Warfare Center (NSWC) Crane has become 
widely recognized across the Department of Defense, and within the 
Federal Lab System for re-thinking and pioneering Technology Transfer. 
Currently, the Research Directorate within Assistant Secretary of 
Defense--Research & Engineering (ASD-R&E) and the State of Indiana are 
collaborating around Crane's successes to demonstrate how a lab's 
innovation can be used to increase the lab's mission effectiveness. Is 
this model something that can be shared and exported?
    Answer. Yes. Leadership of NSWC Crane designated Technology 
Transfer (T2) as a command priority in 2005 and invested in their 
Office of Research & Technology Applications (ORTA), the group 
responsible for leading and implementing the local T2 program. Crane's 
ORTA, recognized as one of the best within the Department of Defense, 
initiated a strategic effort to work as appropriate with Indiana's 
academic and business communities as well as local and state government 
organizations. The best example of T2 success is found in the creation 
of the Battery Innovation Center located near NSWC Crane. This is a 
nexus for new power technologies needed by the military while 
concurrently developing products for the commercial marketplace.
    Question. Are there any future structure changes required and 
strategy alterations to leverage what has been demonstrated in Indiana?
    Answer. Congress has provided all of the needed authorities for an 
effective Department of Defense Technology Transfer (T2) Program; no 
additional authorities are required at this time. A number of Defense 
laboratories, with support from the Assistant Secretary of Defense 
(Research and Engineering) (ASD(R&E)) Defense Laboratories Office, have 
accelerated their local T2 programs.
    Question. What is DOD's strategy for leveraging intellectual 
capital for enhanced mission effectiveness and economic development?
    Answer. The ASD(R&E) Defense Laboratories Office participates in 
the White House Office of Science & Technology Policy (OSTP) Lab-to-
Market initiative as well as the Federal Laboratory Consortium (FLC) to 
broaden the government-academia-industry T2 network. Lessons learned 
and opportunities for DOD's labs to participate in a national T2 
environment are promulgated to the Defense labs' ORTAs for 
consideration and implementation. A T2 guidebook has been written and 
distributed to the defense labs. When ASD(R&E) learns of other 
laboratory's T2 successes, the experiences and processes are shared 
across the entire Department lab system.
                                 ______
                                 
               Questions Submitted to Dr. Arati Prabhakar
            Questions Submitted by Senator Dianne Feinstein
    Question. Is DARPA planning to continue development of robotic arms 
and associated robotics capabilities for the advancement of in-space 
satellite servicing and to conduct an in-orbit demonstration of these 
capabilities?
    Answer. Yes. DARPA recognizes the strategic importance and the 
commercial potential of in-space satellite servicing and is developing 
the required capabilities on a priority basis. DARPA is developing 
robotic arms and associated robotics capabilities developed under 
DARPA's Phoenix program into an in-orbit demonstration program with 
multiple capabilities. The in-orbit program will validate capabilities 
in geostationary earth orbit of high strategic importance for new 
Department of Defense (DOD) concepts as well as high commercial 
potential (e.g., satellite inspection, repair, and in-orbit assembly). 
The multimission demonstration spacecraft would be designed for an 
extended mission lifetime, enabling follow-on operations by a 
commercial space contractor after successful completion of a test and 
demonstration phase by DOD.
    Question. Is DARPA planning to continue the advancement of the 
``Payload Orbital Delivery System'' and to demonstrate this capability?
    Answer. Yes. MacDonald Dettwiler and Associates and Space Systems 
Loral are currently under contract to continue engineering and 
integration planning in order to deliver a flight-qualified unit to 
host a Payload Orbital Delivery (POD) System on a commercial satellite. 
This capability will provide an alternative low-cost and high-tempo 
delivery of mass to geostationary orbit for DOD. During the ongoing 
technical development of the flight hardware, DARPA will continue to 
evaluate future opportunities to host and fly the POD concept on a 
commercial satellite.
    Question. Without having a DOD office for satellite servicing, what 
approaches is DARPA considering for the transition of these critical 
capabilities to ensure their availability to our DOD stakeholders?
    Answer. DARPA embraces opportunities for transition. While 
transition is most directly accomplished through the Services, it can 
also be accomplished by advancing the technologies through our 
performers. Proof of the technology coupled with the push to industry 
often results in benefits to the DOD in the future.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
    Question. With the growth of emerging threats to the 
microelectronics supply chain, some of which have recently been 
discovered by NSWC Crane, what is DARPA doing to ensure that its 
advanced technical assessment capability such as the DARPA IRIS 
(Integrity and Reliability of Integrated Circuits) Program is being 
transitioned to labs such as Crane?
    Answer. In order to ensure that the advanced technical counterfeit 
component mitigation capabilities developed at DARPA are transitioned 
to the most effective labs at the completion of these programs, DARPA 
engages likely transition partners as government team members during 
their actual execution. Personnel from the transition partners, 
including Crane, actively work on this program, even to the point of 
having badge access to the DARPA facility. In this way, critical 
informed feedback and required application boundary conditions may be 
incorporated into the required deliverables from the outset of the 
program.
    In the case of NSWC Crane, the Indiana lab's hardware assurance 
team is widely recognized as a national center of expertise, one of the 
only two or three true centers of competence in the country for 
mitigating threats to DOD's supply chain. DARPA MTO and its program 
managers involved in hardware assurance are fortunate to have access to 
the experience and insight which NSWC Crane, Indiana brings to the 
programs it helps support. Specifically, Brett Hamilton, an expert in 
anti-counterfeit technology from Crane, is intimately involved in the 
program, has DARPA badge access, and works hand in hand with the 
program manager in execution of the program. The technology developed 
by DARPA performers is frequently transitioned to Crane. Examples 
include chip imaging techniques for electrically probing and 
visualizing the behavior of unknown circuits.
    Question. NSWC Crane is part of a ``Virtual Lab'' consortium 
providing support to DARPA's IRIS (Integrity and Reliability of 
Integrated Circuits) Program. What are the benefits to this type of 
arrangement? How can this ``Virtual Lab'' be leveraged to provide a 
more proactive approach to dealing with emerging threats to 
microelectronics and the supply chain? Do you have any plans to visit 
NSWC Crane?
    Answer. The ``Virtual Lab'' concept conceived by DARPA in 
collaboration with government sponsors benefits the Nation and its 
hardware assurance research by leveraging the unique, powerful know-how 
that each lab such as NSWC Crane, Indiana has developed. By offering 
these skills under the support of a single organization, the practice 
of multiple critical capabilities is drawn into a single community. 
Providing a unified access to these centers of competence allows the 
community to focus on extending its prowess and eliminating costly 
duplication of effort. The equipment is highly specialized and 
therefore impossible to replicate across the country everywhere it 
would be needed. By forming the virtual organization, we are able to 
multiply the impact of the transition of each of these outputs.
    The Virtual Lab will continue to be leveraged, as the Senator 
indicates, by proactively anticipating new threat space and developing 
the means to detect and mitigate these new concerns. Core competencies 
transitioned to lead Virtual Lab partners such as Crane will continue 
to be used to detect and collect counterfeit components for study, 
identifying new modes of hardware compromise being attempted. Examples 
of items transitioned include powerful laser-based imaging capabilities 
which allow the community to reveal electronic device characteristics 
which up to now were not accessible for reverse engineering.
    DARPA's program manager for assuring hardware integrity visits NSWC 
Crane often, and briefs his agency leadership on emerging trends and 
the prowess we have responded with. The critical work for this program 
is performed as a close engagement between the program manager and the 
engineers at Crane. DARPA also hosted a DARPA young faculty awardee 
meeting at Crane where faculty and designers from across the country 
came to see their facilities including the anti-counterfeit related 
work. The Director of the Microsystems Technology Office, which runs 
the TRUST, IRIS and SHIELD programs is on loan from Purdue University 
as an IPA and gets back to Indiana regularly to meet with current and 
former students, many of which are at NSWC Crane.
                                 ______
                                 
                Questions Submitted to Dr. David Walker
              Questions Submitted by Senator Mark L. Pryor
    Question. Congress included language in the Fiscal Year 2014 
Defense Appropriations Report encouraging the Air Force to invest in 
next generation free space optical communications technologies for 
secure, high-speed and high-bandwidth data transfer. How does the Air 
Force plan to develop and demonstrate free space optical communication 
technology for applications such as UAV-to-ground and other air-to-
ground and air-to-air applications?
    Answer. The Air Force must exploit emerging technologies to improve 
our ability to transmit the ever-increasing volume of Intelligence, 
Surveillance and Reconnaissance data for processing, exploitation, and 
dissemination. However, the fiscal constraints directed by the Budget 
Control Act of 2013 limits our ability to invest in free space optical 
communication technologies. The Air Force will continue to seek 
opportunities for investment in promising technologies that will enable 
us to maintain a decisive advantage in air, space and cyberspace.
    Question. Recently, a Small Business Innovation Research (SBIR) 
award was made concerning free space optical communication technology 
by the Air Force. What is needed beyond the SBIR to advance this 
capability?
    Answer. The SBIR is focused on free space optical communications 
systems suited to fixed, geostationary satellite-to-ground and 
building-to-building terrestrial communications capabilities. Further 
development is needed to reduce the size, weight, and power of these 
systems, particularly for remotely piloted aircraft (RPA) applications. 
Utilizing free space optical communications for air-to-air links 
requires a higher fidelity pointing, acquisition, tracking system. 
Further research is also needed to expand the capabilities of current 
point-to-point apertures to support multiple, simultaneous links for 
networked configurations from a single aperture. Finally, single-
aperture, adaptive beam control is required to support dynamic aerial 
mission execution at rapid, tactical operations tempos. The SBIR will 
demonstrate a basic laser communications link suitable for static 
applications, but these additional technology advancements are required 
in order to support highly dynamic missions such as those conducted by 
RPAs.
                                 ______
                                 
               Question Submitted by Senator Daniel Coats
    Question. Naval Surface Warfare Center Crane is the largest 
multiservice, multidomain facility within the Department of Defense 
(DOD) for Electronic Warfare (EW), EW sensors and electronics. What 
plans does the Air Force's Science & Technology program have in fiscal 
year 2015 to partner with NSWC Crane in the area of electronic warfare 
to maximize the limited amount of EW resources? Do you have any plans 
to visit NSWC Crane in the near future?
    Answer. The Air Force Science and Technology program has a strong 
and ongoing relationship with various elements at Naval Surface Warfare 
Center Crane (NSWC-Crane). Both establishments recognize the importance 
of collaboration in order to avoid duplication, to make efficient use 
of funding, and to leverage the technology advancements each 
organization develops.
    The Air Force Science and Technology program encompass four main 
areas of aircraft protections: Radio Frequency Electronic Warfare (RF-
EW); Electro-Optical/Infrared Countermeasure (EO/IRCM); Avionics 
Vulnerability Assessments, Mitigations and Protections (AVAMP); and 
Position, Navigation and Timing in Contested/Denied Environments.
    The Air Force Science and Technology program interacts with NSWC-
Crane in three areas: RF-EW, EO/IRCM and AVAMP.
    In the area of RF-EW, The Air Force and NSWC-Crane have worked 
together on the Airborne Electronic Attack Analysis of Alternatives, 
maturation of Next-Generation Jammer technology, and collaborative 
development of the early generation of Digital Radio Frequency Memory 
(DRFM) cards used for EW.
    This collaboration is continuing in several forms today beginning 
with miniaturized DRFM cards. For fiscal year 2015 NSWC-Crane will 
fabricate these cards for Air Force to support ongoing research in 
electronic attack and electronic support areas.
    Cognitive EW is a growing interest area for the Air Force as we 
address modern air defense threats that are software defined and 
adaptive. The Air Force recently hosted a 6-month study on Cognitive EW 
in Anti-Access/Area Denied (A2/AD) environments. NSWC-Crane (along with 
other services) was a partner in this study to help develop a roadmap 
for future research activities. Further, NSWC-Crane has invited the Air 
Force to participate in the upcoming January 15, 2015 kick-off of their 
Reactive Electronic Attack Measures (REAM) FNC project.
    The Air Force and NSWC-Crane also partner on DARPA activities. 
DARPA's Retroactive Array for Coherent Transmission (ReACT) awards are 
jointly managed by Crane and the Air Force while the Adaptive Radar 
Countermeasure (ARC) program is managed by the Air Force with NSWC-
Crane providing SME support
    Future plans for collaboration include NSWC-Crane support for 
distributed EW development and Air Force SME support to evaluate and 
assess Next Generation Jammer technologies. Bottom line is that the Air 
Force and NSWC-Crane RF EW collaborations are synchronized and mutually 
supportive.
    Within the EO/IRCM area the Air Force has a number of ongoing 
collaborative efforts with NSWC-Crane beginning with their NICKEL Lab. 
The Air Force counterpart is the Dynamic Infrared Missile Evaluation 
(DIME) facility. The purpose of these facilities is to characterize 
various EO/IR threats. The Air Force's EO/IRCM collaboration with Crane 
has a rich history and is one that will only increase in the future 
especially as EO/IR weapon systems become more advanced and capable.
    The strongest collaborative effort within AVAMP is in the area of 
Anti-Tamper which has been ongoing since the inception of the Secretary 
of Defense's Anti-Tamper program. Anti-Tamper technology protects U.S. 
critical information resident on weapons systems from loss due to 
combat losses.
                                 ______
                                 
         Question Submitted to Rear Admiral Matthew L. Klunder
               Question Submitted by Senator Daniel Coats
    Question. Naval Surface Warfare Center (NSWC) Crane has become 
widely recognized across the Department of Defense, and within the 
Federal Lab System for rethinking and pioneering Technology Transfer. 
Currently, the Research Directorate within Assistant Secretary of 
Defense--Research & Engineering (ASD-R&E) and the State of Indiana are 
collaborating around Crane's successes to demonstrate how a lab's 
innovation can be used to increase the lab's mission effectiveness. 
What future role do you see for the Navy's Warfare Centers for both 
innovation and economic development? Do you see a leadership role for 
the Office of Naval Research and/or the Naval Research Laboratory in 
this process as the Navy's premier Research and Development 
organizations?
    Answer. The Chief of Naval Research coordinates thousands of 
partnerships across the Department of the Navy's Research Enterprise 
which includes the naval warfare centers and the naval systems 
commands. These efforts are aligned with the nine focus areas of the 
naval Science and Technology strategy. Where appropriate, the field 
activities, including the warfare and system centers, team on 
technology transfer initiatives. The primary mission of these 
activities is to support the naval community with materiel solutions. 
Each R&D activity has a technology transfer office that stimulates 
economic benefit through technology transfer and cooperative 
development. Not only do the nature of the NSWC Crane's intellectual 
property and products set the stage for greater-than-average technology 
transfer opportunities, they have developed methods that are looked at 
as best practices across the Naval Enterprise.
                                 ______
                                 
                   Questions Submitted to Mary Miller
              Questions Submitted by Senator Mark L. Pryor
    Question. Congress is very supportive of research work at the 
Department of Defense and the Department of Energy to develop silicon 
carbide wide band gap power electronics and has provided funding to the 
Army specifically to increase Manufacturing Readiness Levels for 
silicon carbide power electronics and support domestic supply chain 
development. What is the Army's ``roadmap'' or plan for transitioning 
silicon carbide power electronics into Army systems?
    Answer. With the addition of the referenced congressional silicon 
carbide special interest funding, the Army's silicon carbide starting 
material, power devices, and power packaging programs have been moving 
the technology toward commercial and custom power devices with higher 
efficiency, greater reliability, and lower cost. The resulting power 
devices and power module technology are being transitioned to 6.3 
(Advanced) Technology Development demonstration programs sanctioned by 
Program Executive Office Ground Combat Systems with the end goal of 
transitioning the technology to combat vehicle programs of record. 
These programs are focusing on power generation, power distribution, 
and electrified propulsion systems implemented with silicon carbide 
power devices rated at the lower voltage range of 1.2 to 3.3 kV and 
vehicle survivability systems such as electro-magnetic armor 
implemented using silicon carbide devices rated at 15 kV. Technology 
Readiness Level 5/6 demonstrations are planned for fiscal year 2016 to 
fiscal year 2019 through the Combat Vehicle Prototyping Program with 
transition to Paladin Integrated Management Program in fiscal year 
2016, the Future Fighting Vehicle in fiscal year 2021, and Stryker and 
Bradley Modernization Programs in fiscal year 2022.
    Question. How will the Army allocate and execute silicon carbide 
research funds appropriated in fiscal year 2014 taking into account the 
better outlook for technology transition and domestic supply chain 
development for low voltage applications?
    Answer. In fiscal year 2013, an additional $13 million was added by 
Congress for silicon carbide research. Of this $7.6 million and $3.1 
million was used to increase Manufacturing Readiness Levels (MRL) for 
starting material, power devices, and power packaging rated at the 
lower voltages (1.2-3.3 kV) for power generation, power distribution, 
and electrified propulsion systems and at the higher voltages (10-24 
kV) for electronic survivability systems, respectively. With the 
referenced fiscal year 2014 funding of $10 million, the Army plans to 
apportion the research similarly with about $7 million funding power 
electronics rated at lower voltage and about $3 million funding the 
higher voltage applications. With the fiscal year 2013 special interest 
funds we started efforts with two external partners (United Silicon 
Carbide Inc. and Monolith Semiconductor Inc.) that are using fully 
depreciated 6'' diameter silicon foundries for fabrication of their 
silicon carbide power device designs to take advantage of highly cost-
effective excess silicon processing capability. Further, with the 
fiscal year 2013 funds we refocused work at a current partner (Arkansas 
Power Electronics Inc.) to include power packaging technologies for 
high-temperature silicon carbide power devices rated at the lower 
voltage range (1.2- 3.3 kV). We will continue efforts with these 
external partners using the fiscal year 2014 special interest funding 
as well as add at least two new external partners to further increase 
MRL levels and broaden the tech base of the supply chain. The Army will 
continue to coordinate with the Department of Energy to ensure that 
both agencies' programs with common external partners are leveraged to 
provide maximum benefit to the government.
                                 ______
                                 
             Question Submitted by Senator Susan M. Collins
    Question. The University of Maine has developed a ``bridge in a 
backpack'' for constructing short- to medium-length bridges in the 
field with very light-weight materials. Soldiers or Marines can 
literally carry the materials needed to build a bridge on their backs 
without having to use heavy equipment or large crews.
    What research is the Army conducting to reduce the logistics 
footprint necessary to conduct expeditionary operations, from small 
items to larger infrastructure such as bridges?
    Answer. Army Science & Technology has a wide variety of research 
efforts that aim to reduce the Army's logistics footprint. A few 
examples include Modular Protection Systems which provide easily 
assembled, rapidly deployed force protection in austere environments; 
virtual contingency base planning tools which reduce operations, 
support, and resupply costs; and highly efficient field waste water 
systems that reduce potable water demand and waste water production at 
contingency bases.
    Many of our efforts in reducing our logistical footprint are 
underpinned by advanced materials science research, a high priority 
initiative in Army Basic Research. The Army's Materials by Design 
within the advanced materials science research initiative is a paradigm 
shift for the development of new classes of materials. This could 
result in greatly reduced weight for protection materials, much higher 
energy density for batteries, and more efficient, longer lasting 
electrical components.
                                 ______
                                 
               Question Submitted by Senator Daniel Coats
    Question. Naval Surface Warfare Center Crane is the largest 
multiservice, multidomain facility within the Department of Defense 
(DOD) for Electronic Warfare (EW), EW sensors and electronics. What 
plans does the Army's Science & Technology program have in fiscal year 
2015 to partner with NSWC Crane in the area of electronic warfare to 
maximize the limited amount of EW resources? Do you have any plans to 
visit NSWC Crane in the near future?
    Answer. The Army Science and Technology community has partnered 
with Naval Surface Warfare Center (NSWC) Crane on a number of 
initiatives. For instance, the Army's Communication Electronics 
Research and Development Center, Intelligence and Information Warfare 
Directorate (CERDEC I2WD) supports joint Service working groups 
developing defensive electronic attack techniques and standardizing 
seeker countermeasure lab practices across the Services. Additionally, 
NSWC Crane created the Communications Electronic Attack with 
Surveillance and Reconnaissance/Networked Electronic Warfare Remotely 
Operated airborne jammer pods for the Army. These systems have been 
retired from the field and CERDEC I2WD will be receiving one of the 
pods for experimentation. Finally, the Army Research Laboratory (ARL) 
held an information exchange meeting with NSWC Crane in fiscal year 
2014, which included a discussion about sharing EW signature data. 
Crane has been extremely helpful to ARL, loaning a Counter Radio-
Controlled Improvised Explosive Device Electronic Warfare Vehicle 
Receiver/Jammer and a Thor dismounted manpack jammer for compatibility 
experiments. ARL plans to continue to work with NSWC Crane during 
fiscal year 2015.
    While I do not currently have plans to visit NSWC Crane, I would 
welcome the opportunity to do so in the future.

                          SUBCOMMITTEE RECESS

    Senator Durbin. Thank you to our panel for the testimony 
today. We are going to pursue this topic at the next level 
which is called appropriations. So we will try to help. Thank 
you very much for being here.
    [Whereupon, at 11:21 a.m., Wednesday, May 14, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
